<html>
<title> - VIOLENT ISLAMIST EXTREMISM: AL-SHABAAB RECRUITMENT IN AMERICA</title>
<body><pre>[Senate Hearing 111-678]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-678

                    VIOLENT ISLAMIST EXTREMISM--2009

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2009
     VIOLENT ISLAMIST EXTREMISM: AL-SHABAAB RECRUITMENT IN AMERICA

                           SEPTEMBER 30, 2009
    EIGHT YEARS AFTER 9/11: CONFRONTING THE TERRORIST THREAT TO THE 
                                HOMELAND

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
49-640 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS AS OF MARCH 11, 
                                  2009

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK l. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS AS OF SEPTEMBER 
                                30, 2009

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK l. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK JR., Massachusetts

                  Michael L. Alexander, Staff Director
    Todd M. Stein, Legislative Director, Office of Senator Lieberman
                      Gordon N. Lederman, Counsel
            Christian J. Beckner, Professional Staff Member
               Seamus A. Hughes Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Ivy A. Johnson, Minority Senior Counsel
                    John K. Grant, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................ 1, 51
    Senator Collins.............................................. 3, 54
    Senator Bennet...............................................    15
    Senator Voinovich............................................    15
    Senator Burris.............................................. 17, 68
    Senator Kirk.................................................    51
    Senator Tester...............................................    71
    Senator Levin................................................    75
Prepared statements:
    Senator Burris...............................................    68
    Senator Lieberman.......................................... 89, 138
    Senator Collins............................................ 92, 140
    Senator Bennet...............................................   143

                               WITNESSES
                       Wednesday, March 11, 2009

Andrew M. Liepman, Deputy Director of Intelligence, National 
  Counterterrorism Center, Office of the Director of National 
  Intelligence...................................................     5
J. Philip Mudd, Associate Executive Assistant Director, National 
  Security Branch, Federal Bureau of Investigation, U.S. 
  Department of Justice..........................................     8
Ken Menkhaus, Ph.D., Professor of Political Science, Davidson 
  College........................................................    25
Osman Ahmed, President, Riverside Plaza Tenants Association, 
  Minneapolis, Minnesota.........................................    31
Abdirahman Mukhtar, Youth Program Manager, Brian Coyle Center, 
  Pillsbury United Communities, Minneapolis, Minnesota...........    35

                     Wednesday, September 30, 2009

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................    56
Hon. Robert S. Mueller III, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................    58
Hon. Michael E. Leiter, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........    60

                     Alphabetical List of Witnesses

Ahmed, Osman:
    Testimony....................................................    31
    Prepared statement...........................................   119
Leiter, Hon. Michael E.:
    Testimony....................................................    60
    Prepared statement...........................................   165
Liepman, Andrew M.:
    Testimony....................................................     5
    Prepared statement...........................................    93
Menkhaus, Ken, Ph.D.:
    Testimony....................................................    25
    Prepared statement...........................................   105
Mudd, J. Philip:
    Testimony....................................................     8
    Prepared statement...........................................   100
Mueller, Hon. Robert S. III:
    Testimony....................................................    58
    Prepared statement...........................................   158
Mukhtar, Abdirahman:
    Testimony....................................................    35
    Prepared statement...........................................   125
Napolitano, Hon. Janet A.:
    Testimony....................................................    56
    Prepared statement...........................................   144

                                APPENDIX

Hon. Keith Ellison, a Representative in Congress from the State 
  of Minnesota, prepared statement...............................   133
Omar Hurre, Executive Director, Abubakar As-Sadique Islamic 
  Center, letter dated March 12, 2009............................   135
Responses to post-hearing questions for the Record from:
    Mr. Liepman..................................................   171
    Mr. Mudd.....................................................   172
    Mr. Menkhaus.................................................   178
    Secretary Napolitano.........................................   179
    Mr. Mueller..................................................   193
    Mr. Leiter...................................................   198

 
     VIOLENT ISLAMIST EXTREMISM: AL-SHABAAB RECRUITMENT IN AMERICA

                              ----------                              


                       WEDNESDAY, MARCH 11, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Burris, Bennet, Collins, and 
Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning, and welcome to this 
morning's hearing, which we have called ``Violent Islamist 
Extremism: Al-Shabaab Recruitment in America.''
    This hearing falls, coincidentally, on an important date. 
This is the fifth anniversary of the Madrid, Spain, train 
bombings that killed 191 people and wounded another 1,800. The 
Madrid train bombings were a turning point in Islamist 
terrorism, turning from a centrally controlled movement to one 
that had also begun to act through autonomous cells, in some 
cases with direct links to al-Qaeda or other international 
terrorist groups, but in some others cases with no or very 
slight contact. This expanded the reach of violent Islamist 
ideology and made terrorism that much harder to detect and 
prevent.
    We have, for instance, seen the al-Qaeda franchise itself 
around the world, in the now effectively defeated al-Qaeda in 
Iraq--although there is some lingering elements still in a few 
of the cities--in al-Qaeda in the Islamic Maghreb operating in 
North Africa, and in al-Shabaab fighting and training 
terrorists in Somalia, which is in part the subject of the 
hearing today. But the turn toward more diffuse international 
terrorism is the reason why the radicalization and recruitment 
of individuals in the United States by Islamist terrorist 
organizations has been a major focus of this Homeland Security 
Committee's work over the past 2\1/2\ years.
    The Committee has held seven hearings to date, the most 
recent only last July that focused on Islamist ideology as the 
essential ingredient to Islamist terrorism. Last May, the 
Committee released a report titled ``Violent Islamist 
Extremism: The Internet and the Homegrown Terrorist Threat'' 
that described the influence of online content produced by al-
Qaeda, al-Shabaab, and other Islamist terrorist groups on 
individuals like those who have now gone missing from the 
Somali-American community in Minneapolis, Minnesota.
    Today, we are going to focus on what appears to be the most 
significant case of homegrown American terrorism recruiting 
based on violent Islamist ideology. The facts, as we know them, 
tell us that over the last 2 years, individuals from the 
Somali-American community in the United States, including 
American citizens, have left for Somalia to support and in some 
cases fight on behalf of al-Shabaab, which, incidentally, was 
designated as a foreign terrorist organization by our 
government in February 2008.
    There are ideological, tactical, financial, and also 
personnel links between al-Shabaab and al-Qaeda. Al-Shabaab was 
credited with sheltering some of those responsible for the 
embassy bombings in Kenya and Tanzania. Just last month, al-
Qaeda released a video titled ``From Kabul to Mogadishu'' in 
which al-Qaeda's second in command, Ayman al-Zawahiri, praises 
al-Shabaab and calls on Muslims throughout the world to join 
their fight in Somalia.
    Al-Shabaab, meanwhile, continues to release recruiting 
videos targeting Westerners, and those videos are surely being 
watched by some potential followers here in the United States.
    In the most graphic and deadly example of a direct 
connection between the Somali-American community and 
international terrorism, Shirwa Ahmed, a naturalized U.S. 
citizen living in the Minneapolis area, returned to Somalia 
within the last 2 years and killed himself and many others in a 
suicide bombing last October. According to Federal Bureau of 
Investigation (FBI) Director Robert Mueller, Shirwa Ahmed, who 
was radicalized in Minnesota, is probably the first U.S. 
citizen to carry out a terrorist suicide bombing.
    One of the witnesses on our second panel, Abdi Mukhtar, who 
is the youth program manager at the Brian Coyle Center in 
Minneapolis, which is a gathering place for young Somalis, was 
friends and attended Roosevelt High School in Minneapolis with 
Shirwa Ahmed. In his testimony, which I find very compelling 
and important, Abdi Mukhtar will explain how he and Shirwa 
Ahmed had similar internal identity conflicts about being 
Somali and American, but in the end resolved those conflicts in 
very different ways. Abdi Mukhtar chose America, and Shirwa 
Ahmed chose Islamist terrorism.
    This morning, we want to understand why, to the best of our 
ability, each made this choice and what we together can do to 
make sure that others, including succeeding generations of 
Somali-Americans and, more generally, Muslim-Americans make the 
right choice.
    I do want to say here that there is no evidence of 
radicalization of the Somali-American community generally. In 
fact, in my own vision of this, the Somali-American community 
are victims of a small group of extremists who are essentially 
terrorizing their own community, who are recruiting and 
radicalizing young people within that community. And, of 
course, our hope here this morning is to figure out how we can 
work together with the Somali-American community, with the 
Muslim-American community, and with law enforcement, as 
represented on our first panel, to protect young Somali-
Americans and perhaps other Muslim-Americans--though we have 
noted in our earlier hearings that the Muslim-American 
community, because it is more integrated seems to have been 
much less vulnerable than Muslim communities in Europe to 
recruitment and radicalization. Nonetheless, the hearing today 
and other evidence that this Committee has compiled shows that 
the problem, though it may be less severe here in America, is 
here. And that I think is what is jarring about the story that 
we are going to hear described today.
    There obviously are people here in the United States 
recruiting young Somali-Americans to go over to Somalia to be 
trained to fight and, of course, as we will hear from our 
witnesses and this Committee will ask, perhaps--worrisome 
particularly to us--being trained to return to the United 
States to carry out terrorist attacks here.
    The primary questions for this hearing, as I see them, are: 
Who influenced these young men, apparently at least 20 of them, 
maybe more, to return to Somalia and join al-Shabaab? Who 
financed their trips? What, if any, role did local mosque 
leadership play in recruiting the young men to join al-Shabaab? 
What role did the Internet play, both in the form of online 
content and e-mail communications from those who have already 
returned to Somalia, in recruiting and radicalizing the young 
men? What influence does Islamist ideology in Minneapolis play 
in creating a fertile ground for al-Shabaab recruiters? Will 
those who have disappeared use their American passports to 
return and then plan and execute terrorist attacks here in our 
homeland? And why does al-Shabaab want American and other 
recruits from the West, when there are presumably plenty of 
young men willing to fight in Somalia?
    Those are important questions. They go directly to the 
mandate that this Committee has had to protect the homeland 
security of the American people. I thank all the witnesses who 
have come before us, particularly those who have come from the 
Somali-American community in Minneapolis. It takes some courage 
to do so. I think it is both love of their own ethnic community 
and dedication to America that brings them here, and for all of 
that, we are grateful and look forward to hearing them.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    The most effective border security system cannot protect 
our Nation from ``homegrown terrorists,'' individuals already 
living in our country who become radicalized and committed to a 
violent ideology. Three years ago, as the Chairman has 
mentioned, this Committee launched an investigation into 
homegrown terrorism and the process by which individuals within 
our country could become radicalized and commit terrorist 
attacks.
    Our investigation has examined radicalization among prison 
populations, the efforts by Federal, State, and local law 
enforcement to counter the homegrown threat, as well as the 
role of the Internet in the radicalization process. This past 
October, however, the threat of homegrown terrorism took 
another disturbing turn when a young man from Minnesota carried 
out a suicide bombing in Somalia. As the Chairman has noted, 
FBI Director Mueller believes that this suicide bombing marked 
the first time that a U.S. citizen had carried out a terrorist 
suicide bombing. Although the bombing took place in Somalia, 
Director Mueller stated that it appears that the individual had 
been radicalized in his hometown of Minneapolis. Even more 
disturbing, this young man apparently was not the only American 
citizen to have traveled to Somalia to join the terrorist group 
known as al-Shabaab.
    The danger brought to light by these revelations is clear. 
Radicalized individuals, trained in terrorist tactics and in 
possession of American passports, can clearly pose a threat to 
the security of our country.
    Our discussion today is not just a consideration of the 
counterterrorism tactics and intelligence gathering needed to 
counter this growing threat, but also should serve to remind us 
that there is a personal side to this story. These young men 
left behind families who care deeply for them and who want to 
see them come home unharmed. They left behind a community which 
lived, worked, and worshipped with them and which now in some 
ways lives under a cloud of suspicion, worrying that perhaps 
tomorrow their own children might not come home.
    Two of our witnesses have traveled from Minneapolis to talk 
about this side of the story with us today. Like so many Somali 
immigrants, these are patriotic American citizens who have 
bravely come forward to tell their story and to help us find 
the answers to the questions that trouble all of us, the 
questions that the Chairman has so eloquently outlined. Let me 
add a few more questions.
    We need to better understand what drew these young men to 
adopt a violent extremist ideology with such fervor that they 
traveled thousands of miles to join a terrorist group. As the 
Chairman indicated, I am particularly interested in the 
question of why terrorist groups thousands of miles from our 
shores would recruit Americans when there are plenty of willing 
recruits in their own country.
    Is there an individual or a network operating within the 
United States facilitating recruitment or providing financial 
support for al-Shabaab?
    How can we better work with the Somali-American community--
and with any other community where a violent extremist ideology 
might take root--to ensure that other young Americans do not 
stray down the same path?
    These are among the important questions that we will 
explore as our Committee continues to examine the threat of 
homegrown terrorism.
    Again, I want to thank the Chairman for his leadership in 
this area and our witnesses for appearing today. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    In fact, this Committee's investigation to answer the 
question of is there recruitment of Islamist terrorists and 
radicalization occurring in the United States began under 
Senator Collins' chairmanship and leadership, and it has been 
my pleasure to continue this important work in partnership with 
her.
    Let's go right to the first panel. We have Philip Mudd, 
Associate Executive Assistant Director, National Security 
Branch, Federal Bureau of Investigation with us. Mr. Mudd, 
thanks for being here again, and we welcome your testimony now. 
Or are you going to yield to Mr. Liepman? Based on age or----
    Mr. Mudd. Looks. [Laughter.]
    Chairman Lieberman [continuing]. Lack of hair? OK. On the 
top of his head, I meant. All right. Let me just introduce you. 
You can rebut if you would like, Mr. Liepman.
    Andrew Liepman is the Deputy Director of Intelligence of 
the National Counterterrorism Center (NCTC). For those who do 
not know, the NCTC was created as part of the post-September 
11, 2001, reforms recommended by the 9/11 Commission. It is the 
central place, along with the Office of the Director of 
National Intelligence, but this is really the place where all 
of America's intelligence and intelligence-related agencies are 
working together 24/7 to share information, to raise 
information, and to make sure that the dots are connected in a 
way that they were not before September 11, 2001, which meant 
we were not able to prevent that tragic event.
    So, with that, Mr. Liepman, thank you.

     TESTIMONY OF ANDREW M. LIEPMAN,\1\ DEPUTY DIRECTOR OF 
 INTELLIGENCE, NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE 
               DIRECTOR OF NATIONAL INTELLIGENCE

    Mr. Liepman. Thank you, Chairman Lieberman, Ranking Member 
Collins. We welcome the opportunity to appear before you today 
to share our perspectives on the radicalization of Somali youth 
in America. And I do appreciate the opportunity to appear 
beside my longtime colleague Mr. Mudd from the Bureau. I will 
focus on what factors contribute to the radicalization and some 
of the particularly vulnerabilities of the Somali-American 
community. I will defer to Mr. Mudd to talk about the FBI 
activities. Let me start with a bit of context, a very brief 
history of events in Somalia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Liepman appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    The turmoil and instability in Somalia dates back to the 
collapse of the government there in 1991, which resulted in a 
descent into factional fighting and anarchy. In 2006, following 
multiple failed attempts to bring stability, a loose coalition 
of clerics, local leaders, and militias known as the Council of 
Islamic Courts took power in much of Somalia. The Somali 
Transitional Federal Government joined with Ethiopian forces 
and routed the Islamic Court militias in a 2-week war. It is an 
important milestone. It also represents an important rallying 
point for Somalis, both in Somalia and in the diaspora.
    Since the end of 2006, al-Shabaab--the militant wing of the 
council--has led a collection of clan militias in a violent 
insurgency, using guerrilla warfare and terrorist tactics 
against the transitional government and the Ethiopian presence 
in the region.
    Just to give you some sense of the Somali-American 
diaspora, they began arriving in the United States in 
significant numbers in 1992 following the U.S. intervention in 
Somalia's humanitarian crisis. The Somali-American population 
is distributed in clusters throughout the United States, with 
the heaviest concentrations in Minneapolis, Columbus, Seattle, 
and San Diego. There are a variety of estimates of the size of 
the Somali-American population. It is a fairly difficult number 
to give you with some precision. I think generally we accept 
the range from 70,000 to as many as 200,000.
    Despite significant efforts to facilitate their settlement 
into American communities, many Somali immigrants face 
isolation. The adjustment to American society has reinforced 
their greater insularity compared to other, more integrated 
recent immigrant communities and has aggravated the challenges 
of assimilation for their children.
    One of the main reasons that Mr. Mudd and I are here today, 
obviously, is the concern we have over the travel by some tens 
of Somali-American young men back to Somalia, some of whom have 
trained and fought with al-Shabaab. The involvement of this 
foreign terrorist organization, al-Shabaab, means we cannot 
simply categorize this as homegrown violence. We are concerned 
that if a few Somali-American youth can be motivated to engage 
in such activities overseas, fellow travelers could return to 
the United States and engage in terrorist activities here.
    Let me stress we do not have a body of reporting that 
indicates U.S. persons who have traveled to Somalia are 
planning to execute attacks in the United States. We do not 
have that credible reporting. But we do worry that there is a 
potential that these individuals could be indoctrinated by al-
Qaeda while they are in Somalia and then return to the United 
States with the intention to conduct attacks. They would, in 
fact, provide al-Qaeda with trained extremists inside the 
United States.
    One of the main questions that we try and answer is: What 
causes the radicalization of a small but significant number of 
Somali-American youth? The answer is complex. It is the result 
of a number of factors that come together when a dynamic, 
influential, and extremist leader gains access to a despondent 
and disenfranchised group of young men. Sophisticated extremist 
recruiters target these individuals who lack structure and 
definition in their lives. The recruiters subject them to 
religiously inspired indoctrination to move them toward violent 
extremism. They target vulnerable young men--many of them 
refugees who came here as small children or who are the 
children of immigrants--torn between their parents' traditional 
ethnic, tribal, and clan identities and the new cultures and 
traditions offered by American society.
    Among Somali-Americans, the refugee experience of fleeing a 
war-torn country, combined with isolation, perceived 
discrimination, marginalization, and frustrated expectations, 
as well as local criminal, familial, and clan dynamics, make 
some members of this community more susceptible to this sort of 
extremist influence.
    And let me stress, just as you said, Mr. Chairman, we are 
not witnessing a community-wide radicalization among Somali-
Americans. When I speak of the Somali-American community, I do 
not mean to generalize; rather, I am describing a problem 
limited to a small fraction of the community, most of which 
came to America to get away from violence, not to commit it. 
The overwhelming majority of Somali-Americans are or want to be 
contributing members of American society, trying to raise their 
families here and desperately wishing for stability in their 
ancestral homeland.
    But as I said, the Somali community is in some respects 
more susceptible to the influence of extremist elements. A 
number of factors that have mitigated radicalization among 
other ethnic religious American communities are less evident in 
the Somali community here. These include some level of faith in 
the American political system, access to resources to defense 
civil rights and civil liberties, and interaction with non-
Muslims, and a greater focus on domestic rather than 
international events.
    You asked about the role that the Internet plays in 
radicalizing Somali youth. It is not an easy metric for us to 
measure. It is clear, though that access to the Internet and to 
such material on the Internet alone is rarely enough to cause 
an individual to become radical himself. It is also clear, 
though, that the Somali-American youth who have traveled abroad 
to join in fighting for al-Shabaab were exposed to al-Shabaab's 
extremist ideology here in the United States, both in terms of 
face-to-face contact with extremist elements and on the 
Internet. And they tended to reinforce each other. The easy 
availability of extremist media on the Internet provides a 
range of themes that extremist recruiters can use to appeal to 
disenfranchise young men. As you mentioned, al-Qaeda senior 
leadership in recent months have weighed in with their own 
support for al-Shabaab, praising it and depicting Somalia as a 
local manifestation of the broader conflict between the West 
and Islam.
    I should note that this al-Qaeda stamp of approval does not 
guarantee either greater success or enhanced impact. In fact, 
it could backfire. Many potential ethnic Somali recruits would 
prefer to join a group that is focused explicitly on Somali 
issues rather than signing up for the global jihad and joining 
an al-Qaeda affiliate.
    Let me end with a couple of comments on NCTC's role in this 
process and address your reference to this being a turning 
point, the fifth year of the anniversary of the Madrid attack.
    Indeed, it is a turning point in many respects. I think in 
2004, if we remember back, the Office of the Director of 
National Intelligence did not yet exist. NCTC was in its 
infancy. It was then called the Terrorist Threat Integration 
Center. And I would like to think that the community has come a 
long way since then. In fact, Somalia represents a great 
example of the type of challenge that I think NCTC can assist 
in. It is the intersection between a foreign problem that parts 
of our community study in Somalia and a homegrown problem that 
our domestic organizations are focused on. And we, in NCTC, are 
trying to bridge those two communities and, I would like to 
think, helping in that effort.
    With that, what I would like to do is turn the floor over 
to Mr. Mudd for some comments on what the FBI is doing.
    Chairman Lieberman. Thanks, Mr. Liepman. That was a good 
beginning.
    Now to Phil Mudd of the FBI.

 TESTIMONY OF J. PHILIP MUDD,\1\ ASSOCIATE EXECUTIVE ASSISTANT 
     DIRECTOR, NATIONAL SECURITY BRANCH, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Mudd. Thank you for having me here. I think in the 
interest of full disclosure, it is a great pleasure to be 
sitting at the table with Mr. Liepman. He and I have known each 
other for almost a quarter century, so having him refer to me 
as ``Mr. Mudd'' is going to be the source of great amusement 
later today, and I must appreciate that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mudd appears in the Appendix on 
page 100.
---------------------------------------------------------------------------
    I do not really have an oral statement. Senator Collins 
talked about people telling stories. I wanted to tell a story 
of how this looks to someone who in the past has looked at 
terrorism overseas and who for the past 3\1/2\ years has been 
posted at the Bureau, to tell you the story of a complicated 
picture and, if I succeed, make it coherent in 9 minutes and 23 
seconds, so I will give it a try.
    Think of this as an example of globalization. If you wake 
up in the morning and want to know what is happening in the 
stock market, you look at the DAX in Germany, you look at what 
is happening in the European and Asian exchanges. This is an 
example of globalization on a different front.
    I will talk about a couple of intersecting trends: The 
first Mr. Liepman talked about, in 1991, the fall of the Siad 
Barre government; the rise of warlordism in the 1990s; and the 
rise of the Islamic Courts in the 1990s and into this century. 
So the first trend, if you will, is ``ungoverned space,'' as 
people refer to it, a place where somebody like al-Shabaab can 
develop training camps, a place that looks something like the 
tribal areas of Pakistan, for example, or the Sahel--Mali, 
Chad, and southern Algeria. So that is your first piece; places 
around the world that lack governance happen to correspond with 
places where you have problems. Yemen would be another example.
    The second trend I would point to is, if you look at Bosnia 
or Kashmir or Afghanistan from the 1980s after the Soviet 
invasion, you have magnets of activity for Islamic extremists. 
Somalia is a bit different. For example, Somali-Americans and 
Somalis in general did not flock to jihads elsewhere but, 
nonetheless, al-Shabaab has linkages to this global Islamist 
movement. Its leadership has linkages to al-Qaeda leadership. 
So I think the second trend I would point to, again, in the 
context of globalization, this is another example. After 
examples in places like Bosnia or Chechnya, of Islamist 
activity serving as a magnet for international jihadists, I 
would point out that not only are Americans showing up; we have 
Western Europeans, Brits--we had a Brit blow himself up 
recently in Somalia. We have Nigerians, Chadians, and Malians.
    And the third and perhaps the most significant--and I want 
to emphasize this because I think some will say, well, this is 
just another example of global jihad--is the nationalist aspect 
of this. We saw a change in the American community in 2006 when 
the Ethiopians invaded, and part of the draw for people in this 
country is to go fight for their country against a foreign 
invader. So global issues, issues in the Horn of Africa having 
an immediate impact, a ripple effect on communities in 
Columbus, Ohio; in Cincinnati; in Seattle; in San Diego; and in 
Minnesota--it is a real example of what globalization means in 
the new information world. And I use the phrase ``information 
world'' advisedly. You have direct connectivity between Somalia 
and the United States. It does not have to be by the Internet. 
It can be Skype or e-mail, friends talking to each other. And 
this is a very tight community where that kind of information 
is getting around independent of any Internet websites.
    Let me overlay some more micro issues onto that sort of 
macro witch's brew of these trends of ungoverned space and an 
Islamist magnet nationalism. You have a community that comes 
here, in contrast to some other immigrant stories--immigrant 
stories, for example, of Indian communities or Pakistani 
communities, communities with doctors and engineers. These are 
folks who come here because they are escaping great trauma in 
their home country. They are working here in meatpacking 
plants, poultry processing plants, there is often not a great 
command in the first generation of the English language among 
their parents.
    If you look at many of the people we are talking about, 
they are coming from single-family homes, in particular, homes 
that are led by sisters or grandmothers or mothers, where there 
is not a father figure.
    There are echoes of what we see overseas. Again, I want to 
emphasize that we are not alone in looking at this problem. I 
want to sign up to what Mr. Liepman said. This is not a 
community problem. In a sense, we do not have radicalized 
communities. We do have radicalized clusters of people, 
typically youths between, let us say, 17 and above, although we 
have seen efforts to radicalize kids as young as 12, 13, or 14 
years old in this country.
    Like what you would see in Europe, it is not necessarily an 
al-Shabaab person in Somalia radicalizing a youth in the United 
States. These are issues within the community where people from 
these kinds of families might see an older brother or father 
figure who starts to spot-assess and recruit--as we say in the 
spy business--someone who might be vulnerable and eventually 
sets them on a path to take a plane ticket to Somalia or 
Ethiopia or someplace else that is an avenue to get into 
Somalia.
    This is important because this is the kind of thing you 
might see in Western Europe or Britain. And, in fact, in 
talking to my friends in even the Arabian Peninsula, we may 
think that we are much different from a place like Saudi 
Arabia, but you see that kind of cluster recruitment by 
friends, older brothers, or community figures elsewhere around 
the world.
    I think there is a popular conception from people in this 
country reading books or watching movies that there are 
terrorist cells with an established leader and somebody to 
provide finance and communication. In fact, whether it is this 
problem of al-Shabaab activity or extremism in the United 
States or other Sunni extremism in the United States, more 
often you have clusters of people who are talking to each 
other. They do not have assigned roles. They do not know what 
they are going to do. They may never do anything, but they are 
talking about committing acts of violence. They may radicalize 
off each other, as kids do in environments across the United 
States. In schoolyards, when I was growing up, I went to throw 
rocks at cars because the kid next to me said let's go do it.
    So you have clusters of youths who are talking to each 
other. There may be a center in the community of 
radicalization. There is not radicalization and then 
recruitment, typically. It is recruitment into this circle, and 
then kids are radicalized and spotted and maybe seen as someone 
who will go overseas.
    The last thing I would tell you to put this in context is 
we are talking about a particular aspect of this issue, which 
is the Somali diaspora. We are here to work with communities. 
We are here to work with our State and local partners. We get 
terrific support on our Joint Terrorism Task Forces from the 
Minneapolis police, the police in Columbus, from county 
officials in Minneapolis, for example, who are working within 
the communities. But we are not talking about radicalization 
among an entire community.
    We need help from the communities. We need them to talk to 
us. It is of concern to us that people like this are coming 
from areas where Federal authorities are suspicious people. We 
have to break that down. We are not here to look at a mosque. A 
mosque is a building, a church is a building, a synagogue is a 
building, and a temple is a building. We are here to look at 
people who might be thinking about or have committed acts of 
violence or are supporting those who do so. This is about 
individuals who are small segments of a community and who do 
not represent the beauty that this country brings to 
immigrants.
    I come from an Italian-Irish-Dutch-British family, and I 
see these folks in the same context that my family might have 
been in this country 100 years ago.
    And, last, context within the FBI. This is a priority for 
the FBI. It is one of a handful or more of priorities. We also 
have issues in this country about violent crime, expanding gang 
activity in this country--Mara Salvatrucha, for example, and 
other Latin American gangs. We have a major public corruption 
problem in this country. We have massive mortgage fraud we are 
looking at in this country. And we have other aspects of 
extremism--extremism that might be linked to one of our key 
concerns, that is, continued al-Qaeda core activity in Pakistan 
and Afghanistan. We have fundraising for Palestinian groups. So 
I want to emphasize that we are not looking at a community. We 
are looking at individuals who are sending kids in the wrong 
direction. We want to work with families who are as concerned 
or more concerned than we are. And I want to put this in the 
context of a lot of priorities we have. This is not one of a 
couple. This is one of many. And we will continue to focus on 
it, but in the context of other priorities we have.
    Thanks again for having me here today, and I look forward 
to talking to you with my friend, Mr. Liepman.
    Chairman Lieberman. Thanks, Mr. Mudd.
    Let me begin the round of questioning. We will do 7-minute 
rounds and keep going as long as Senators want to ask 
questions.
    I heard you say this is a priority. It is one of several 
priorities, obviously. That is what we understand, the priority 
being not just the Somali-American community, but the prospect 
of recruitment and radicalization of Islamist terrorists from 
America. Am I correct in that?
    Mr. Mudd. That is right. I think if you look at one of the 
contrasts with the European experience, if you look at a 
country like Britain, for example--and people have drawn 
parallels--I think there are significant differences that make 
extremism a challenge in this country.
    If you look at Britain, you have pockets of people on the 
extremist side, first, second, and sometimes third-generation 
folks, very dense, interconnected in places like Birmingham or 
Manchester.
    Chairman Lieberman. Right.
    Mr. Mudd. In this country, we see more dispersed 
communities, more dispersed activity. Activity in Los Angeles 
might not have linkages or typically will not have linkages to 
what we see in New York, Arizona, Florida, or Georgia.
    Chairman Lieberman. Let me pursue this, and I hear you. Am 
I correct in assuming that the FBI is on the ground, so to 
speak, in the Somali-American community, both in terms of 
outreach to the community, at which the Bureau has really done 
very well generally, but also investigating recruitment and 
radicalization?
    Mr. Mudd. That is correct. I would point to outreach, 
first. The second is we do have partnerships with the local 
police in Minneapolis and Columbus. And third is we have a 
substantial amount of investigative resources looking not only 
at recruitment but also the issue of fundraising in this 
country.
    Chairman Lieberman. I take it there is no doubt that there 
have been some Somali-Americans recruited, radicalized here who 
have gone to Somalia. Correct?
    Mr. Mudd. That is correct.
    Chairman Lieberman. And the number is a bit vague. I have 
heard some people say as many as 20, some people say maybe a 
lot more because families are hesitant to report people gone to 
Somalia for fear that they will not be able to come back. What 
is your best estimate of how significant this problem is?
    Mr. Mudd. I would talk in terms of tens of people, which 
sounds small, but it is significant because every terrorist is 
somebody who can potentially throw a grenade into a shopping 
mall.
    I would point out the reason this is fuzzy, as Mr. Liepman 
said, there are as many as a few hundred thousands just in this 
community of Somalis in the United States. There are thousands 
of people, thousands going to the Horn of Africa every month. 
You can go to Kenya to look at game parks, and it is hard for 
me to tell you somebody is going to a game park or going to al-
Shabaab.
    So I am sure that there are people out there we are 
missing. It is a country with 300 million people, with a lot of 
travel to this area. But I would put it in the range of tens of 
people.
    Chairman Lieberman. Tens, OK. So accepting that as a 
baseline for purposes of discussion, assuming that tens of 
Somali-Americans have gone to train and presumably fight with 
al-Shabaab in Somalia, I assume from what you both said that, 
therefore, we can assume that there are recruiters or leaders 
in the Somali-American community who are responsible, at least 
in part, for that movement of people. Is that right?
    Mr. Mudd. I think that is fair.
    Chairman Lieberman. OK. So now let me go to the question 
both Senator Collins and I asked, which is: Why would an 
Islamist terrorist organization like al-Shabaab want to recruit 
and radicalize Somalis in America when presumably they can and 
there are ample numbers to recruit and train for terrorism in 
Somalia?
    Mr. Liepman. I am not sure that it is to fill their ranks.
    Chairman Lieberman. Really.
    Mr. Liepman. I do not think they are looking at America as 
a broad recruiting ground to collect hundreds or thousands of 
fighters that are the vanguard of their force.
    I think they are looking--first of all, it is a two-way 
street. I think they are accepting non-Somali fighters from all 
over Africa, from the United States, and from Europe. In a way, 
I think it adds to their credibility. It raises their profile. 
It is a public relations bonanza for them to have a 
multinational force fighting the Ethiopians, for example. It 
makes it appear that it is not just Somalia versus Ethiopia, 
but a broader conflict, particularly on the continent of 
Africa.
    And I do think that they are looking for small numbers, and 
it is not just the recruiters coming to America to try and 
bring people. They are reacting to a demand among the small 
fraction of the Somali community who have said they are 
interested in going. So there is a meeting of the minds there.
    Chairman Lieberman. From what we know about the way these 
groups operate, do you assume--I understand the difficulty of 
making a judgment about the motivation. Your answer is helpful 
to us. But seeing the recruitment that we see, do you assume 
that the local recruiting is being done at the request of al-
Shabaab leadership in Somalia? Or is it self-generated here?
    Mr. Mudd. I would think of it--I think Mr. Liepman is 
right--as more push than pull at this point. A couple quick 
points. This is a global jihad.
    Chairman Lieberman. Right.
    Mr. Mudd. There are people from Chad, Mali, and Nigeria, 
and we should look at that in that context. But it is not like 
people in East Africa are saying, ``I wish I had another five 
Americans.''
    The second point that is important, the first wave of 
people we saw from 2006 to 2007 roughly, were not Somali-
Americans. The first wave of people we saw were Americans, 
people like Chris Paul--not in this circumstance, but somebody 
who was prosecuted earlier for fighting overseas.
    Chairman Lieberman. Going to Somalia?
    Mr. Mudd. That is correct.
    Chairman Lieberman. For training?
    Mr. Mudd. That is correct, underscoring the point that this 
is a jihad issue that is not simply restricted to American 
Somalis.
    Third and final point, it is important, when we try to put 
this in the context of terrorism, to understand what these kids 
are doing out there: Ambushes, convoys, and improvised 
explosive devices (IEDs).
    Chairman Lieberman. Right.
    Mr. Mudd. This is a paramilitary conflict and they are not 
necessarily getting training on how to develop a covert cell in 
Minneapolis.
    Chairman Lieberman. So the final question from me in this 
round, obviously some of these Somali-Americans are traveling 
with American passports or papers that would enable them more 
easily to get back into the United States. I understand, Mr. 
Liepman, you said we have no evidence now that any of this 
recruitment for training in Somalia is being done with the aim 
of sending them back here to carry out terrorist acts. But it 
would be easier for them to get back in, and my question is--
and this really goes to the NCTC with all the cooperation among 
agencies you have: Are we putting up any special filters to 
watch out for the return of some of these Somali-Americans to 
America for fear of what they might be inclined to do here?
    Mr. Liepman. I would go back to something that Mr. Mudd 
said.
    Chairman Lieberman. Yes.
    Mr. Liepman. I think the most important tool for us is the 
outreach to the Somali-American community to know who is going 
to the Horn of Africa, and for what purposes.
    Chairman Lieberman. Right.
    Mr. Liepman. And you are absolutely right. They are 
traveling under American passports, which enables them to 
travel rather freely.
    In terms of looking at travelers who appear to have gone to 
Somalia, for example, I think that there is an effort to make 
sure that that is being scrutinized fairly closely, to 
understand what it is they did there. And just to reinforce a 
point I made earlier, the intentions of Somali kids who are 
going to Somalia may be very different than what happens once 
they get there and they are trained with al-Shabaab. And that 
is, I think, what we worry about.
    Chairman Lieberman. OK. My time is up. Senator Collins.
    Senator Collins. Thank you.
    Let me pick up where the Chairman left off. Mr. Liepman, we 
know that in 2007 poor information sharing by the Centers for 
Disease Control and Prevention with the Department of Homeland 
Security prevented DHS from identifying an individual with 
drug-resistant TB who was traveling back and forth on 
international flights. And 2 weeks ago, ABC News reported that 
some of the individuals who had fought in Somalia had returned 
to the United States.
    Now, regardless of the validity of that particular report, 
it raises the question of whether information sharing is 
sufficient within the Federal Government to ensure that 
immigration authorities at the U.S. border handle any returning 
Somali-Americans in an appropriate way. And this is complicated 
by the fact that they are Americans with American passports.
    So what is being done to flag these individuals should they 
attempt to return if there is concern that they have been 
engaged in terrorist training overseas?
    Mr. Liepman. I would just make two quick points on that. 
The first is, Senator Collins, you are absolutely right, this 
is a problem that is complicated by our attention to civil 
liberties and our desire not to restrict the travel of 
Americans without pretty good reason.
    I do think that the information-sharing system that we are 
operating under now is far superior to that of 3 or 5 years 
ago. We are not perfect. But we are much better, and we are 
much better in terms of knowing when an individual should be 
watchlisted, for example, understanding when we have a piece of 
information, that information is shared with the appropriate 
agencies.
    What I think we are most concerned about is what we do not 
know about those travelers who are going to the Horn of Africa, 
who visit Kenya, and who we do not know went into Somalia. That 
makes it much more difficult to control their ability to travel 
back and forth if we are not aware of what their activities 
were.
    Senator Collins. Mr. Mudd, when our Committee staff visited 
Minneapolis, the local police officials expressed concern that 
they were providing information to Federal officials but were 
getting little in return. Just yesterday, the Chairman and I 
were briefed by the Markle Foundation, which was particularly 
critical of information sharing across the levels of law 
enforcement, the FBI with State and local law enforcement in 
particular.
    Could you comment on information sharing in this case with 
State and local officials? Because obviously this is very 
critical. There is no one who is more tuned in to what is going 
on in the Somali community in Minneapolis than the local police 
force. And it seems to me that a greater understanding could 
result if there were more information sharing.
    Mr. Mudd. I think a couple things here. First, I want to 
thank again the police departments in places like Columbus and 
Minneapolis. They participate with task force officers who are 
on our Joint Terrorism Task Forces (JTTFs). They have 
visibility from these task force officers into our 
investigations against violent extremists in the United States. 
They should have visibility into every aspect of those 
investigations. We also have participation at fusion centers 
across the country.
    In terms of cooperation with State and local law 
enforcement, I would point out, the Somali community in 
Minneapolis is probably 100,000 plus, and in many respects, in 
places like Hennepin County or Ramsey County, where you have 
Minneapolis-St. Paul, the police are going to have better 
insights into the community than we do--not just because they 
are looking at the extremist problem with us, but because you 
have gang and drug activity. There is more than a handful of 
Somali gangs in Minneapolis alone.
    So I think there is visibility on the task force. There is 
visibility from the JTTF executives in those cities. I could 
not tell you how strong that is across an entire large police 
force. We have relatively small offices in these cities. But 
they are participating full-time on our Joint Terrorism Task 
Forces, and this is a priority for those JTTFs.
    Senator Collins. Do you see Somali gangs as being a 
precursor to the kind of radicalization that we are talking 
about?
    Mr. Mudd. I do not see a one-to-one correlation between 
gang activity and terrorist recruitment and radicalization.
    Mr. Liepman. In many cases, they are actually alternatives 
to each other. They will go down two different avenues.
    Senator Collins. One or the other.
    The New York City Police Department (NYPD) has done a lot 
of work on domestic terrorism, homegrown radicalization, and, 
in general, the police department has found that individuals 
generally begin the radicalization process on their own. But in 
each case that NYPD examined, there was what the department 
called ``a spiritual sanctioner'' that provided the 
justification for jihad that is essential to a suicide 
terrorist. It is essential to the progression of the 
radicalization process.
    Have you seen that in the case that we are discussing 
today, Mr. Liepman?
    Mr. Liepman. Senator Collins, I agree entirely with the New 
York study on radicalization. I think it was an excellent 
study, and we have actually worked very closely with NYPD with 
their perspective on the ground. And as I mentioned, it would 
be a mistake to look at either the Internet in a vacuum or at 
the influential leaders of the community in a vacuum. It is the 
interaction between the two.
    And I think we found both domestically and overseas as 
well--and it is the experience of most of our partners in the 
United Kingdom and Canada--that perhaps the most important 
element of the radicalization process is that charismatic 
leader who intervenes and who, as Mr. Mudd said, spots and 
recruits a vulnerable young man and gets to him at the right 
point with the right message.
    Senator Collins. Mr. Mudd.
    Mr. Mudd. This is really important to understand because 
the suggestion earlier, I think there is a popular 
misconception about terrorism among people who sort of watch 
movies or read books, and that is that there are these cells of 
people who operate clandestinely. I used a word that I learned 
from NYPD, and they have some extremely talented analysts up 
there. That word is ``clusters''--there are clusters of people 
who bounce off each other.
    Internet content, in my experience, might help feed an 
emotional sense in a kid who is already bouncing off 
individuals. This is a people business. So I would see the 
Internet often as a tool that helps someone along a path, but 
not the proximate cause that leads someone to get a ticket to 
go to Mogadishu.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    I appreciate that there are three other Senators here. We 
will call on them in order of arrival: Senator Bennet, Senator 
Voinovich, and Senator Burris.
    Senator Bennet, thank you.

              OPENING STATEMENT OF SENATOR BENNET

    Senator Bennet. Mr. Chairman, thank you. I apologize for 
being late. This is fascinating testimony, and I do not have 
any questions yet.
    Chairman Lieberman. Thanks, Senator Bennet. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. I thank the witnesses for being here. 
Has there been any kind of a declaration by al-Shabaab as Osama 
bin Laden did in 1998 and declare war against the United 
States?
    Mr. Liepman. No, Senator. And I will take the opportunity 
to just emphasize, al-Shabaab is a very different organization 
than al-Qaeda. It is really an alignment of a variety of 
different groups. The individual fighters on the ground in 
Mogadishu and the rest of Somalia may not actually reflect the 
views of their top leadership. And the top leadership does have 
identified linkages to the leadership of al-Qaeda in Pakistan. 
But whether that trickles down to the average 17 or 20-year-old 
fighter on the streets of Somalia is really quite questionable.
    They are devoted to the fight in Somalia. They are not yet, 
most of them, devoted to Osama bin Laden's global jihad.
    Senator Voinovich. So the fact is that, to your knowledge, 
there may be some indirect linkages but no formal linkages. And 
in terms of someone's intent of having people come back from 
there and do something bad here in terms of some of the things 
that we are trying to defend against, terrorist attacks and so 
forth, is there any indication at all of anything like that?
    Mr. Liepman. Clearly, one of the reasons why we are looking 
so closely at this issue is the linkages between the al-Shabaab 
leadership with the al-Qaeda leadership and the possible 
influence on al-Shabaab agenda, which has to date been quite 
local, and then ultimately the trickle-down effect on the 
recruits that are being trained with al-Shabaab.
    But, no, as I said in my testimony, we do not have a 
credible body of reporting right now to lead us to believe that 
these American recruits are being trained and instructed to 
come back to the United States for terrorist acts. Yet 
obviously we remain concerned about that, and watchful for it.
    Senator Voinovich. Well, one of my concerns--and this is 
tough because we are concerned about things and we are in a 
dilemma, and the dilemma is the more we talk about it, does it 
become a self-fulfilling prophecy? It is like neighbors that do 
not talk to each other, and before you know it, they do not 
like each other. And I think more than anything else, I would 
be interested in what we are doing to make sure that we do not 
have something like that radicalized era here in the United 
States. And what is the community trying to do in terms of 
making sure that this does not happen? That is the big issue 
here.
    It has, I think, more to do with it than intelligence to 
handle this, and we will be hearing from another panel, but I 
would be interested in your observations about where are we 
right now and what can we do to make sure that we have a better 
situation, including maybe improving our relationships with the 
Somalis overseas.
    Mr. Liepman. I think you have that exactly right. We really 
cannot solve the problem simply through outreach to the 
American Somali community. It is an essential ingredient of the 
solution. I think this is essentially a Horn of Africa problem, 
and without attention to that decades-long crisis, we cannot 
attend one or the other end of this. It is really both.
    Mr. Mudd. I think that is right. From the Bureau's 
perspective, there are a lot of issues here that are well 
beyond our control, issues overseas that have to do with the 
motivation of these individuals. For example, what is the 
impact of the Ethiopian withdrawal on a community in the United 
States? I think the impact is probably substantial because a 
lot of these kids are going over--as I said, there are 
intersecting themes, not only for an international jihadist 
movement but also for nationalist purposes, to fight the 
Ethiopians.
    Domestically, there are issues here I talked about that put 
us in common with people and places like Europe, and that is, 
when you have families--this is a very traditional clan-based 
culture, a patrilineal culture, where there is no father figure 
there, and where somebody comes in and plays the father figure, 
where the mother does not speak English very well, where you 
are working at a meatpacking plant or have to work a couple 
jobs as a taxi driver. I mean, this is a classic immigrant 
experience in some ways, and it is a difficult social 
environment for these folks.
    And so we can talk about looking at people after it is too 
late, those who are going overseas--but the underlying cause is 
motivations from the Ethiopian invasion or motivations from the 
environment of people who are escaping violence and difficult 
economic conditions. Those are things obviously that are well 
beyond our control.
    Senator Voinovich. So a lot of it has basically to do with 
some concerns about people that have come here that are 
concerned about what is going on over there. It is like a lot 
of other nationality groups. The Armenians still want to do 
something about--go back to what the Turks did, and the 
Kosovars and the Serbs--we have a lot of ethnic groups in Ohio. 
You can try to deal with them, but there are still things that 
are really ringing bells in those communities, and people are 
upset about them. Where does that level go to some other kind 
of activity?
    Mr. Mudd. That is right, and I should be blunt, there are 
other concerns about dealing with Federal officials, for 
example, in a community where many people have immigration 
problems. So we are trying to build bridges through outreach 
and working with police departments, for example, and having 
people like our Special Agent in Charge in Minneapolis meeting 
with community leaders.
    I was just talking to one of the leaders behind me about 
traveling to Minneapolis soon, although I would like to wait 
until after the snow melts, as a native Floridian. But the 
issue has to do with, as I say, things within the community--it 
is a very closed community--and their concerns as well about 
dealing with us because they are worried about whether we are 
going to collar a kid if they come and tell us or whether there 
are other Federal issues like immigration fraud that might come 
up. And, again, we have to work through that with our partners 
in places like DHS.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich. Senator 
Burris, good morning.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Good morning, Mr. Chairman.
    I would like to welcome you to the Committee. This is a 
very complicated subject, and I want to commend you all for the 
work that you are doing. My questions may seem a little naive 
because of the difficulty of the subject, but generally what I 
am concerned about is we are talking about two separate 
situations, are we not? The Somalis that voluntarily or 
forcibly go back to get trained and, second, whether or not we 
are talking about normal American disgruntled citizens that are 
volunteering to go over there? Is that what we are looking at?
    Mr. Liepman. To my knowledge, we are not aware of a 
situation where someone has been forcibly repatriated to 
Somalia. These are volunteers. And I do think there are two 
things going on. One is that you have a generational struggle 
in Somalia; and, on the other hand, you have an American Somali 
community that is in many ways different than other ethnic 
communities in the United States in that they tend to be a bit 
more isolated and more attached to their homeland than many 
others.
    So the combination of isolation and a difficult process of 
integration into the United States and this linkage back to 
their homeland has resulted in a tendency to be more willing to 
volunteer to go back than in many other communities. But they 
are not being forced to return, as far as I can tell.
    Mr. Mudd. It might interest you to know some of the 
experiences they are having when they get there to give you a 
sense of what they think going over.
    First, some get there and believe this is a place where 
Sharia law--that is, the law of Islam--is being practiced and 
it is a great place to live. And some of these folks will never 
come back.
    Some get there and become cannon fodder. We talked about 
the difference between terrorism and insurgency/
counterinsurgency. These folks are not going over there to 
become part of terrorist cells. A lot of them are being put on 
the front line, and some of them from the United States. I 
think, have been killed on the front line.
    And, last, some are going over there saying, ``Whoa, this 
is a serious war, there is serious lead flying,'' and they sort 
of lie, cheat, and steal their way to get back because they are 
in an environment where they say, ``I cannot take this.'' So 
they are coming home saying, ``That is not what I signed up 
for.''
    So there is a range of responses when these kids actually 
get out there.
    Senator Burris. So this question may have been asked, but 
you are saying that they are over there either for the war or 
to defend their homeland. What is the danger then of some of 
those really coming back here, having been trained or given 
indoctrination to come back and try to do some of the jihad or 
September 11, 2001, activities in America? And can we detect 
that type of person coming back or if he was not a part of it, 
how do you distinguish that Somali as a person who wants to 
come back and repatriate himself with America and not then be 
classified as a terrorist who would do danger to our homeland?
    Mr. Liepman. It is a tough problem. To set the groundwork, 
though, going to Somalia to fight with al-Shabaab, al-Shabaab 
is a designated terrorist organization. So the distinction 
between al-Shabaab and al-Qaeda is an important one, but those 
who volunteer to fight with al-Shabaab are also materially 
contributing to a terrorist organization.
    That evolution from volunteering to fight against the 
Ethiopians in Somalia to embracing the global jihad and the al-
Qaeda message that espouses attacking the West, that is a 
difficult thing to detect. It happens inside their heads, and 
it is very difficult for us to know unless they tell someone, 
and I think reinforces the importance of outreach and 
interaction with the community and with the families who likely 
will be the first people to detect this transition from Somali 
defense to the global jihad.
    Mr. Mudd. I think this story will have a ways to play out. 
I had an interesting conversation last week with an 
acquaintance of mine who is a psychologist in Saudi Arabia who 
deals with their deradicalization program. And he made a 
distinction between disengagement--in other words, for example, 
somebody coming back here disengaged from al-Shabaab--and 
deradicalization. His view, from working with many people--in 
this case, in Saudi Arabia--was if you want long-term stability 
with people like this, you cannot have that stability if you do 
not deradicalize.
    So what I am saying is if someone disengages from the fight 
but does not deradicalize, long term you have to think how 
psychologically is that going to play out in a year or 2 years. 
What if they find when they get back that the job environment 
is closed to them? What if there is another Ethiopian invasion? 
And as a security service, we cannot only be concerned about 
someone who has committed a Federal violation. If someone has 
gone overseas to fight and comes back in this month, seems like 
he has disengaged, should we assume that person is 
deradicalized after he has already committed an overt act to go 
fight a foreign enemy? Boy, that is a tough one long term. So I 
expect that we will have some echoes of this for a while.
    Senator Burris. And another area in terms of the Somali 
community, which my briefing tells me that it is primarily in 
Minneapolis, Minnesota, there is a major community there, and 
that is where a lot of recruiting is going on. Has the 
community really stepped up to come forward from the Somali 
community to give information and say, look, we know that we 
have to work in conjunction with all the U.S. forces to try to 
prevent something of this magnitude, even the young person 
going over there?
    Mr. Mudd. We have made progress, but we have a ways to go. 
The progress says you have communities with parents and 
grandparents and siblings who are concerned. We have FBI 
officers and people from police and our task forces who are 
watching people shed tears in our offices when they find out 
their kids have gone. Communities are concerned about 
recruitment from within, and I think that will become even 
greater with the Ethiopian withdrawal, because you cannot now 
say, ``I am going to fight the foreign invader.'' You are going 
to fight more in clan fighting. Especially in the past few 
weeks or months, there have been some very positive political 
developments in Somalia that I would think would make it a bit 
harder to recruit.
    That said, we have a ways to go. Again, you have 
communities that, first, for I think very defensible reasons, 
are concerned about interacting with Federal authorities. They 
are concerned about what we will do with their children. There 
is a lot of disinformation out there, and I should put this on 
the record. I hope some of the community folks in Minneapolis 
are watching. There are people out there saying that we will 
take their kids and put them in orange jumpsuits and send them 
to Guantanamo. This kind of propaganda from people who want to 
corrupt kids is hurting us.
    So there are community concerns in additional areas, as I 
said earlier, about things like are we going to look at 
immigration problems as part of this. So we have made progress. 
We have great relations with some of the community folks that 
you will see later today--a really great and heartening 
immigrant story--but we still need more community help to 
understand what is going on within communities. This is not 
simply a law enforcement or intelligence problem. This is a 
problem about integration of a community over decades.
    Senator Burris. Mr. Chairman, my time is up, and if there 
is a second round, I might have some more questions. But I 
would like to thank the witnesses for their candid and 
forthright statements. I think we really have something we have 
got to deal with here.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Burris.
    I want to ask just one or two additional questions. If any 
other members wants to, we will do that in a quick second 
round, because I want to get to the next panel.
    I do want to make clear first, Mr. Liepman, I think you 
answered a specific question from Senator Burris, and it may 
appear inconsistent, though I do not believe it is, when you 
said these young people are volunteering, that they are not 
being coerced. But this is not purely volunteering because, as 
both of you have said, they are being recruited, they are being 
affected by a spiritual sanctioner or leader. Right?
    Mr. Liepman. That is right, and I did not mean to suggest 
that--what I wanted to say was they were not being tied up and 
bundled into a plane.
    Chairman Lieberman. Exactly. Understood.
    Mr. Liepman. But it is a process of mental coercion.
    Chairman Lieberman. Right, it was not a thought that they 
just had on their own to say, ``I want to go over and fight 
with al-Shabaab.''
    Mr. Liepman. Right.
    Chairman Lieberman. Either they got it over the Internet or 
usually a combination of Internet and a spiritual sanctioner.
    By total coincidence, yesterday the Senate Armed Services 
Committee had its annual hearing with the Director of National 
Intelligence, Admiral Dennis Blair, and with the Director of 
the Defense Intelligence Agency (DIA), General Michael Maples. 
Senator Collins and I, both members of that Committee, were 
there.
    General Maples actually testified that from information 
that he has received, DIA has received, he believes a formal 
merger between al-Qaeda and al-Shabaab is forthcoming soon. We 
have obviously seen an increasing connection between these two 
terrorist organizations over the last year, particularly in 
online content; the statement made by Ayman al-Zawahiri just a 
month ago in a video embracing al-Shabaab.
    So here is my concern: If there is a former merger between 
al-Shabaab and al-Qaeda, doesn't that raise our concern about 
the potential that the recruiting going on of Somali-Americans 
here will result in people being sent back here--or perhaps to 
other countries--because people are traveling with American 
passports?
    In other words, if we accept the premise that al-Qaeda has 
made clear that its intention is not primarily about the 
Ethiopian invasion of Somalia but really is about world jihad, 
isn't there a concern that if al-Qaeda and al-Shabaab merged, 
this is really a game changer, and that the possibility of 
these recruits from America being sent back here for purposes 
of attacking gets higher?
    Mr. Liepman. The conversations between al-Shabaab and al-
Qaeda have been occurring now for quite some time. We have 
heard rumors of an imminent merger, and it has been imminent 
for a while.
    Chairman Lieberman. Right.
    Mr. Liepman. It could happen very soon. It could happen 
sometime down the road.
    We have several precedents of organizations that have 
merged with al-Qaeda, and al-Qaeda in the Islamic Maghreb is 
the most recent example. It is a couple years old.
    Two years ago, when they merged, I think we had the same 
concerns as you have just stated, that group would suddenly 
look beyond Algeria and North Africa, and start targeting 
Europe and the United States. And it has been much slower to 
happen than I think we feared.
    I think that a merger certainly increases that danger, and 
as the global jihadist philosophy evolved into the 
organization, they will be mindful of additional targets 
outside Somalia. We see al-Shabaab really focused right now on 
the fight in the Horn of Africa. And I think it would take some 
time to develop the capabilities and really to change that 
mind-set.
    Chairman Lieberman. Mr. Mudd
    Mr. Mudd. Yes, I keep wanting to contradict Mr. Liepman, 
and I am looking for an opportunity to do so. But I think he is 
right here. I think the word ``merger'' can be a bit misleading 
because, I agree, I am not sure this will happen. But merger 
does not necessarily mean operational linkage to al-Qaeda. I 
think people who look at al-Qaeda through the lens of it being 
just a terrorist organization are mistaken. This is a 
revolutionary movement, and having someone on a beachhead of 
the Horn of Africa who, regardless of operational linkages, 
raises their hand and says, ``I am part of the movement,'' as 
they have done in al-Qaeda of the Islamic Maghreb, al-Qaeda of 
the Two Rivers of Sudan, and al-Qaeda in Iraq. These are 
representative of an effort by al-Qaeda to push out the 
movement, not necessarily always representative of direct 
operational linkages that might represent a clear increase in 
threats to the United States, although as Mr. Liepman says, we 
have got to watch out for this. This is long term.
    Chairman Lieberman. A final point, if I may, to you, Mr. 
Mudd, and then a question. I want to report to you that my 
staff, which has spent some time in Minneapolis on the ground 
in preparation for the hearing, has found some concern among 
the Minneapolis Police Department that they are not adequately 
involved in the FBI work there, and that they have more than 
they can bring to the table with regard to their own longer-
term interactions in a positive way with the Somali community 
in Minneapolis. I know you are on the Joint Terrorism Task 
Force with them, but they feel that they can contribute more.
    The second is just to wrap this part of the hearing up, in 
a sense, in a way of reassurance, because we may have said some 
things to alarm people here, but that the FBI is involved in an 
investigation which is aimed at--we understand you are involved 
in outreach, as I said, to the community. But you are involved 
in an investigation which may result in the arrest of some 
individuals who are involved in the recruiting and 
radicalization. Is that correct?
    Mr. Mudd. There are ongoing investigations, and I think I 
will sort of defer any further comment on them. But it is a 
significant concern to us.
    Chairman Lieberman. Good enough. Thank you. Senator 
Collins.
    Senator Collins. Mr. Mudd, it is expensive to take someone 
from Minneapolis to Somalia. It is complicated to get a person 
there. The evidence we have is that the plane ticket for the 
young man in question cost around $2,000. That is money he 
clearly did not have personally.
    Where is the money coming from?
    Mr. Mudd. I do not think that the people who are going over 
there are all supplying all their own cash. I think it is worth 
understanding that, like other diaspora communities, there are 
informal ways--you are probably familiar with the hawala 
method, for example, which exists in this community to pass 
money that is very difficult to follow. The vast majority of 
this money is going for remittances, the same thing you would 
see, for example, in a Sri Lankan or a Bangladeshi community.
    Some small portion of that money, I think, is probably 
going to help fund these folks going over. I am not sure I 
would buy your suggestion that this is really expensive. If you 
are talking about tens of people who are going over in pretty 
difficult environments over there, not for high-end terrorist 
training but to become in some cases cannon fodder, you have a 
ticket, you have somebody at the other end who will be a 
facilitator, and then somebody who is in a general training 
camp with other folks.
    Given the extensive amount of money raised in large 
diaspora communities here, I personally would not think it 
would be that hard to skim off a little bit of that in various 
places and fund some plane tickets for tens of people. 
Terrorism is cheap.
    Senator Collins. Well, I guess what I meant is compared to 
the income of the young men in question, it is not as if they 
have this funding.
    Mr. Mudd. I am agreeing that I do not think they are self-
funding all this.
    Senator Collins. Right.
    Mr. Mudd. This is part of the apparatus that we are talking 
about here.
    Senator Collins. That is my point.
    I want to end my questions on this round by going back to a 
fundamental question: Why recruit Americans? As Mr. Liepman 
said, it is not to fill up the ranks. There are plenty of 
people in-country who would perform this role.
    It also does involve expenditures that would not otherwise 
be incurred. It is difficult. There is a risk of being caught. 
And that is why I am wondering if part of the reason is to sow 
seeds of fear within the Somali diaspora. I wonder if part of 
the reason is to create the kind of dissension within the 
community that we have seen in Minneapolis. I wonder if it is 
in part the terrorists wanting to cast a cloud of suspicion 
over the Somali-American community that might lead to further 
alienation of some of the young people.
    Could you comment on this issue further?
    Mr. Mudd. Sure. I think it is pretty straightforward. This 
is a push, not a pull. It is a pull in the sense that you have 
a jihadist environment where people from Somalia in this 
country, a few people, might say, ``I want to go fight,'' as 
others from other communities might have said, ``I want to 
fight in Afghanistan'' in the 1980s. But by push, I mean people 
here who are saying, ``I want to do this''--maybe because this 
is an example of a place where we have a foreign invader, or an 
example of a place where we can live in a country that is ruled 
by Sharia law. You mentioned recruitment. I do not see people 
out there saying, ``Can we have another 10 Americans?''
    So I think it is a simple story of people saying, ``I 
either want to fight for my country'' or ``I want to go live in 
a different social kind of religious environment,''--and it is 
relatively inexpensive to get there--not people at the other 
end saying, ``I wish I had more Americans.'' In fact, in some 
cases the Americans can be a security risk for them. Who are 
these folks who are traveling from outside, traveling from 
roots that might be vulnerable to exploitation? So it is not 
always a plus for the guys on the other end.
    Senator Collins. Mr. Liepman.
    Mr. Liepman. I agree with that, and I think that is the 
case not just with Americans but the British recruits. There 
are communities around the world of Somalis who feel very 
attached to their homeland, some of whom have expressed a 
desire to go back and fight. And I think that desire is being 
facilitated.
    Senator Collins. But that is the key to me. I agree with 
you that, based on our investigation, individuals generally 
begin the radicalization process on their own. But based on our 
intensive study, there is almost always a catalyst, a person, 
the ``spiritual sanctioner,'' in the words of the NYPD; the 
operational leader in cases where the plot becomes operational.
    Mr. Mudd. I see where you are going. If I could take 
another shot at this, sometimes we think of these 
organizations, whether it is al-Shabaab or al-Qaeda, as 
hierarchical, sort of pyramid-like, which is classic American 
concept. You might want to think of this as hub and spoke. 
These are first-generation folks, whether they are the small 
sliver who are involved in extremism or just people sending 
remittances back. All of them in independent communities across 
the United States have linkages back home. So they all would 
have an independent way to call somebody and say, ``I am going 
to send a few folks over. Can you facilitate them when they get 
there, get to the right camp?'' It is close linkages back home, 
close clan linkages, and those linkages have persisted since we 
have had the diaspora community starting probably in the early 
1990s.
    Mr. Liepman. Just to reinforce, I said before that it would 
be a mistake to correlate al-Qaeda and al-Shabaab too closely. 
They are very different kinds of organizations. Al-Shabaab is 
more of a movement of young people with a wide variety of goals 
and clan affiliations. So as Mr. Mudd said, you can make 
connections with al-Shabaab much easier than you can with the 
leaders of al-Qaeda in Pakistan.
    Senator Collins. But don't you think that there is also a 
public relations angle, for lack of a better word, to this, 
that if al-Shabaab can say, ``See, we have Americans. America 
pretends it is the best country in the world, and yet we have 
Americans coming here to join in jihad?'' Isn't that a play 
here, too?
    Mr. Liepman. Sure, I think that is a factor. And it would 
be easier for the folks back in Somalia to respond to the 
desire to come by saying, ``You are actually more of a burden 
than you are a help in our fight.'' But they do, they welcome 
them, not just Americans but Brits, South Africans, and 
Nigerians.
    So I do think there is an element of broadening the base of 
that opposition, first, to the invasion by the Ethiopians, and 
now to the Transitional Federal Government in Somalia. I do 
think they are doing propagandizing.
    Senator Collins. Thank you.
    Mr. Mudd. If I could flip your optic, I would think of it 
instead, if you look at statements by people like Ayman al-
Zawahiri, the second in charge of al-Qaeda, as an 
organization--and I talked about it as a revolutionary 
movement, saying if you want to join the movement, if you are 
Nigerian or Malian, whoever you are, one of the forefronts is 
Somalia. And some of that echo effect, ripple effect, reaches 
people in the United States who might be predisposed to join 
the movement already.
    So their perception is al-Zawahiri in a sense might see 
himself as a statesman. He is the statesman responsible for the 
revolutionary message of al-Qaeda, and that message is there 
are beachheads in Pakistan, which is a difficult place to be as 
a foreign fighter now; Iraq, which, as you said, Senator 
Lieberman, a difficult place. There is another beachhead. So 
whether you are American, British, Danish, Nigerian, come on 
down, we have got a place for you.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Voinovich, do you have any further questions.
    Senator Voinovich. I would just follow up on the same 
thing. In other words, the recruitment or the encouragement is 
coming to Somalis all over the world. So it is not just 
concentrating on the United States.
    Mr. Liepman. That is right.
    Senator Voinovich. This is come on in and help your country 
out, and incidental thereto may be that you are going to be 
helping al-Qaeda. But you said earlier that there was not, to 
your knowledge, any formal links between them but there may be 
some informal relationships there.
    Mr. Liepman. There is a formal link between the top leaders 
of al-Shabaab and the leaders of al-Qaeda, but not 
organizationally yet, no.
    Senator Voinovich. In terms of al-Shabaab doing what al-
Qaeda would like to do or something of that sort.
    Mr. Liepman. Right. We do not see that at this point.
    Senator Voinovich. And that the young people that are 
leaving here, the motivation for them is that they see a cause 
of some sort, and to your knowledge, there is not some big 
organized effort here to go out and find as many people and 
send them over to Somalia, but that it is kind of a 
spontaneous--coming from groups of people around that have 
different little tribes or it is that they have moved here to 
the United States, and some are more involved than others.
    I remember after the declaration of the Bosnian War that we 
had certain ethnic groups here in the United States that got 
involved, and they were not really trying to do anything to us. 
They were just trying to do something to the other people that 
were here in this country.
    So I would like that to be very clear because I do not want 
anybody to think that somehow the Somalis--that it is an 
organized effort, they are sending them over here, they are 
sending them back here, and look out because they are going to 
get involved in some terrorist type of activity. And that is 
where it is at right now, and as I mentioned earlier, our goal 
right now is to look at some of the reasons why some of them 
maybe pop up and say, ``I have to get out of here, and I have 
to go overseas and see if that can be responded to.'' And 
probably that has to be done right in the community among their 
own people to say, ``Here is the deal.''
    Mr. Liepman. Senator, I think you described it well. They 
are going to Somalia to fight for their homeland, not to join 
al-Qaeda's jihad against the United States--so far.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Senator Burris, do you have any further 
questions?
    Senator Burris. Not this round.
    Chairman Lieberman. Thanks. Mr. Liepman and Mr. Mudd, thank 
you for your testimony. I am sure we will see you again before 
long. Or we will subpoena you if you will not come back 
voluntarily. [Laughter.]
    We will call the second panel now: Ken Menkhaus, Professor 
of Political Science at Davidson College; Osman Ahmed, 
President of the Riverside Plaza Tenants Association; and Abdi 
Mukhtar, Youth Program Manager at the Brian Coyle Center.
    Thanks very much, gentlemen, for your willingness to be 
here.
    Dr. Menkhaus, we would like to begin with you. We 
appreciate it. You have spent some time, probably more than 
most, in developing expertise, doing research, and doing some 
writing in the general subject matter area that we are covering 
here today. We are grateful that you could come, and we welcome 
your testimony now.

  TESTIMONY OF KEN MENKHAUS, PH.D.,\1\ PROFESSOR OF POLITICAL 
                   SCIENCE, DAVIDSON COLLEGE

    Mr. Menkhaus. Senator Lieberman, Senator Collins, I thank 
you both for the opportunity to speak here today. I would like 
to offer a few observations about the current Somali crisis, 
the role of the diaspora in Somalia, and the question of 
recruitment of diaspora youth into the extremist group al-
Shabaab.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Menkhaus appears in the Appendix 
on page 105.
---------------------------------------------------------------------------
    Somalia has been beset by one of the longest and most 
destructive crises in the post-Cold War era. The Somali people 
have endured 19 years of complete state collapse, civil war, 
chronic insecurity, and recurring humanitarian crises. An 
estimated 1 million Somalis are today refugees scattered across 
the globe. This has been an exceptionally traumatic period for 
the Somali people.
    Over the course of this long period of statelessness, 
Islamic institutions--charities, schools, sharia courts, and 
political movements--have helped to fill the vacuum left by the 
collapsed state. Somalis increasingly look to Islam as an 
answer to their plight. The ascendance of political Islam is an 
enduring trend in Somalia, and in general terms, this need not 
be viewed as a problem for or a threat to the United States.
    The period since 2006 has been especially violent and 
destructive. In 2006, an Islamic administration briefly arose 
in Mogadishu and for 6 months provided very impressive levels 
of public order. The Islamic Courts Union (ICU), was very 
popular with Somalis as a result. Ultimately, hard-liners in 
the ICU, including political figures commanding a small 
committed militia, known as al-Shabaab, marginalized political 
moderates in the Islamic movement and took actions which 
threatened the security of neighboring Ethiopia. With U.S. 
support, Ethiopia launched an offensive in December 2006, 
routing the ICU and militarily occupying the Somali capital, 
Mogadishu.
    Predictably, Somalis of all political persuasions deeply 
resented the Ethiopian occupation, and within weeks an armed 
insurgency arose. The counterinsurgency by Ethiopian forces and 
the Somali Transitional Federal Government (TFG) was very 
heavy-handed, and within months Mogadishu was the site of a 
catastrophe. Seven hundred thousand residents of the city were 
displaced by the violence. Much of the capital was damaged. 
Thousands died, and an epidemic of assassinations and assaults 
by all sides gripped the city. By 2008, the violence spread 
throughout the countryside. Three million Somalis are now in 
need of humanitarian aid, prompting the U.N. to declare Somalia 
the world's worst humanitarian crisis.
    For our purposes, two important developments arose from 
this catastrophe. First, it generated an enormous amount of 
anger among Somalis, both at home and abroad. This has 
manifested itself in high levels of anti-Ethiopian, anti-
American, anti-Western, and anti-U.N. sentiment. Second, one 
group--the hardline Islamist militia, al-Shabaab--emerged as 
the main source of armed resistance to the TFG and the 
Ethiopian occupation. Al-Shabaab successful conflated its 
radical Islamist ideology with Somali nationalism. In the eyes 
of most Somalis, al-Shabaab was a legitimate national 
resistance to a foreign occupation. Al-Shabaab was seen by many 
Somalis as freedom fighters, not terrorists, even by Somalis 
who found their radical policies appalling and their rumored 
links to al-Qaeda very worrisome.
    In March 2008, the United States declared al-Shabaab a 
terrorist group. The many Somalis who had provided indirect or 
direct support to al-Shabaab were thereby immediately 
criminalized. In May 2008, the United States launched a 
Tomahawk missile attack which killed the top al-Shabaab leader, 
Aden Hashi Ayro. Thereafter, al-Shabaab announced an intent to 
attack U.S., Western, and U.N. targets, both inside and outside 
Somalia. Its principal focus remains the national struggle, but 
we are now formally a target of them as well.
    Al-Shabaab is today the strongest single armed group in the 
country, controlling territory from the Kenyan border to the 
outskirts of Mogadishu. It has links to al-Qaeda. But recent 
developments are working against al-Shabaab. Ethiopia withdrew 
its forces in Somalia in December 2008. The unpopular TFG 
President, Abdullahi Yusuf, resigned in December 2008. A new 
U.S. Administration has taken office and is reviewing its 
policies on Somalia. And a peace accord, known as the Djibouti 
Process, has forged a new governing alliance of moderates from 
the TFG and Islamist opposition, now led by President Sheikh 
Sharif.
    Al-Shabaab has been deprived from its main raison d'etre 
and now faces growing resistance from Somali militias allied 
with the new unity government. Al-Shabaab also faces internal 
divisions, including tensions between hard-core members and 
those who joined the cause mainly to rid their country of a 
foreign occupation.
    Put another way, not all al-Shabaab members are committed 
jihadists, making it problematic to label the entire group 
``terrorists.'' Somalis who were willing to support al-Shabaab 
when it represented the main source of resistance to Ethiopian 
occupation appear uninterested in supporting al-Shabaab in its 
bid to grab power and impose its extremist policies on Somalia. 
Al-Shabaab may well have hit its high watermark in 2008 and now 
faces declining support and possible defections. If so, this is 
good news. It would mean that the threat of al-Shabaab 
recruitment among the diaspora will be less of a threat in the 
future.
    An assessment of the threat of terrorist recruitment among 
the Somali diaspora must start with an understanding of the 
diaspora's role in Somalia today. The principal role the 
diaspora has played over the past 20 years has been an economic 
lifeline to Somalia. Its remittances are by far and away the 
most important source of income in Somalia, estimated at $1 
billion remitted to Somalia each year.
    Chairman Lieberman. Is that just from the U.S. or 
worldwide?
    Mr. Menkhaus. Worldwide. It is fair to say that the 
diaspora keeps much of Somalia alive. The diaspora is also 
pressured to contribute to communal fundraising, some of which 
is used for good causes like community projects. In other 
cases, the fundraising can support militias or even extremist 
groups like al-Shabaab. The diaspora does not always control 
how their money is used.
    Somali business, political, and civic life is increasingly 
dominated by the diaspora. An estimated 70 percent of the new 
TFG cabinet, for instance, holds citizenship abroad, and the 
new Prime Minister himself is a Canadian Somali, who has 
resided for years in Virginia.
    In sum, Somalia has become a diasporized nation. Many 
Somalis with citizenship abroad return to Somalia often to 
visit family, check on business investments, manage nonprofits, 
or pursue political ambitions. This makes it increasingly 
difficult to draw meaningful distinctions between the Somalis 
and the Somali diaspora. Virtually every Somali enterprise, 
whether the shareholder group of the Coca-Cola bottling plant 
in Mogadishu, which is still working, or the new TFG 
administration, or al-Shabaab itself, is likely to have a 
significant diaspora component. Extensive travel to Somalia and 
financial and other interactions by Somali-Americans with their 
home country should not constitute, therefore, a high-risk 
profile.
    The Minneapolis case of Shirwa Ahmed and other youth who 
have been recruited into al-Shabaab raises a basic question 
that you have both asked this morning. Why would al-Shabaab 
actively recruit diaspora members? What can a diaspora recruit 
do that a local militia fighter cannot?
    First, it is clear that the diaspora are not much value as 
rank-and-file militia for al-Shabaab or any other fighting 
force in Somalia. Somalia is already saturated with experienced 
teenage gunmen and has no need to import more. In fact, 
evidence from the ICU in 2006 suggests the Somali diaspora as 
well as foreign fighters were as much a liability as an asset. 
They were unfamiliar with the countryside, often spoke the 
Somali language poorly, were more likely to become sick, and 
required a fair amount of oversight.
    But the diaspora are useful to other al-Shabaab and other 
armed groups in Somalia in other ways. Their familiarity with 
computers and the Internet is a valuable communications skill, 
and to come to the point of our hearing, a young diaspora 
recruit is, upon arrival in Somalia, entirely cut off socially 
and, therefore, in theory, easier to isolate, indoctrinate, and 
control for the purpose of executing suicide bombings. Were 
this not the case, it would be much less risky and expensive 
for al-Shabaab to simply recruit locals.
    From this perspective, a young diaspora member who heeds 
the call by a recruiter to ``join the cause'' of fighting to 
protect his nation and religion is not so much a terrorist as a 
pawn, exploited by the real terrorists, those who are unwilling 
themselves to die for their cause but who are happy to 
manipulate a vulnerable and isolated youth to blow himself up.
    In my assessment, a Somali diaspora member groomed to be a 
terrorist is of most utility to al-Shabaab for suicide 
operation either inside Somalia or in the region of the Horn of 
Africa--Kenya, Djibouti, and especially now Ethiopia. The 
reason for this is that these recruits would need ``handlers'' 
both to help them navigate through unfamiliar situations and to 
ensure that they go through with the attack. I am much less 
convinced that al-Shabaab would be willing to risk sending a 
trained and indoctrinated diaspora member back to the United 
States as a ``sleeper'' for a future terrorist attack in the 
United States. The risks to al-Shabaab would be enormous. They 
would not be in a position to easily manage and control their 
recruit. The recruit could even defect and provide damaging 
information on al-Shabaab to U.S. law enforcement. And even if 
al-Shabaab managed to send totally committed recruits back to 
the United States, a al-Shabaab-directed terrorist attack 
inside the United States would almost certainly have disastrous 
consequences for al-Shabaab, not only in terms of the U.S. 
response, but from Somali society as well. Recall that 
remittances from the diaspora are the economic lifeline of 
Somalia. Anything that jeopardizes the status of Somalis living 
abroad imperils the entire country, and al-Shabaab would face 
enormous blowback from within the Somali community.
    In sum, my sense is that the threat of an American of 
Somali descent joining al-Shabaab and then returning as a 
sleeper to the United States is quite low. The threat still 
requires careful law enforcement attention, but should not be 
overblown. There is one exception to this assessment. A Somali-
American who joins al-Shabaab and who has then proceeded to 
Pakistan or Afghanistan and who becomes an al-Qaeda operative 
is of much greater concern. The reasoning for this is 
straightforward. Al-Shabaab's agenda is still essentially a 
nationalist one, while al-Qaeda's is global. Al-Qaeda would not 
weigh the costs of a terrorist attack in the United States on 
the Somali economy and the Somali diaspora, whereas al-Shabaab 
would. A Somali-American acting through the ideological prism 
of al-Qaeda would be more willing to serve as a sleeper than 
would a al-Shabaab member.
    I would like to conclude with just a few thoughts on the 
Somali experience with and response to law enforcement 
authorities, much of which has already been alluded to this 
morning.
    First, Somalis have a long and unhappy experience with the 
state and the police back in their country of origin. As a 
result, not all Somalis view the State, law enforcement, and 
the law as a source of protection and order; some view law 
enforcement with fear, as something to avoid. Behavior which 
appears to be evasive or untruthful can often be traced back to 
this generic fear of law enforcement and should not be 
misinterpreted. Sustained police programs to socialize Somali-
American communities and reshape their perception of the state 
and the law are essential if this is to be overcome. They need 
to appreciate the difference between ``rule of law'' and ``rule 
by law'' and feel confident that the U.S. law enforcement 
system reflects the former and not the latter.
    Some Somali households are likely to be nervous about any 
attention from law enforcement not because of links to 
terrorism, but because of the risk that U.S. law enforcement 
will in the process uncover other ``irregularities,'' including 
illegal immigration, putting the community's interests at risk.
    All communities have their ``dominant narratives'' and 
Somalis are no exception. Their dominant narrative is a story 
of victimization and persecution both at home and abroad. It is 
very easy for some in the Somali-American community to 
interpret current U.S. law enforcement attention as yet another 
instance of witch hunting and persecution, reflecting a 
combination of anti-immigrant, anti-Muslim, anti-African 
sentiments. Some flatly deny there is a problem with al-Shabaab 
recruitment at all. The only way to produce better cooperation 
with this community is through routinized communication that 
builds trust with local law enforcement and which gives Somalis 
a clearer sense not only of their legal and social obligations 
as citizens but also of their legal rights.
    The U.S. Government needs to provide much clearer 
guidelines to Somalis about what constitutes legal and illegal 
behavior with regard to political engagement in their country 
of origin. If not, we run the risk of criminalizing routine 
diaspora engagement in Somalia. The fact that al-Shabaab was 
not designated a terrorist organization before March 2008 but 
then was so designated is an example of the legal confusion 
facing Somalis. Something that was legal in February 2008 is 
now aiding and abetting terrorism. As you know, this is a 
question of relevance to many other immigrant communities in 
the United States whose country of origin is embroiled in war 
or whose charities have come under suspicion of serving as 
terrorist fronts. The U.S. Government cannot ask its citizens 
to abide by the law if the laws themselves are too opaque to be 
understood, and this is especially the case if legal charges 
can be made retroactively for affiliations with groups which 
were acceptable in the past but then designated terrorist.
    Finally, it goes without saying that the main 
responsibility for policing Somali youth to ensure they do not 
become members of criminal gangs or terrorist groups falls 
squarely on the shoulders of Somali parents and community 
leaders. To the extent that Somali communities need additional 
outside support to provide for a safe and controlled 
environment for their children to grow up, we should try to 
provide it. Most importantly, we need to ensure that first-
generation Somali-Americans are growing up with a strong sense 
of being American citizens with all the rights and 
responsibilities that entails. A Somali diaspora population 
that feels it belongs neither here nor in Somalia will be much 
more susceptible to radical movements promising their own sense 
of identity and belonging.
    I hope these brief observations are of help as you exercise 
oversight on a topic with both important implications for 
national security and civil liberties. Like many U.S. citizens, 
I was greatly moved by President Obama's promise in his 
inaugural speech: ``We reject as false the choice between our 
safety and our ideals.'' I am confident that we can address the 
security concerns raised by Somali-American recruitment into 
al-Shabaab without violating their civil rights and those of 
the community. Thank you.
    Chairman Lieberman. Thank you. I agree. That was very 
helpful. I will have questions for you in the question and 
answer period, but let me just as a baseline ask you to give 
the Committee a sense of the size of the global Somali diaspora 
as compared to the population in Somalia.
    Mr. Menkhaus. Our estimates of the global Somali population 
are about 1 million out of a total Somali population--Somalis 
citizens, not the 4 million who are Ethiopian Somalis and 
400,000 who are Kenyan Somalis--of about 9 to 10 million. So 
roughly one in 10 or more are abroad now.
    Chairman Lieberman. OK. Thanks very much.
    The next witness has come to us from Minneapolis. We again 
thank you, as I did in my opening statement, for being here to 
make this personal, to help us to understand what is happening 
within the community. Obviously, as I said at the outset, we 
consider you our allies, our fellow Americans, and in a very 
direct sense the victims of those who are recruiting from among 
your families.
    First, we are going to hear from Osman Ahmed, who is the 
President of the Riverside Plaza Tenants Association in 
Minneapolis. Thank you very much for being here.

TESTIMONY OF OSMAN AHMED,\1\ PRESIDENT, RIVERSIDE PLAZA TENANTS 
              ASSOCIATION, MINNEAPOLIS, MINNESOTA

    Mr. Ahmed. Senators Lieberman and Collins, I would like to 
thank you on behalf of the family members of the children who 
were recruited to Somalia, members of the Somali community, and 
on my own behalf for inviting us to the congressional hearing 
committee. I would like to also thank Omar Jamal, who is the 
Director of Somali Justice Advocacy Center, who helped us, and 
worked a lot of time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ahmed appears in the Appendix on 
page 119.
---------------------------------------------------------------------------
    We would also like to thank the senatorial officials who 
came all the way to Minneapolis on February 28, 2009, to meet 
with the family members and the community. Also, I want to 
acknowledge the FBI office in Minneapolis and its agents who 
work day and night to locate our children. We do indeed feel 
grateful of their extreme efforts.
    The first time we became suspicious was when we received a 
message from Roosevelt High School saying that our kid, Burhan, 
missed all school classes on November 4, 2008.
    Chairman Lieberman. Excuse me, Mr. Ahmed. Say his name 
again so we get it clear.
    Mr. Ahmed. Burhan Hussan.
    Chairman Lieberman. Was he a relative of yours?
    Mr. Ahmed. Yes, he was my nephew.
    Chairman Lieberman. OK.
    Mr. Ahmed. It was November 4, 2008. That to us sounded 
strange and we were stunned. We roamed around the metropolitan 
area and even beyond, nationwide. We went to Abubakar As-
Saddique Mosque and Dawa Mosque, called our building security, 
called Hennepin County Medical Center, hospital emergency 
rooms, and the airport. After that, his mother looked into his 
room and found that his travel luggage was missing, his clothes 
were not there, and his passport was missing also. We 
immediately notified respective law enforcement agencies. We 
immediately contacted the local police office and the FBI 
office in Minneapolis.
    We have been up on our heels since we have realized that 
one of our children was mentally and physically kidnapped on 
November 4, 2008, on Election Day.
    Understanding challenges the Somali community in 
Minneapolis faces today--there are many challenges that the 
Somali community in Minnesota faces like other first-generation 
immigrants. These include limited language proficiency, limited 
skills, and the cultural barrier, as well as the Minnesota 
weather. Most of these Somali-American families are headed by 
single mothers.
    The system is an alternative approach, but understanding it 
is also a barrier. The neighborhood, particularly the West 
Bank/Cedar/Riverside area, has limited resources that could be 
of value to the community members.
    Perspective of family members of the recruited kids--the 
missing Somali-American children created anguish and fear to 
the immediate family members and in the general communities. No 
one can imagine the destruction this issue has caused for these 
mothers and grandmothers. They are going through the worst time 
in their lives. Imagine how these parents feel when their 
children are returned back to the country were they originally 
fled from the chaos, genocide, gang rape, and lawlessness.
    There are five children among the many that were sent to 
Somalia: Burhan Hassan, 17 years old, senior at Roosevelt High 
School; Mohamud Hassan, 18 years old, studying engineering at 
the University of Minnesota; Abdisalam Ali, 19 years old, 
studying health at the University of Minnesota; Jamal Aweys, 19 
years old, studying engineering at Minneapolis Community and 
Technical College, and later at Normandale College here in 
Minnesota; as well as Mustafa Ali, who is 18 years old, 
studying at Harding High School in St. Paul.
    These Somali-American kids were not troubled kids or in 
gangs. They were the hope of the Somali-American community. 
They were the doctors, lawyers, engineers, scientists, and 
leaders of the future of our strong and prosperous nation. For 
instance, Burhan Hassan was a brilliant student with straight 
A's and on top of his class. He was taking college courses--
calculus, advanced chemistry--as he was about to graduate from 
high school. These classes were sponsored by the University of 
Minnesota. He was an ambitious kid with the hope to go to 
Harvard University to study medicine or law and become a 
medical doctor or a lawyer.
    All these youth shared common things. They all left Somalia 
in their infancy like my nephew, Burhan Hassan. He was 8 months 
old when they arrived in Kenya. He was less than 4 years old 
when he arrived in the United States, February 12, 1996. Like 
his peers, Burhan Hassan was never interested in Somali 
politics or understood Somali clan issues. Burhan grew up in a 
single-parent household. His immediate family members, 
including his mother and siblings, are educated. He studied 
Islam at a nearby Abubakar As-Saddique Mosque like the rest of 
the kids since 1998. Abubakar As-Saddique was opened a couple 
of years ago. Before then, it used to be called Shafi'e Mosque 
in the Cedar Riverside neighborhood area when Burhan started. 
He attended its youth group. These kids have no perception of 
Somalia except the one that was formed in their mind by their 
teachers at the Abubakar Center. We believe that these children 
did not travel to Somalia by themselves. There must be others 
who made them understand that going to Somalia and 
participating in the fighting is the right thing to do. To 
address the issue from a factual perspective, it is the dream 
of every Somali parent to have their children go to the mosque, 
but none of them expected to have their children's mind 
programmed in a manner that is in line with the extremist's 
ideologies. In the case of Burhan, he spent more than 10 years 
going to the mosque. This is evidenced by others who also 
attended the mosque.
    One thing for sure is that the methods of indoctrination 
are highly sophisticated. The plan of al-Shabaab is basically 
to destroy the world peace, and they will turn every leaf to 
achieve that. Their mission is not isolated into Somalia but 
has far-reaching goals.
    The Somali-American youth were isolated because they have 
been told that if they share their views with others, including 
their family members, they will not be understood and might as 
well be turned over to the infidel's hands. These children are 
victims on every side. They have been lied to. They were told 
that they will be shown the Islamic utopia that has been hidden 
from them by the infidels and the brainwashed parents. Our 
children had no clue they were being recruited to join al-
Shabaab. We are getting a lot of information back home from 
Somalia. We also heard that when kids arrive, they are 
immediately shocked at what utopia is, and all their documents 
and belongings are confiscated. They are whisked to hidden 
military camps for trainings. They are also told if they flee 
and return home that they will end up in Guantanamo Bay. They 
do not know anyone in Somalia.
    Why is al-Shabaab interested in American and Western kids? 
We believe the reason al-Shabaab is interested in American and 
Western kids is that these kids do not have any relatives in 
Somalia. They cannot go back to their countries for they will 
be reported to the authorities by local al-Shabaab recruiters. 
They are also very valuable in interpreting for al-Shabaab 
trainers of American and Western descent.
    They could be used for anything they want. They could be 
trained or forced to become suicide bombers in Somalia, and 
they can do it out of desperation. For many of them, Burhan, 
for example, have no idea where to go for help in Somalia. This 
is the first time he has been to Somalia in his life. These are 
basically the main reasons why al-Shabaab is recruiting from 
the Western countries.
    Another issue of paramount importance is the fact that we 
are the first family members who informed the law enforcement 
about the missing of these youth. Family members whose children 
sent to Somalia were scared to even talk to the law 
enforcement. We have been painted as bad people within the 
Somali community by the mosque management. We have been 
threatened for just speaking out. Some members of Abubakar As-
Saddique Mosque told us that if we talk about the issue, the 
Muslim center will be destroyed, and Islamic communities will 
be wiped out. They tell parents that if they report their 
missing kid to the FBI, the FBI will send the parents to 
Guantanamo jail. And this message has been a very effective 
tool to silence parents and the community.
    They do have a lot of cash to use for propaganda machine. 
They strike fear on a daily basis, here in Minneapolis, among 
Somali-speaking community in order to stop the community to 
cooperate with the law enforcement agencies. Public threats 
were issued to us at Abubakar As-Saddique Mosque for simply 
speaking with CNN, Newsweek, and other media. The other mystery 
is that they say one thing on Somali TVs and at their 
congregations, they say something contrary to that in English 
while speaking to the mainstream media or community.
    They also told us not to talk to the media because that 
will also endanger the Muslim leaders. We have been projected 
as pariah within the community by these mosque leaders. We are 
tormented by the fact that our children are missing and 
imperiled. These members are scaring us so that we stop talking 
to law enforcement.
    Perspective on al-Shabaab to attract young people to their 
cause--The most important factor on how al-Shabaab attracts the 
young Somali-Americans is the indoctrination of the children. 
They are programmed to understand that it is their duty to 
confront the infidels. There are youth programs that in some 
instances have some hidden agendas. These agendas include that 
whatever issues that might come across in life is twisted as 
being the work of the infidels. They have been told to 
understand that the Ethiopian troops in Somalia are an act of 
aggression against the Islamic religion. Al-Shabaab is not only 
interested in recruiting Somali-American youth but others in 
other Western countries, such as the United Kingdom, Germany, 
Canada, and Australia. The main reason for al-Shabaab to 
recruit from these countries is that these youth have different 
views than a typical Somali in Somalia. They do not know much 
about Somali clan and have no political affiliation whatsoever.
    There are some radical groups who were a minority in their 
thinking. However, when the Ethiopian troops came to Somalia, 
some Somali-American professors clearly declared the war 
against Ethiopian troops. This has been a scapegoat for their 
extremist political views. It encouraged radical Islamic groups 
in the United States who previously were not active in the 
political activities here and in Somalia.
    In conclusion, we the families of the missing kids have 
been conducting an outreach campaign to reach out to those 
families that have not come forward. We believe this is the tip 
of the iceberg. In our outreach, we have been very successful 
to help some families to come forward and trust the law 
enforcement like we did.
    Recommendations for preventing recruitment in the future: 
Educate members of the Somali community on the importance of 
cooperation between law enforcement and the community.
    Empower the families of the missing kids to continue the 
outreach to those families who did not come forward.
    Bring to justice those who are responsible.
    Create special task forces to combat the al-Shabaab 
recruitment in Minnesota, Ohio, Seattle, Washington, and 
Boston.
    Scrutinize the funding of suspicious nonprofit agencies 
that undertake youth activities possibly related to radical 
views.
    Investigate if taxpayers' money was involved in the 
brainwashing of our kids because Abubakar Center is a nonprofit 
that might have been getting taxpayers' money for youth 
programs.
    The mosque controls a large amount of money, which is 
raised in these mosques, quarterly or sometimes yearly 
fundraising which lacks transparency--huge amounts of cash--and 
portions of that money could have gone to al-Shabaab groups. 
Second, we are requesting more connection between our community 
and the FBI, so the FBI has to do more outreaching programs to 
the community.
    We need a protection for our children so that they can 
escape enemy hands.
    We need our U.S. Government to forgive these youth to 
enable us to find ways and means to bring them back to their 
homes. And this will give confidence to many more families to 
come out of darkness.
    Warning: Al-Shabaab recruiters have the agility and ability 
to change form. They usually are well represented not only in 
certain mosques but wherever Somali children and young adults 
are concentrated, such as community centers, charter schools 
operated by Somalis. They could sometimes pose as Somali 
community leaders and advise politicians and other agencies 
that are outreaching to the Somali community. Al-shabaab 
recruiters can be active and target the youth at where ever 
Somalis are. Definitely, we don't know who is exactly behind 
this crazy venture. Nonetheless, we need to be vigilant at all 
times. Again, I want to thank you.
    Chairman Lieberman. Mr. Ahmed, I want to thank you for your 
courage in standing up in a dangerous situation, including 
against some in the community, and the U.S. Government really 
owes you exactly the kind of support and outreach that you ask 
for. I will say this--I will have questions for you, but the 
picture you paint is clearly not a situation--the word 
``volunteer'' was used before, and I know the witness on a 
previous panel said he meant to say that they were not coerced. 
But you are describing a situation--and we will get back to 
it--where these were not just young people who stood up, woke 
up, and after a period of time talking to their families and 
said, ``I want to go back to Somalia.'' They were clearly, by 
your telling, radicalized, recruited, and then if I heard you 
correctly, in the case of your nephew, Burhan Hassan, he just 
disappeared. He did not tell anybody he was going, correct?
    Mr. Ahmed. Yes. He did not tell anybody.
    Chairman Lieberman. OK. We will come back to that.
    Our final witness today is Abdi Mukhtar, Youth Program 
Manager from the Brian Coyle Community Center, which I gather 
is a community center at which a lot of young Somali-Americans 
in Minneapolis congregate. Thanks for being here, sir.

  TESTIMONY OF ABDIRAHMAN MUKHTAR,\1\ YOUTH PROGRAM MANAGER, 
BRIAN COYLE CENTER, PILLSBURY UNITED COMMUNITIES, MINNEAPOLIS, 
                           MINNESOTA

    Mr. Mukhtar. Chairman Lieberman, Ranking Member Collins, 
and Members of the Committee, thank you. Before I start my 
statement, also as a parent who has children, I emphasize, and 
I send my sympathy with the family members who are missing 
their kids, and the majority of the Somali-American community, 
sends their sympathy for the families.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mukhtar appears in the Appendix 
on page 125.
---------------------------------------------------------------------------
    Chairman Lieberman. Thank you.
    Mr. Mukhtar. Thank you for the opportunity to appear before 
you today. The Somali youth issue is very important for me 
personally and professionally, and I am honored to have a 
chance to share my experience and expertise about this issue as 
a Somali youth issue expert.
    My name is Abdirahman Mukhtar. I was born in Somalia. I 
fled Mogadishu, the capital city of Somalia, when the civil war 
started early January 1991. I went to a refugee camp in Liboa, 
Kenya. I stayed 7 years in refugee camps and the capital city 
of Nairobi in Kenya. I moved to the United States in August 
1998. After moving to the United States, I attended and 
graduated from Roosevelt High School in Minneapolis, and I went 
on to pursue higher education from the University of Minnesota 
with a degree in kinesiology. I am planning to go back to 
graduate school for doctorate of physical therapy in the near 
future.
    I have been working with youth for over 8 years--first with 
the Minneapolis Park and Recreation Department, then with the 
Confederation of Somali Community in Minnesota as a Youth 
Diversion Coordinator, and currently as the Youth Program 
Manager at the Brian Coyle Center.
    The Brian Coyle Center serves as a central hub for 
resettlement assistance, social services, adult education, 
employment counseling, youth programming, recreation, and civic 
engagement for the Somali community in the Minneapolis 
metropolitan area. The center includes a gymnasium, community 
room, commercial kitchen, numerous classrooms, a food shelf, 
and a computer lab. Along with Pillsbury United Communities, 
the organization that I work for, there are other organizations 
that have their offices in the building, which includes the 
Confederation of Somali Community in Minnesota; the Oromo 
Community, which is an ethnic Serbian community; Emerge 
Community Development (EMERGE); Somali Youth Network Council; 
Cedar Riverside Neighborhood Revitalization Program; the West 
Bank Community Coalition; Somali Education and Social Advocacy 
Services; East African Economic Development Center; Haboon 
Magazine; and the Somalia Family Advocacy Group. All are 
nonprofit organizations.
    Assimilation to the Minneapolis Community--The main 
difficulty I had assimilating to the mainstream community was 
the language barrier, because I did not speak in English and at 
times people had difficulty understanding me. Second, I 
experienced racial and cultural misunderstandings; many people 
in the American society were not well educated and did not know 
about my culture, religion, and other differences. Many of the 
Somali youth and their parents have similar experiences such as 
limited formal education caused by the Somali civil war and 
settlement in different refugee camps. Somali students like me 
were enrolled into classrooms in the United States based on age 
rather than academic level, making it very difficult to 
succeed. When classes are challenging beyond a person's current 
capability, it often leads to students skipping school and 
dropping out.
    Since parents have to support their families and provide 
food and shelter, but can only get lower-wage jobs--such as 
assembly work, cleaning, temporary jobs, and some of them 
struggle with small businesses that barely make a sustainable 
income--they do not have the time to be involved in their 
children's academic and recreational activities. Not only are 
families working hard to meet the basic needs to support their 
children in the United States, they also are responsible for 
sending money to extended families back in Africa. The 
expectation of the school system on parents for parent 
involvement adds to the challenges for Somali families and 
students. Somali parents and the Somali community value 
education.
    When I started high school, I was fortunate enough to have 
bilingual teachers to assist me in my education and adaptation 
to the education system in America. Now, due to the cutbacks 
and policies, Somali students don't have culturally appropriate 
programs and the support of bilingual teachers in their 
schools.
    It was not easy for me to attend high school because my 
family back home expected me to support them, even though I was 
in my teens. I was encouraged to get a GED instead of finishing 
high school, so I could get a full-time job. Instead, I started 
working 20 hours a week at the Mall of America and continued to 
work towards my high school diploma.
    During the summer, I worked full time while also attending 
summer school to pass the basic standards tests in math and 
English. In my senior year, I took a commanding English class 
at the University of Minnesota in order to improve and be ready 
for college. I was able to take this class through the post-
secondary options program. Because of my GPA, leadership, and 
extracurricular activities, I was accepted to attend the 
General College of the University of Minnesota, which no longer 
exists.
    Somali youth today experience the same barriers I faced as 
a new immigrant in the United States; however, they do so with 
even fewer resources than what was available for me. Language 
is still a barrier as young Somalis try to achieve success. 
Identity crisis and cultural conflict are a reality for Somali 
youth--for example, Somali culture at home versus American 
culture at school. Parents expect you to keep your culture, 
while the American education system and way of life forces you 
to assimilate. Many have difficulties adjusting to the new way 
of life while facing cultural barriers that seem hard to 
overcome. As a result of identity crisis and frequent 
challenges, many youth lose hope and start making poor choices. 
The current economic situation also adds to the problem since 
jobs are not available for youth. They become truant, getting 
involved in gangs and using drugs like their peers. However, 
there are many successful Somali youths who overcame these 
obstacles.
    Somali families tend to be large, mostly with single 
parents who are working to make ends meet. Many Somali parents 
also provide for relatives, thus reducing their income status 
and livelihood. Even though parents care deeply for their 
children, this continues to be a strain on the support provided 
to Somali youth.
    Somali families for the most part live in high-density 
housing in the lowest-income neighborhoods in the city. The 
Cedar Riverside neighborhood where I live and work has a median 
household income of just $14,367 a year. Let me say that again. 
It is a median household income which is $14,367 a year. The 
unemployment rate is 17 percent--that is according to the 2000 
census--so it is much worse, especially in the economic crisis 
we are facing now. Across the street from the Brian Coyle 
Center, in one apartment complex there are 3,500 residents, of 
which 92 percent are immigrants and 1,190 are under the age of 
18.
    This is the highest concentration of low-income children in 
Minnesota, some people say in the Midwest, and most of them are 
Somalis. Many opportunities and resources are not available in 
neighborhoods that Somalis reside compared to other areas in 
the city. Services are often inaccessible due to lack of 
appropriate local, city, and State agencies offering culturally 
competent services to Somalis. We operate our programs in a 
city-owned building for which the park department doesn't even 
cover the expenses they are required to by contract, so we 
manage with minimal resources.
    When youth don't have access to healthy options to fill 
their free time, they fall into the typical trappings 
associated with youth culture, for example, the Internet--peer 
pressure and cyber predators. Many Somali youth are nowadays 
involved with drug use and gang violence. This seems to be the 
biggest distraction because resources and many important 
opportunities are not available for these youth.
    People without college degrees are limited with regard to 
employment. They are reduced to manual labor and factory work. 
Moreover, racism and employment discrimination still exist in 
many blue-collar establishments. This leads to problems such as 
high divorce rates and child neglect because they are unable to 
provide for their families and other family members.
    Somali youth report a high level of discrimination across 
the board. This includes schools, colleges, the media, in the 
community. and by law enforcement. Discrimination is based on 
ethnicity, culture, and religion. When I asked a group of youth 
ranging in ages 10 to 20 what were their greatest challenges, 
50 percent answered harassment by the police. Because of how 
young Somali-Americans dress, even some of their own community 
members stereotype them.
    Second-generation immigrants are different than first-
generation. Like many immigrant communities, there is a stark 
difference between first and second-generation Somali 
immigrants. Parents maintain a lifestyle that essentially is 
like living from a suitcase; they hope to return. They 
experience language barriers and have difficulty interacting 
with the larger society. Second-generation Somalis are more 
settled and hope to build their lives here; they are more 
immersed in American culture and they are fully engaged.
    Somali immigrants experience frustration with the education 
system, and new sets of barriers occur for second-generation 
immigrants. Institutions often are not empowering, for example, 
keeping students in English language learner (ELL) even if they 
don't need such courses. Second-generation Somali youth often 
speak English well, but are stereotyped and wrongly assigned to 
low-level classes. Inner city schools still have a graduation 
rate for Somali students well below their white American peers. 
Second-generation Somalis consider themselves Somali-Americans, 
but they experience stereotyping by the broader society who 
sees only their ethnicity and religious affiliation.
    Chairman Lieberman. Mr. Mukhtar, excuse me for 
interrupting. You are considerably over the time we normally 
allow the witnesses. I do not want to cut you off. Let me 
suggestion two things.
    First, you are getting to the Shirwa Ahmed story. I would 
like to ask you to tell us that story. We will then print your 
entire statement in the record, and then we will draw out some 
of your recommendations for solutions in the questions and 
answers. So why don't you proceed and see if you can tell us 
about Shirwa Ahmed.
    Mr. Mukhtar. Shirwa Ahmed and I went to Roosevelt High 
School together, and we are both from Somalia. Recently, it was 
reported, as we said earlier today, that Shirwa was the first 
American citizen known to be a suicide bomber.
    The Somali community is not a monolithic community; it is 
highly diverse. As a first-generation immigrant, I faced many 
challenges in my life, and I had many responsibilities with 
regard to supporting my life. I made decisions that reflect my 
history and experiences. It is difficult to map out the lives 
of people. Many of my classmates took different paths in life 
and ended up in different roles. Some are highly trained 
professionals, some are in jail, some are in the workforce 
earning low wages, and some are in the U.S. Army.
    When learning about Shirwa's role as a suicide bomber, 
people were shocked and angry because it goes against the 
Somali culture and it is also inherently anti-Islamic. Many 
Somalis are not convinced that it happened because the idea 
seems too far out of people's comprehension. Throughout 
Somalia's history, particularly in times of war, suicide 
bombings never occurred, and this is this case.
    I have been asked, ``Do Somali youth talk about Shirwa?'' 
Somali youth talk more about March Madness, Kobe Bryant, the 
NFL draft, and basic things. They face different local 
challenges than what the topic of this hearing is today.
    I will just stop there so I can answer the questions since 
I went over my time.
    Chairman Lieberman. Thank you very much, and we will 
include your full statement and those of the other witnesses in 
the record.
    Let me begin my questioning, and let me begin it with you, 
Mr. Mukhtar. So you knew Shirwa Ahmed. He was your classmate, I 
gather, at Roosevelt High School in Minneapolis, correct?
    Mr. Mukhtar. Actually, he graduated a year ahead of me, but 
we went to the same high school.
    Chairman Lieberman. Right. And I gather a good student, 
serious student?
    Mr. Mukhtar. He was a very quiet guy, good student, but as 
I told you, he was a class ahead of me.
    Chairman Lieberman. Right. So am I correct, as in the case 
of Mr. Ahmed's nephew, that this was a surprise when he left 
for Somalia?
    Mr. Mukhtar. I only heard from the media about his suicide, 
and when the FBI Director mentioned it was the first American 
suicide bomber.
    Chairman Lieberman. OK, I understand. So your contact with 
him was not close. Based on your interaction with Somali-
American youth in Minneapolis, how do you explain what happened 
to Mr. Ahmed?
    Mr. Mukhtar. You mean what happened to Shirwa Ahmed?
    Chairman Lieberman. Yes, Shirwa Ahmed. Yes, how did he end 
up going to Somalia? I mean, you assume he was recruited by 
somebody?
    Mr. Mukhtar. No. That is why I made my own personal choice, 
and there are a lot of my classmates who also are in jails or 
in gangs. So I don't know how he ended up in that situation.
    Chairman Lieberman. Let me go now to Osman Ahmed, because 
in your testimony--let me ask about Mr. Hassan first, your 
nephew. Am I correct that he has called at times now from 
Somalia to talk to his family to tell him he is there?
    Mr. Ahmed. Yes.
    Chairman Lieberman. And I thought your testimony was very 
interesting. I think I have it right--well, here is what it 
said to me: That when they get there, basically their identity 
is taken away, their papers are taken away. So in some sense, 
they are trapped, and that may be one reason why the recruiting 
of Americans goes on because they are left with no way to get 
out, so they are much more controlled by al-Shabaab.
    Mr. Ahmed. Yes, that is the main reason they are recruited, 
because the local Somalis, if they desired to flee from their 
terrorist group, they have a place to return. They have a 
family, and also they have a protection.
    Chairman Lieberman. Right
    Mr. Ahmed. But these kids, they don't have a protection, 
they don't have their clan, they don't have any family members 
back home. So they have nowhere to go.
    Chairman Lieberman. Yes. Mr. Ahmed, in your testimony, you 
used the word ``they'' several times, ``they'' when describing 
those who recruited and radicalized both your nephew and other 
young men in the Somali community in Minneapolis. And I wanted 
to ask you if you could say a little bit more about who you 
think ``they'' are?
    Mr. Ahmed. There are different minority groups who are 
spreading this ideology of extremism. And before, they never 
came up and shared their views to the community until the 
Ethiopian troops entered Somalia. So at that time, they got 
excused.
    After 2006, those minority groups, they started spreading 
to two mosques in Minneapolis----
    Chairman Lieberman. Mostly through the mosques.
    Mr. Ahmed. Two mosques, even though we also suspect at some 
other mosques around the United States.
    Chairman Lieberman. Right.
    Mr. Ahmed. They changed the management of those two mosques 
to have influence to the community, and that is how we believe 
after 2006 they started recruiting the kids, and also spreading 
their ideology of extremist.
    Chairman Lieberman. So you are convinced that it is people 
within the mosque who are having this effect on some of the 
young men in the Somali community in Minneapolis.
    Mr. Ahmed. Of course, let me give you an example. These 
kids, especially my nephew, he was well connected to the 
mosque. He does not have any friends outside. He used to go to 
school, home, and the mosque.
    Chairman Lieberman. Right.
    Mr. Ahmed. And there is no way he could get that ideology 
from the school or home.
    Chairman Lieberman. Yes, and that is a very important 
point. So his family does not believe in this Islamist 
extremist ideology.
    Mr. Ahmed. No way.
    Chairman Lieberman. Obviously, he was not getting it in 
school.
    Mr. Ahmed. Nothing.
    Chairman Lieberman. Also, again, to point this out--and it 
seems to be a pattern as you described some of the young men 
who had gone, these were, generally speaking, young men who 
were doing pretty well at school, correct?
    Mr. Ahmed. Yes. All of them, they were A students.
    Chairman Lieberman. Yes. And were all of them regular 
attenders at one or more of the mosques?
    Mr. Ahmed. As far as we heard from their families, yes.
    Chairman Lieberman. You also advocated in your testimony 
for more transparency with regard to the funding for the 
Abubakar mosque because, as you suggest, you are worried that 
some of the money may have been sent to al-Shabaab. Why do you 
think that that is so?
    Mr. Ahmed. Actually, that money, it is not only for the 
Abubakar Mosque. There is another mosque which is Da'wan, in 
St. Paul.
    Chairman Lieberman. In St. Paul?
    Mr. Ahmed. Yes. They are collecting quarterly, sometimes 
monthly, sometimes yearly, and they are telling the community 
that they are spending the money for expenses of the mosque and 
the salaries. But the community have questions about where that 
money really is going. And there is no transparency at all.
    Chairman Lieberman. Yes. So your concern, obviously, is 
that some of the money being contributed to the mosque is going 
to al-Shabaab.
    Mr. Ahmed. Actually, we are cautious about that, because, 
one, there is no transparency. They can use that money wherever 
they want to use it.
    Chairman Lieberman. Right. I have a feeling Senator Collins 
is going to ask this question, so I will begin it. But as we 
trace this rather remarkable path that we believe from people 
who have followed it that Burhan Hassan, your nephew, took, he 
went with a group of other young men. They split up. Some went 
to Boston. Some went to Chicago. They had many stops along the 
way before they got to Somalia. And the estimate is that this 
was being coordinated as a way to perhaps deceive people who 
would be following them, but also it cost a fair amount of 
money, an estimated at least $2,000.
    Is it fair to say that you would be surprised if Burhan 
Hassan himself had $2,000 to spend on the trip?
    Mr. Ahmed. No way, no way he could get it. He never worked, 
so definitely there is a group who are going to organize these 
kids, funding, arranging even the travel stuff. Even some of 
them, they cannot call the travel agents and get tickets 
because of their age.
    Chairman Lieberman. Thank you. I am now going to yield to 
Senator Collins. You have been very helpful to the Committee.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Mukhtar, let me pick up where the Chairman left off. 
You gave us some very compelling statistical information about 
the low level of income of the Somali households in your 
region. So would you agree that it is very unlikely that these 
young men were able to finance their own trips?
    Mr. Mukhtar. Actually, allow me to say that Abdisalam, who 
is one of the kids that left, I know him very well. He was in 
my youth program when I used to work at Elliott Park. So 
Abdisalam used to work. He had a job while he was a full-time 
student at the university of Minnesota. Some of the older 
youth, according to community members, had jobs. But I am not 
sure who--I don't exactly know who paid their trip and why, 
because I deal with the challenges that face the young people 
every day. And the mosques, the issue of the mosques, the 
mosques are the essential life of Muslims--not only the Somali 
community. Every Muslim, their essential life is the mosque 
because we pray five times a day.
    My kid goes to the mosque to learn his Islamic roots. So 
what happens is that these mosques, they are community built, 
not individuals. So we cannot blame the mosques. We can blame 
individuals. You can create friends and foes, as it happened on 
September 11, 2001.
    So, please, I am encouraging you--I personally want to know 
who is recruiting these kids because every day that is what I 
do. I want to make sure that these young people make the right 
decisions and want these young people to be productive 
citizens. So I have the right to know who is recruiting them.
    Senator Collins. You do believe that they are being 
recruited, though.
    Mr. Mukhtar. There are rumors within the community. The 
only recruitment that I know, I know gangs who are recruiting 
these kids.
    Senator Collins. Right.
    Mr. Mukhtar. And that is the local challenge that I face as 
a youth manager.
    Senator Collins. Mr. Ahmed, you made a really important 
point in your testimony that was different from the previous 
panel whom we heard earlier. You make the point that for these 
young people, America is their homeland, that your nephew was 8 
months old when he came to America.
    Mr. Ahmed. Yes
    Senator Collins. That he had never been to Somalia. Is that 
correct?
    Mr. Ahmed. Yes.
    Senator Collins. So, in your judgment, this was not a case, 
as far as you know, of his feeling this connection to Somalia 
that would lead him to volunteer to go fight for his homeland, 
because America is his homeland. Is that correct?
    Mr. Ahmed. Yes.
    Senator Collins. I think that is a very important point 
here, because it leads to your conclusion that there is 
indoctrination or radicalization going on. And I am not trying 
to put words in your mouth, but is that correct?
    Mr. Ahmed. Yes, that is correct.
    Senator Collins. Obviously, the events of the last several 
months have clearly heightened the awareness of the Somali 
community in Minneapolis of the dangers of radicalization and 
the risk to the young people, your relatives, your friends, 
your family members.
    A key to combating that radicalization is for individuals 
and communities, youth leaders, and local mosque leaders to be 
aware of the dangers before this radicalization process occurs. 
To your knowledge--I am going to ask both of you this 
question--was that awareness in existence prior to the 
disappearance of these young people? Mr. Mukhtar.
    Mr. Mukhtar. In this case, there was not much awareness, 
no, because we were focusing on the local violence issues. In 
the last year, while the Minneapolis mainstream violence went 
down by six points, the Somali youth violence went up six 
points. It is totally the opposite. We had six Somali young men 
who were killed by Somalis, gangs or other ways, last year 
alone. I personally lost a volunteer who was a work/study I 
recruited, Ahmed Nur Ahmed Ali, on his first day of his job in 
front of Brian Coyle Center.
    So I focused on the local issues, but, on the other hand, 
we control our computer lab because Internet plays a role in 
this issue, as this Committee reported in May in your report. 
So we control our computer lab--you cannot go to YouTube. You 
cannot watch anything. We don't allow MySpace or other social 
things.
    So we are aware youth are very vulnerable when it comes to 
the Internet, but as to this issue, I focus on the local issues 
which actually the community talked more about before this 
happened.
    Senator Collins. Mr. Ahmed, in your judgment, was there an 
awareness of this risk to the Somali youth in Minneapolis prior 
to the disappearance of these young men?
    Mr. Ahmed. Before I answer that question, I want to 
clarify.
    Senator Collins. Yes.
    Mr. Ahmed. We are not blaming the mosque.
    Senator Collins. Right.
    Mr. Ahmed. Mosques are our places we worship. What we are 
blaming is the management. The mosque itself cannot 
indoctrinate for the kids.
    Senator Collins. That is an important distinction.
    Mr. Ahmed. Yes. The answer to this question is we do not 
have to mix it, the gang activities going on in Minnesota and 
the missing kids. It is two separate issues. These kids, they 
can harm us in United States and our security. But the gangs, 
they can only harm us with the gang stuff. So we don't have to 
always mix it for those two issues, those kids who are 
traveling back home and the kids who are in gangs.
    When it comes to the Internet, I do not believe that the 
Internet played a big percentage. First time we believe they 
get indoctrinated might be the end when they get brainwashed 10 
percent or 15 percent a day, they could get somebody from the 
Internet. That is what we believe.
    Senator Collins. When your nephew has called back home from 
Somalia, has he given any indication of why he left or what he 
is doing or whether he plans to return?
    Mr. Ahmed. He looks like somebody who was being instructed 
by another person who is in there. His mom tried to ask him a 
couple of questions, and he just keep returning, ``Mom, I am 
safe. I am in Mogadishu, Somalia. I will call you back.'' So 
couple of times he has called his mom, she tried to ask couple 
of questions, and somebody maybe was instructing him what to 
say.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins. 
Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    Mr. Menkhaus, I want to thank you for your insightful 
information about that whole situation. It was really 
educational and informative. My questions probably will be 
directed at the other witnesses.
    Either one of you, do you know if any adult Somalis have 
volunteered to go back for the war?
    Mr. Ahmed. There is no way that somebody who has the best 
hospitals, best schools, and lives with best society, can go 
back and join a terrorist group.
    Senator Burris. Do I understand, you do not know of any of 
your----
    Mr. Ahmed. There is no way a person who is in the United 
States that has the best schools in the world, best hospitals, 
live with best society in the world, can go back and join a 
terrorist group. There is no way.
    Senator Burris. OK. Because at times you will see this has 
happened in America where the various ethnic groups are here as 
Americans, and they have gone back to their homeland 
voluntarily sometimes to assist. So you said you know of no 
Somali adults that have gone back to say that we now want to 
try to defend our homeland or join the services. Is that what 
you are saying?
    Mr. Ahmed. Yes, even though some people justify going back 
for fighting with Ethiopian troops. Let me give you example. 
Last year, October 29, 2008, there were two explosions in 
Somalia, and that area, it is a peace area; there is no 
Ethiopian troops. So what are they justifying those who are 
saying we want to go back and fight the Ethiopian troops? There 
is no Ethiopian troops in Somalia there.
    Senator Burris. Do you two gentlemen feel any danger as a 
result of your coming here and testifying? You mentioned gangs 
and----
    Mr. Mukhtar. No, I personally--as a Somali community member 
and a Somali-American, I have the responsibility, and we all 
care about the safety of America. Let me be clear about that. 
The Somali community is very peaceful, and we care about--and 
that is why I decided to come for the sake of the American 
country and the Somali-American community who have been 
victimized because we have an issue of guilt by association, 
not only the people that left, but in Minnesota and everywhere, 
Somalis are being considered as homegrown terrorists. But that 
is not who we are. There are people like us, there are people 
like Osman, who are here to testify about this issue.
    Senator Burris. That is admirable on your part. That is 
what we do as Americans, and the Somalis have adopted this as 
their country, and I see that you are saying that this is your 
country now, and you are going to speak up for your country of 
America. Is that what you are saying?
    Mr. Mukhtar. Not only me but the whole Somali community.
    Senator Burris. Terrific.
    Mr. Mukhtar. Yes, and that is why maybe this small number 
of people that have different ideas, but the majority of the 
Somali-Americans and the Muslim community is very safe, and 
they consider this their homeland, and that is why some of them 
are even in the army, to protect this country.
    Senator Burris. And that is what we call America, and I am 
so proud of the Somalis who are here and who have adopted this 
country because I am a descendant not of Somalia but somewhere 
out of Africa, which I do not even know where. And for you all 
to come to the country voluntarily and adopt this country as 
your own and to say you are going to make America even greater 
and make your family greater, that is what it is all about. I 
do not want to seem like I am lecturing to you, but you bring 
tears to my eyes when I see you are committed in that fashion.
    So you do not feel any danger, and you are seeking to try 
to stop these young people from being recruited. Do you know 
who is really doing the recruiting to get them over there? If 
it is the managers of the mosque or somebody has been taking 
them out, who is doing it?
    Mr. Ahmed. First of all, I am comfortable coming here and 
testifying even though I was getting big pressure from the 
minority group who are leading some of the mosques. But I am 
not really in danger at all.
    The other question, which is who is recruiting, it is 
definitely clear. These kids, they were American mainstream 
kids. They did not come up with their own idea to go back to 
Somalia and have a ticket. Definitely, there is a minority 
group who are working, recruiting, financing. And I hope the 
law enforcement agencies will bring them to justice soon.
    Senator Burris. So you are saying that there are 
investigations going on as to who----
    Mr. Ahmed. That is what we believe, of course, yes.
    Senator Burris. Thank you, gentlemen. No more questions, 
Mr. Chairman. Thank you.
    Chairman Lieberman. Thanks, Senator Burris. First, I want 
to say Senator Burris really was speaking for all of us. You 
are an inspiration. Each one of us is from ethnic communities 
that immigrated here, and I was raised in a family that said 
that in America, you did not have to be like everybody else to 
be a good American. Part of the strength of America was to be 
yourself, that from that diversity--cultural, religious, 
whatever--that you made America stronger. And the Somali-
American community is contributed to that.
    Incidentally, may I say to the two of you that you are 
setting a great role model for the young people coming up in 
the community after you. I appreciate what you said about the 
mosques, and just to clarify, from the Committee's point of 
view, the problem here is not the mosques. The problem is that, 
from what you have said, there may be some people--one or two 
or however many--inside the mosque who are using the mosque to 
recruit, essentially to take away some of your children. I 
mean, obviously, one of the great things about America is the 
First Amendment right to freedom of religion, and that is what 
the mosques are all about. So we approach the mosques with 
respect. If we have any concerns, it is about the people who 
are operating within them.
    First off, we have good reason to believe that there is law 
enforcement work going on and that it is aimed at some of the 
people who are causing this problem and who obviously are a 
minority and do not reflect the interests or the opinions of 
the Somali-American community.
    But, generally speaking, tell us what the community is 
doing to try to combat this--I will call it ``an evil 
influence'' aimed at your children and what, if anything, local 
or State government is doing to help you and what can anyone do 
to help you bring your children to the right path.
    Mr. Ahmed. The reality, it is not an easy task to find out 
really those who are involved. But as a parents, we tried every 
angle that we can get information and working with the law 
enforcement agencies. We even contacted people back home in 
Somalia to get some information. And still we are working to 
the law enforcement agencies. We are trying to speak to 
families that do not come forward and explain they are not in 
danger and explain if they come forward and talk to the law 
enforcement agencies and register their kids, in the future, 
they may get protection from the American Government.
    So it is not really an easy task, but we are trying to work 
and knock on every door. And I hope one day we will succeed 
that idea.
    We did not get that much help from the authorities back 
home in Minnesota, what I am talking, from mayor or other 
officers.
    Chairman Lieberman. Yes.
    Mr. Ahmed. We only have contact with the FBI and some of 
the local law enforcement agencies. And I hope we will try to 
go everywhere that you can get help.
    Chairman Lieberman. Well, if there is a way we can help, I 
hope you will let us know. It is a remarkable story because we 
found that in previous hearings--you would not expect it, but 
the agency of the Federal Government that has the most outreach 
and, I would say, positive outreach to the Muslim-American 
community--in this case, the Somali-American community--is the 
FBI, surprisingly.
    I want to ask you, Mr. Mukhtar, a final question. From the 
work you are doing at the community center, what is your 
judgment about the extent to which radical websites, Islamist 
websites, extremist websites are having some effect on 
children? Are the kids going to use them a lot?
    Mr. Mukhtar. I mean, kids are tech savvy nowadays, and they 
would rather use the Internet than listen to radio or watch TV.
    Chairman Lieberman. Right.
    Mr. Mukhtar. So the only thing I would say is also in my 
statement under the recommendations. But I would say is that 
extreme--you should be able, this Committee, the FBI, or the 
law enforcement should be able to control the Internet use. 
Last year alone in America, 6,000 cyber predators have been 
reported by families. So you can imagine that is the only 
people that are reporting that they know they cannot report 
this to the law enforcement.
    My community, my parents, they do not speak English, so 
there is no way they can report such things like that. They do 
not know anything about computers. So it is very important that 
we protect our kids from the Internet, whether it is the 
Islamic extremists or other issues. But it is very important 
that we do that.
    Chairman Lieberman. Very good. Incidentally, this Committee 
made some protests about YouTube--which is now owned by 
Google--and they created a process where, when we and any of 
you who want, you can do it through us, can identify a website, 
they will check it. And if they believe it is encouraging 
violence, they will take it down.
    Mr. Mukhtar. It is not only YouTube, but it is also local 
media. Each ethnic group has their own media that influence. So 
you can also add to that. You can filter that, too.
    Chairman Lieberman. That is a good point.
    Dr. Menkhaus, thank you for being here. Your testimony was 
very helpful. I want to clarify, because you have described a 
changing picture on the ground in Somalia, with al-Shabaab 
somewhat in--I would not say ``retreat,'' but waning somewhat 
because of changes, and particularly because the Ethiopians are 
not there anymore.
    Is al-Shabaab effectively in control of some parts of 
Somalia now still?
    Mr. Menkhaus. Absolutely. It controls, again, all the 
territory from the Kenyan border down to the outskirts of 
Mogadishu. It has some strongholds inside Mogadishu as well. 
There were fears that when the Ethiopians withdrew in December 
that al-Shabaab might overrun the capital. That has not 
happened. What we have seen is that there has been pushback, by 
clan militias affiliated with this new emerging unity 
government. And we suspect that is because Somali political, 
social, and business leaders in the country understand full 
well the severe consequences of an al-Shabaab takeover. They 
were willing to see al-Shabaab used to fight the Ethiopians, 
but are not interested in seeing them come into power.
    It is going to take some time to deal with al-Shabaab. 
There is a process of both negotiation, to co-opt some of the 
members of al-Shabaab, and then marginalize the rest. But we do 
have some reason to believe that they are not as strong as they 
were and they are likely to get weaker.
    Chairman Lieberman. So let me suggest this to you. As I 
listened to you and think about what we heard, somewhat on the 
first panel, but particularly from General Maples, the head of 
the Defense Intelligence Agency, who coincidentally testified 
for the Senate Armed Services Committee yesterday. He testified 
about all the trouble spots in the world, but this idea that 
al-Qaeda and al-Shabaab have been growing closer together and 
there may well be an actual ``merger,'' insofar as that is an 
accurate term--that is the term he used yesterday, I believe.
    Having heard that from him yesterday and putting it in the 
context of what you have told us today makes me wonder whether 
this is essentially a marriage of convenience, not only 
ideology, and to the extent that these both have jihadist or 
revolutionary world elements in them, but that you have one 
group, al-Shabaab, which is now in some difficulty in Somalia, 
but still in control of part of the country. You have al-Qaeda 
now perhaps looking for a foothold, a sanctuary somewhere. It 
obviously does not have it anymore in Afghanistan, nor in Iraq. 
They are coming under great pressure in Pakistan's Federally 
Administered Tribal Areas (FATA), but still they are there. And 
I wonder whether they are thinking that this may be, to the 
great detriment to the people of Somalia, a kind of sanctuary 
for them.
    Mr. Menkhaus. I don't think that they will attempt to use 
Somalia as a base and a major safe haven.
    Chairman Lieberman. Interesting.
    Mr. Menkhaus. They tried that earlier. In 1993-94, there 
was an attempt by the East African al-Qaeda cell to penetrate 
Somali-inhabited areas of the Eastern Horn, and it went badly 
for them, actually. It turned out to be as non-permissive an 
environment for them as it is for those of us who work in 
relief agencies and embassies.
    As for al-Qaeda, I think you are exactly right. This is a 
marriage of convenience. This is a low-cost, high-yield region 
of the world in which to cause mischief for the United States. 
There are a lot of soft targets in places like Nairobi, 
Ethiopia, and Djibouti, that we have to worry about because of 
al-Qaeda's involvement there. But they have not demonstrated to 
date a level of commitment to, for instance, making Somalia 
into an equivalent part of Afghanistan or Pakistan. And I don't 
think they would want to. I think that there are other roles 
that Somalia can play for them--as a transshipment point, as a 
temporary base for a handful of operatives--but not a major 
base.
    Chairman Lieberman. Right.
    Mr. Menkhaus. For al-Shabaab, I think it makes sense that 
they would be looking to al-Qaeda now because their strength 
has always been their ability to project themselves as the 
Somalis fighting the foreigners--the Ethiopians, the West, 
whoever. And so for them, globalizing their struggle is really 
the only currency that they have got left.
    Chairman Lieberman. Right.
    Mr. Menkhaus. For instance, I worry now, as their fortunes 
decline inside Somalia, that they are going to be spending more 
time fighting in Somali-inhabited areas of Ethiopia, because 
there they can portray it as the Somalis versus the Christian 
highlander Ethiopian imperialists, etc.
    Chairman Lieberman. Yes, it frankly makes it all the more 
heartbreaking said in that context, the story of these young 
Somali-Americans, good kids, good students, religious, getting 
swept up in this, ending up somewhere where they are basically 
trapped, and they become pawns in a game much larger than 
themselves, but in which their lives are either ruined or 
endangered, unless we can somehow get them out. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to thank all of our witnesses today for deepening 
our understanding and for your willingness to come forward, and 
I am going to ask just one final question of each of you, and 
that is, if you had one recommendation to Federal, State, or 
local law enforcement how they could best work with the Somali-
American community to combat this terrible problem that is 
robbing the community of some of its most promising young 
people, what would that recommendation be? Professor, we will 
start with you.
    Mr. Menkhaus. I will go back to a recommendation that I 
made at the conclusion of my written remarks, and that is, if 
we can provide clarity to the Somali community as to what is 
legal and what is illegal behavior, that would go a long way 
toward helping them understand how they can be constructively 
engaged in their home country and not risk crossing a line when 
they do not know where the line is. Somalis used al-Barakat, a 
remittance company, for years to remit money. And then in late 
2001, we froze its assets and declared that it was an 
organization that was linked to al-Qaeda. That was an example 
of the problem: ``Who do I work with in terms of remitting 
money?'' Al-Shabaab poses the same problem for them. There is 
an enormous amount of confusion as to just what they can and 
cannot do.
    Senator Collins. Thank you. Mr. Ahmed.
    Mr. Ahmed. All right. I think unless we involve the Somali 
community, the law enforcement agencies alone cannot achieve 
the goal. So what I would like to say is now we have a place to 
start. We have the parents that will come forward, those whose 
kids have been already exploited and are gone, recruited by a 
minority group. So I would say if we empower the parents, those 
who already have experiences, it is the truth that you can 
reach the community and also to work with the law enforcement 
agencies. Unless the community comes up and works with the law 
enforcement agencies, only the law enforcement agencies cannot 
reach these goals.
    Senator Collins. Thank you.
    Mr. Mukhtar. I also made those recommendations in my 
statement, but the first recommendation is the law enforcement 
itself to work together, whether it is local, Federal, that 
itself helps. And in terms of the Somali community, the Somali 
community has the experts and the capacity to work with the law 
enforcement and a Committee like you guys.
    And, last, I will say Somali communities should be educated 
about their rights and responsibilities. And what we really 
need is a true partnership with a Committee like this and the 
law enforcement.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins. I 
thank all of you for being here. I appreciate what you have 
said. We extend our hand to you in the partnership that you 
have suggested. We want you to keep in touch with our staff. We 
will keep in touch with you.
    Bottom line, there is a problem here, and it is a problem 
that not only threatens American security, but it threatens 
something more fundamental, which is the American dream, the 
reality of the American dream for all the children who grow up 
here, including, of course, Somali-American children or Muslim-
American children generally.
    So this, as I say, is the most graphic and clear evidence 
that we have had thus far of a systematic campaign of 
recruitment of American youth, and in some ways, the most 
promising of American youth, to leave the country to go fight a 
war that really will bring them to no good, and potentially 
could threaten us here at home as well, but certainly will 
bring them to no good.
    So we have learned a lot. We thank you for your courage. We 
thank you for your testimony. In the normal course of what we 
do here, we leave the Committee record open for 15 days if you 
want to add anything to what you said. Some Members of the 
Committee, either those who were here or those who were not 
here, may ask you questions in writing. We will ask you to 
respond to those. But I really thank you all for what you have 
contributed to our effort to protect the security and the 
freedom of the American people.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 12:29 p.m., the Committee was adjourned.]


    EIGHT YEARS AFTER 9/11: CONFRONTING THE TERRORIST THREAT TO THE 
                                HOMELAND

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Pryor, Tester, Burris, 
Kirk, Collins, and McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning to everyone.
    Secretary Napolitano, if you can believe this, is stuck in 
traffic. [Laughter.]
    This is probably not a major threat to our homeland 
security. She is totally plugged into all communication 
networks. She will be here in a couple of minutes. But I 
thought in the interest of time we will proceed and she will 
understand.
    Before I give my opening statement, I want to welcome to 
this Committee the newest Member of the U.S. Senate, Senator 
Paul Kirk of Massachusetts. I have had the privilege of knowing 
Senator Kirk for a long time. He is an extraordinary, able, 
honorable individual with a great skill set. Obviously, he 
comes to the Senate for reasons that are sad for all of us, 
most particularly for him because he was such a dear, long-time 
friend, and confidant of Senator Ted Kennedy. But I do not 
think anybody would be happier or prouder than Teddy to know 
that Paul Kirk is here.
    I just joked with him that Teddy is probably up there in 
heaven sort of laughing and saying, ``OK, Kirk. Now let me see 
what you can do in the Senate.'' [Laughter.]
    So, Senator Kirk, it is a great honor to welcome you here 
to this Committee.

               OPENING STATEMENT OF SENATOR KIRK

    Senator Kirk. Thank you very much, Mr. Chairman. It is 
really my honor as well to be part of a body that is so 
important to our democracy and which Senator Kennedy obviously 
loved as an institution. And as you say, the circumstances of 
my being here provide me with an incredible honor as part of my 
own life, and I hope to be able to work closely with you and 
Senator Collins.
    I know this Committee enjoys a great record and has an 
important mission as we look out for our security here at home 
and protect our troops abroad. And if I can contribute in any 
way to what we are doing here as an important body of the 
Senate, I will be delighted.
    So I thank you for your kind comments and look forward to 
working with you.
    Chairman Lieberman. Thanks, Senator Kirk. I am sure you 
will contribute substantially, and I am delighted that you have 
chosen to be on this Committee.
    Today's hearing, which is titled ``Eight Years After 9/11: 
Confronting the Terrorist Threat to the Homeland,'' was 
scheduled and planned more than a month ago as part of our 
Committee's responsibility to monitor the terrorist threat to 
our homeland and to oversee our government's defense of us from 
that threat.
    In fact, for the last 3 years, our Committee, under Senator 
Collins' leadership and then mine, has had a particular focus 
on the threat of homegrown Islamist terrorism, that is, the 
threat of attacks planned against America by people living in 
our country, as opposed to the attackers of September 11, 2001, 
who, obviously, came from outside.
    Then, quickly, in the last 2 weeks, we have had arrests in 
very serious cases of homegrown terrorism: Two lone wolves--
Michael Curtis Finton and Hosam Maher Smadi--and one more 
ominous cell led by Najibullah Zazi.
    These are certainly not the first such plots against our 
country that have been broken since September 11, 2001. In 
fact, we have been a Nation regularly under attack in this 
unconventional war with terrorists. Just in the last few 
months, going back to May, a group was arrested who were 
quartered around Newburgh, New York, who had planned to launch 
an attack against an Air National Guard base there, and then 
was caught in the act, they thought, of planting a bomb at a 
synagogue in the Riverdale section of the Bronx.
    In June, another homegrown terrorist, who, in fact, had 
gone to Yemen for training, walked into a U.S. Army recruiting 
station center in Little Rock, Arkansas, shot and killed an 
Army recruiter, and wounded another.
    And in July, there was an arrest of seven people in North 
Carolina who were planning an attack on our base at Quantico.
    So in a way that is dispersed and, therefore, I think often 
not seen by the public, we have regularly been under attack 
since September 11, 2001. But these three cases in the last 
several days were significant and in some senses different and 
bring a sense of real-time urgency to our hearing today.
    Mr. Finton, who is the gentleman from Illinois, was about 
to detonate a bomb against the Federal building in Springfield, 
Illinois, and Mr. Smadi was in the process of what was thought 
to be an attack with explosives against the Wells Fargo Motor 
Bank in Dallas, Texas.
    These three cases realize both our worst fears about 
homegrown Islamist terrorist attacks against America and, I 
add, our best hopes for our government's capacity to defend us 
from them.
    The Zazi case is the scenario that many of us have worried 
about and watched out for: A legal permanent resident of 
America, free, therefore, to travel in and out of our country, 
going to Pakistan, connecting with al-Qaeda there, receiving 
training and perhaps directions, and returning to America to 
join with others here in an attack on New York City.
    When Senator Collins and I were first briefed on the Zazi 
case, we each had the same reaction, which was a sense of 
gratitude that all the things that have been done by Congress, 
the Bush and Obama Administrations, and hundreds of thousands 
of U.S. Government employees since September 11, 2001, worked 
in the Zazi case.
    The Department of Homeland Security (DHS), the Federal 
Bureau of Investigation (FBI), the National Counterterrorism 
Center (NCTC), and a lot of others, such as the Director of 
National Intelligence (DNI), the Central Intelligence Agency 
(CIA), the National Security Agency (NSA) and many others, 
worked smoothly with each other and, where relevant, with State 
and local law enforcement to stop Zazi and his cell before they 
could attack. Those working for us in the government brought a 
wide range of resources--technical and human--brilliantly to 
bear on this group of attackers and literally connected the 
dots in a way that I do not think they would have been 
connected before September 11, 2001, and in a way that led them 
from New York to al-Qaeda in South Asia and then back to New 
York.
    The Finton and Smadi cases are less complicated but, from a 
law enforcement point of view and in the contemplation of our 
Committee that has been focused on homegrown terrorism, also 
quite daunting because they involve individuals operating, 
incidentally, outside of the major metropolitan areas that we 
have assumed were the priority targets for terrorists, such as 
New York, Washington, DC, Los Angeles, and Chicago--individuals 
operating alone who we call ``lone wolves'' because they 
apparently did act alone in these two cases and were, 
therefore, less likely to turn up on the many technological and 
human walls we have built since September 11, 2001, to protect 
our homeland and our people.
    And yet their lonely terrorist plots were discovered by the 
people in the Federal Government working for us, and they were 
stopped. So as we convene this hearing, I hope these three 
cases will lead us to two conclusions.
    The first is obvious, which is that, although we have won 
significant victories over al-Qaeda around the world since they 
attacked us on September 11, 2001, and we thereafter declared 
war against them, al-Qaeda is still out there, and, in fact, 
they are in here, and they maintain a patient and hateful 
desire to attack the people of the United States as well as 
every other segment of humanity that does not share their 
fanatical and violent theology, ideology, and ambition for 
conquests and suppression of freedom. This war, and its 
attendant threats to our homeland, is not over and will not be 
for a long time.
    I think the second conclusion that we should take from 
these recent cases is that we have together made enormous 
progress in our ability to protect our people from terrorism. 
For this, I particularly, this morning want to thank the three 
leaders who are before us as witnesses and their organizations, 
those who preceded them, and all those who work with them, 
including the men and women of our intelligence community who 
necessarily are unseen.
    In this war, however, in which our enemy requires only a 
small number of fanatics who do not care about their lives or, 
obviously, the lives of others, we require enormous numbers of 
people to defend our free and open country against those 
terrorists, we are only as good as our ability to have stopped 
the last terrorist plot against us.
    Eternal and extensive vigilance is, in this war, truly the 
price of our liberty. So the work of homeland security goes on 
365 days a year, but this morning, I want to pause as we begin 
this hearing to say thank you to Secretary Napolitano, Director 
Mueller, and Director Leiter, and all who work with you for all 
you do every day to protect the American people.
    I look forward to your testimony and to hearing your 
evaluation of the current state of the terrorist threat to our 
country and what we are doing about it and ultimately what 
Congress can do to help you do your jobs for us. Thank you.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. You have given an 
excellent overview of why we are here today. Let me start by 
welcoming our new colleague to the Committee. This Committee 
likes to have a minimum number of New Englanders on it. 
[Laughter.]
    And with the addition of Senator Kirk, we have finally met 
the minimum allotment.
    And I will now begin my formal remarks.
    Deter, detect, disrupt, and defend--these four simple words 
form the core of our Nation's mission to prevent terrorist 
attacks.
    Their simplicity, however, belies the complexity of the 
challenge. They fail to capture the dedication and perseverance 
that the men and women of our military, intelligence, law 
enforcement, and homeland security agencies must demonstrate 
constantly to stay ahead of the evolving terrorist threat.
    Eight years removed from the attacks of September 11, 2001, 
our Nation must remain vigilant against the Islamist terrorist 
threat we face. Recent cases drive home the reality of this 
threat. Four separate terrorist plots have been uncovered in 
the past month alone.
    The allegations against Mr. Zazi raise particular concerns 
because his level of planning reportedly was quite 
sophisticated. According to the FBI, Zazi received training in 
an al-Qaeda camp in Pakistan and had purchased bomb-making 
components. In his car, a computer that the FBI recovered 
contained images of handwritten notes that contained 
instructions for manufacturing explosives.
    Investigations in Springfield, Illinois, and Dallas, Texas, 
have not only resulted in arrests, but may have prevented 
horrific casualties.
    Details of a new plot in an ongoing case also came to light 
last week. Prosecutors filed a new indictment in the case 
against Daniel Boyd and Hysen Sherifi, alleging that they 
conspired to murder Marines at Quantico.
    While these and other cases are cause for alarm, as the 
Chairman has pointed out, recent successes demonstrate that our 
vigilance, our strategies, and our hard work to date have paid 
off. Authorities identified suspects who intended to commit 
terrorist acts, they initiated sting operations, and they 
prevented the attacks.
    Our antiterrorism work must be relentless. It requires 
effective coordination across the Federal Government and with 
our State and local partners. As the Chairman has noted, these 
recent successes demonstrate the considerable progress that we 
have made since 2001. By creating the Department of Homeland 
Security, the Office of the Director of National Intelligence, 
and in some ways most important of all, the National 
Counterterrorism Center, we have encouraged information sharing 
and collaboration across the Federal Government to ensure that 
the dots will indeed be connected. We have also strengthened 
the relationship with our partners in State and local 
governments. These successes represent significant strides in 
what will be a long war against terrorism.
    Despite these successes, however, some of these recent 
domestic plots demonstrate that coordination among Federal 
agencies and State and local law enforcement may have been 
uneven.
    For example, the perpetrator of the shootings that the 
Chairman mentioned at a military recruiting center in Little 
Rock was under investigation by the FBI. But it is less clear 
whether State and local law enforcement, who responded to the 
shooting, knew of this investigation.
    We need to examine how we can build on the improved 
information sharing with State and local officials, including 
whether technology gaps hinder current efforts.
    We must ask what further resources are necessary to allow 
us to be better prepared to respond to threats. And we must 
always remember that while our Nation has been hard at work 
realigning our defenses and strengthening our response systems, 
the terrorists have been busy, too.
    Disturbingly, the perpetrators in these recent cases are 
mostly homegrown terrorists. We must work to better understand 
the path that leads to violent radicalization in this country 
and increase our efforts to interrupt this deadly cycle. Our 
intelligence and law enforcement officials must carefully 
analyze how the next generation of terrorists is being funded, 
trained, and supplied.
    Outreach to communities affected by violent radicalization 
will have to continue to be a priority. These outreach efforts 
were evident when the Committee examined how more than 20 young 
Somali-American men from Minneapolis were recruited to travel 
to Somalia to join the militant Islamist group.
    The FBI and State, and local law enforcement have engaged 
in outreach to the Somali community in this country, and recent 
events underscore the critical importance of such efforts. As 
we meet, the FBI is investigating reports that a Somali-
American from Seattle carried out a suicide bombing in 
Mogadishu just a few weeks ago. Last October, a Somali-American 
from Minneapolis allegedly participated in a similar attack. 
And, of course, the fear is that if these Americans are 
traveling overseas for training, they may use this training to 
come back and attack our homeland.
    For this reason, we must strengthen our efforts to work 
with community leaders to understand what factors caused these 
young men to travel halfway around the world to participate in 
terrorist attacks. Understanding is necessary to our hopes of 
breaking the cycle of violent radicalization.
    Mr. Chairman, I share your pride in what has been 
accomplished. I had the same reaction that you did in the 
briefing. The kind of coordination that we heard in the Zazi 
case, the sharing of information, the connecting of the dots, 
simply did not occur 8 years ago. But I am also concerned that 
complacency, that our very success in thwarting these attacks, 
could cause us to back off on the effort. The absence of large-
scale attacks in the United States and our success in thwarting 
terrorist plots should not lull us into a false sense of 
security.
    We must not return to a pre-September 11, 2001, mentality.
    I look forward to discussing these critical issues with our 
witnesses today, and I thank you for your leadership.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for that statement.
    Secretary Napolitano, good morning. Thanks for being here, 
and we welcome your statement now.

   TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Mr. Chairman, 
Senator Collins, and Members of the Committee, for this 
opportunity to testify on the Department of Homeland Security 
and our actions to address these threats to our homeland.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 144.
---------------------------------------------------------------------------
    As Senator Collins just said, the threat of terrorism is 
always with us, but recent weeks have reminded us of the 
importance of our continuing work--the New York plot, Colorado 
plot, the Illinois plot, the Texas plot, by way of example. And 
I would like to compliment not only my colleagues here, but 
also the many men and women, in the Federal, State, and local 
governments, who have been working tirelessly on these and 
other efforts.
    These episodes have shown that the threat of terrorism can 
come from people in many different areas of the country with a 
broad range of backgrounds. And within this threat environment, 
the Department's role is to build up our overall national 
capacity to counter any threat that may arise.
    Security from terrorism is a shared responsibility, and DHS 
is designed to strengthen our many layers of defense to address 
terrorism, to participate in and support Federal law 
enforcement action, but also to help build up the capacity of 
State, local, and tribal governments, particularly through 
information sharing. And, also, government cannot do it alone. 
We must engage communities. We must engage our international 
partners. We must have outreach as well as intelligence 
gathering in these efforts.
    Now, in terms of Federal law enforcement, the law 
enforcement components engage in a number of aspects of 
counterterrorism. These include the Secret Service, Immigration 
and Customs enforcement (ICE), Customs and Border Protection 
(CBP), the Coast Guard, the Transportation Security 
Administration (TSA), and the Federal Air Marshals Service. 
They are our boots on the ground in terms of securing the 
aviation and marine sectors and also in terms of collecting 
data that can be shared with our law enforcement partners.
    We also are part of integrated Federal law enforcement 
approaches. For example, we participate in the Joint Terrorism 
Task Forces (JTTF) that are led by the FBI.
    Now, in terms of strengthening State and local law 
enforcement, we do this in a number of ways, but information 
sharing is particularly important in bridging the gap between 
the intelligence community here and law enforcement nationwide, 
helping law enforcement make sense of what they may see on the 
beat, and helping secure their communities against terrorist 
threats.
    We are in the process of realigning our own intelligence 
and analysis function to focus on meeting the needs of State 
and local partners and to strengthen our role in Fusion 
Centers, where Federal, State, local, and tribal law 
enforcement can meet and share threat-related information.
    We now have a Joint Fusion Center Program Management Office 
to help coordinate those efforts. And instead of keeping all of 
our intelligence and analysis function here in Washington, DC, 
we have deployed 70 analysts already to Fusion Centers. And all 
72 Fusion Centers will have access to the Homeland Security 
Data Network by the end of fiscal year 2010.
    We have just announced a partnership for select Fusion 
Center personnel to access classified terrorism-related 
information from the Department of Defense's (DOD) Secret 
Internet Protocol Router Network (SIPRNet) program, and my goal 
is for all Fusion Centers to be centers of analytic excellence, 
focused on law enforcement needs throughout the country.
    Now, in terms of working with communities and individuals, 
as I mentioned, communities share a responsibility to ensure 
that our country is not a place where violent extremism can 
take root. We have now a Violent Extremism Working Group to 
coordinate throughout the Department our actions on this issue, 
and particularly through our Civil Rights and Civil Liberties 
Section, we do important outreach work with communities such as 
Arab-Americans, Somali-Americans, and Muslim leaders. Within 
these communities, we are working to help preempt the 
alienation that many believe is the necessary precursor to 
violent extremism.
    We have engagement teams now active in eight metropolitan 
areas, and we also are working to help improve our cultural 
awareness and competency throughout the Department.
    Our Citizenship and Immigration Services Department is also 
providing assistance to organizations that aid immigrants. This 
is also part of increasing the capacity, the potential to 
reduce the alienation that so often can lead to violent 
extremism. And our Science and Technology Directorate is 
conducting research on that violent radicalization and 
informing partnerships with other countries in this regard. 
Indeed, I have had meetings with my colleagues and many of our 
European allies who have also suffered from this same 
extremism.
    So as you can see, our Department's actions are focused on 
building up all of the Nation's rings of defense against any 
terror threat that arises.
    Thank you again for this opportunity to testify. I will be 
happy, of course, to answer any questions that you have. I have 
a more complete statement that I ask be included in the record 
of this hearing.
    Chairman Lieberman. Thanks, Secretary Napolitano. Your 
statement and all the other witnesses' statements will be 
included in the record in full.
    I just want to note in passing my appreciation for what you 
have done to strengthen and deepen the ties, the working 
relationship between your Department, the Federal Government, 
and State and local law enforcement. From September 11, 2001, 
we have all felt that we had a resource out there, hundreds of 
thousands of boots on the ground, if we brought them in and 
worked with them. And I think through the Fusion Centers and 
the deployment of your now 70 personnel from your intelligence 
unit, you have taken some very significant steps forward in 
that regard, so I thank you for that.
    Director Mueller, before I call on you, it is very rare 
that reading an indictment of someone makes me smile. But you 
probably saw this part, but I just want to mention it for the 
record. In the indictment of Mr. Finton, who is the individual, 
the lone wolf, who was planning to blow up the bombs near the 
Federal building in Springfield, Illinois, there are statements 
recorded by him where he is telling his co-conspirator, who 
turns out to be an undercover agent, all his anger toward 
America and this bomb that he is going to set off will not be, 
as he says, ``as big as those on 9/11, but will be up there 
with 9/11.''
    And then in Section 57 of the document, he says, ``Finton 
said that he had wondered at first whether this was all a set-
up, but he knew it was not because law enforcement authorities 
in America were not that smart.''
    You had the last laugh on our behalf.
    Mr. Mueller. Yes.
    Chairman Lieberman. Thank you, Director Mueller.

 TESTIMONY OF HON. ROBERT S. MUELLER III,\1\ DIRECTOR, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Mueller. Thank you, Chairman Lieberman, and thank you, 
Ranking Member Collins and Members of the Committee, for having 
me here today. I am happy to be here with my colleagues Janet 
Napolitano and Mike Leiter to discuss the current terrorist 
threats to the homeland and our efforts to protect the United 
States from future terrorist attacks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mueller appears in the Appendix 
on page 158.
---------------------------------------------------------------------------
    The 8 years since September 11, 2001, have seen significant 
changes at the Bureau. While we remain committed to the 
criminal programs, including violent crimes, gangs, and white-
collar crime, we have shifted our priorities with national 
security at the forefront of our mission. Today, the FBI is a 
stronger organization combining greater capabilities with a 
longstanding commitment to the security of the United States 
while upholding the Constitution and protecting civil 
liberties.
    The nature of the terrorist threat facing the United States 
has also changed in the last 8 years. We still face threats 
from al-Qaeda and many of its affiliated groups and receive 
credible reports that they remain committed to attacking the 
United States and U.S. interests abroad. And while several 
factors have combined to diminish al-Qaeda's core operational 
capabilities, we and our partners continue to monitor, collect 
intelligence, and investigate their reach into the United 
States.
    As both of you have pointed out, threats also come from 
self-directed groups not part of al-Qaeda's formal structure 
which have ties to terrorist organizations through money or 
training. An example is the case that was in the news last week 
where individuals in Denver and New York were plotting to 
undertake an attack, and one of the individuals, as has been 
pointed out in that indictment, apparently received training in 
Pakistan and brought that skill set back to the United States.
    Since 2001, we also face a challenge in dealing with 
homegrown extremists in the United States. These individuals 
are not formally part of a terrorist organization, but they 
accept the ideology and wish to harm the United States. Often, 
that ideology is a result of their interest in what they see on 
the Internet.
    While the intent and capability of homegrown extremists 
varies widely, several FBI terrorism subjects with no known 
nexus to overseas extremist networks or groups have taken steps 
to move from violent rhetoric to action. An example already 
pointed out is the May 2009 arrest of four individuals for 
plotting to detonate explosive near a Jewish community center 
and synagogue in New York. And as Senator Lieberman has pointed 
out, they also planned to attack military planes at the Stewart 
Air National Guard Base, also in New York.
    And just last week, we arrested two individuals at various 
stages of planning activities to do harm within the United 
States, as you both pointed out, and a Dallas, Texas, 
individual was charged with attempting to bomb an office tower. 
A coordinated undercover law enforcement action thwarted this 
effort and ensured that no one was harmed.
    And, separately, a 29-year-old Illinois man targeting a 
Federal building was charged after attempting to detonate a 
vehicle bomb without knowing it contained inactive explosives.
    These cases illustrate not only the threats but the 
challenges presented by the self-radicalized homegrown 
extremists. They lack formal ties to recognized groups, making 
them particularly difficult to detect.
    Our mission at the Bureau is not only to disrupt plots but 
to dismantle networks so that they no longer pose a threat. And 
targeted intelligence gathering takes time, requires patience, 
precision, and dedication. It is a labor-intensive process that 
often does not provide a complete picture quickly, but it is 
the core of understanding the threats to the homeland, and it 
is a picture that was put together not only by us but with our 
Federal counterparts and without a doubt our State and local 
counterparts as well.
    Indeed, our partnerships are critical to protecting our 
Nation and its citizens here at home through our Joint 
Terrorism Task Forces and abroad with our legal attaches and 
international partners. We share real-time intelligence to 
fight terrorists and their supporters.
    We use eGuardian, a threat-tracking system, for State, 
local, and tribal law enforcement agencies which provides a 
central location for law enforcement suspicious activity 
reporting in an unclassified environment. Our local community 
outreach program, along with the DHS outreach program, enhances 
our efforts. And working closely with DHS, whether it be 
through the Fusion Centers, working closely with NCTC, and 
working closely with other intelligence community partners, we 
are engaging communities to address concerns and to develop 
trust in the Federal law enforcement intelligence agencies and 
our efforts to protect the homeland.
    In closing, the Bureau has long recognized that it is a 
national security service responsible not only for collecting, 
analyzing, and disseminating intelligence, but for taking 
timely action to neutralize threats within the homeland to 
prevent another terrorist attack.
    In so doing, however, we also recognize that we must 
properly balance civil liberties with public safety in our 
efforts, and we will continually strive to do so.
    Mr. Chairman, Senator Collins, Members of the Committee, I 
appreciate the opportunity to appear before you today, and I 
also look forward to answering your questions.
    Chairman Lieberman. Thank you very much, Director Mueller.
    Our final witness is Michael Leiter who is the Director of 
the National Counterterrorism Center. This is probably the 
least well known of the three organizations before us. 
Everybody knows about the FBI. Most people today probably know 
about the Department of Homeland Security. The National 
Counterterrorism Center is less well known, but plays a 
critically important role. It is a post-September 11, 2001, 
creation recommended by the 9/11 Commission and created by 
legislative enactment that I am proud to say came out of this 
Committee. It is really the place ultimately where the dots are 
connected.
    Interestingly, just for the record and for those who are 
here and listening and watching, NCTC reports to the Director 
of National Intelligence in its intelligence analytical work 
but, in its role as a strategic counterterrorist operational 
planner, reports directly to the President of the United 
States.
    Mr. Leiter, thanks for your work, and we will welcome your 
testimony now.

  TESTIMONY OF HON. MICHAEL E. LEITER,\1\ DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Leiter. Thank you, Chairman Lieberman, Senator Collins, 
and Members of the Committee. Thank you for those very kind 
words about NCTC, and although I know that will do a great deal 
to continue to bolster our already high morale, I will say none 
of us are ready to pat ourselves on the back for a job done. 
The job has, I think so far, been relatively well done with our 
very close partners, Janet Napolitano and Bob Mueller. But 
there is much work that remains.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Leiter appears in the Appendix on 
page 165.
---------------------------------------------------------------------------
    From our perspective, al-Qaeda is under more pressure today 
and is facing more challenges and is more vulnerable than at 
any time since September 11, 2001. But that being said, they 
remain a robust enemy, and although I believe we have done much 
to deter attacks and defend against attacks, attacks in the 
United States remain quite possible. Most importantly, al-
Qaeda's safe haven in Pakistan is shrinking and becoming less 
secure, complicating their ability to train and recruit people 
and move them within Pakistan.
    Al-Qaeda and its allies have suffered significant 
leadership losses over the last 18 months, interrupting 
training and plotting and potentially disrupting plots. But 
again, despite that progress, al-Qaeda and its allies remain 
intent on attacking U.S. interests at home and abroad.
    We assess that the al-Qaeda core is actively engaged in 
operational plotting and continues recruiting, training, and 
transporting operatives to include individuals from Western 
Europe and the United States.
    Three years ago, the British, with U.S. help, disrupted a 
plot in the late stages that could have killed thousands of 
people flying across the Atlantic. Two years ago the United 
States, working with the Germans, helped disrupt a plot that 
was also near execution. And I think, as has already been made 
clear by your statements and the statements of Director Mueller 
and Secretary Napolitano, the case of Najibullah Zazi again 
highlights the threat that we continue to face.
    Now, beyond what I refer to as ``core al-Qaeda,'' the 
group's affiliates continue to develop and evolve, and many of 
these have now begun to pose an increased threat to the 
homeland. The affiliates have proven capable of attacking 
Western targets in their regions, and they aspire to expand 
operations further.
    In Yemen, we have witnessed the reemergence of al-Qaeda in 
the Arabian Peninsula and the possibility that it will become a 
base of operations for al-Qaeda.
    In Somalia, as has been mentioned previously, the leaders 
of the Somalia-based insurgent and terrorist group al-Shabaab 
are working with a limited number of East Africa al-Qaeda 
operatives. Al-Shabaab has obviously engaged in terrorist 
attacks against Somali Government and its supporters, including 
troops from the African Union Mission to Somalia (AMISOM). And 
although al-Shabaab's rank-and-file fighters remain focused on 
removing the current government of Somalia by pursuing al-
Qaeda's agenda, we are particularly concerned with training 
programs run by al-Shabaab that have attracted violent 
extremists from throughout the globe, including the United 
States.
    In North Africa, al-Qaeda has expanded its operational 
presence beyond Algeria and has conducted more than a dozen 
attacks against Western interests in the region.
    And in Iraq, although we assessed that al-Qaeda's ability 
to attack beyond its borders has been substantially diminished, 
it continues to pose a force in the region. And although we 
have focused on al-Qaeda today, I think it is worth noting that 
in Pakistan, Lashkar-e-Taiba, an al-Qaeda ally, continues to 
pose a threat to a variety of interests in South Asia. The 
group's attacks in Mumbai last year resulted in U.S. and 
Western casualties, and the group continues to plan attacks in 
India that could have major geopolitical consequences for the 
U.S. fight against terrorism.
    Again, as has been noted, here in the United States, 
homegrown extremists have sought to strike within the homeland 
since September 11, 2001, and although they have lacked the 
necessary tradecraft and capability to effect significant 
attacks, the recent events, again, point to the very real 
danger that they pose.
    It is this threat environment and the future threats that 
we discern that, as the Chairman noted, NCTC seeks to counter 
through our coordination responsibilities to the President. Our 
responsibility to all elements of national power, including 
diplomatic, financial, military, intelligence, homeland 
security, and law enforcement activities, goes to that 
responsibility to make sure that we have a synchronized effort 
against all of these threats.
    Now, there is a baseline strategy which covers four basic 
areas: Protecting and defending the homeland, attacking 
terrorist capabilities overseas, undermining the spread of 
violent extremism, and preventing the acquisition of weapons of 
mass destruction (WMD).
    But rather than going through that plan, I would simply 
like to briefly highlight a few of the more focused efforts 
that we have undertaken, again, working with partners such as 
DHS and the FBI, to ensure these efforts are synchronized.
    In July 2007, at the White House's request, NCTC, with our 
partners, created an interagency task force that looks at 
current threats and ensures that current defensive measures, 
domestically and overseas, are well synchronized. At the same 
time, this interagency group, including members of DHS and the 
FBI, looks at threats as they come into the center and 
determines whether or not new elevated measures are required.
    In response to last year's attack in Mumbai, again, working 
with DHS and the FBI, NCTC formulated and facilitated exercises 
for State and local officials to respond to evolving terrorist 
tactics to ensure that they could, in fact, respond if a 
similar event occurred in their locality.
    On the front of combating violent extremism, we have 
attempted to coordinate efforts both domestically and abroad. 
In particular, in dealing with Somali-Americans, we have worked 
closely with DHS and the FBI to help take best practices from 
throughout the country and export those to other communities.
    And, finally, near and dear to budgetary hearts, we work 
closely with the Office of Management and Budget (OMB) to 
ensure that programs, current programs and future programs are 
well aligned to these threats.
    In conclusion, and as I had opened, although I think the 
past months and years and the fantastic work of the FBI and DHS 
show that we have indeed, made progress, many of these efforts 
must continue and accelerate.
    I do very much thank both you, Senator Collins and Chairman 
Lieberman, who we know affectionately as ``the parents of 
NCTC,'' for all you have done to enable some of the progress 
that we have made.
    Chairman Lieberman. Thanks, Director Leiter. I appreciate 
that very much. We will start the questioning and have 7-minute 
rounds.
    I want to ask a few questions coming off of the Zazi case. 
I understand that there is a limit to how much you can say 
about an ongoing investigation. Perhaps I should ask that 
question first. Is the Zazi case, Director Mueller, an ongoing 
investigation at this time?
    Mr. Mueller. It is.
    Chairman Lieberman. Thanks. And just to clarify, there has 
been some discussion in the media as to whether there remains 
an imminent threat related to the Zazi plot.
    Mr. Mueller. We do not believe there is an imminent threat.
    Chairman Lieberman. Thank you. And, Secretary Napolitano, I 
think it would be interesting if you take a moment to just tell 
us, to the extent you can, about the role or roles that various 
components of the Department of Homeland Security played in the 
investigation of the Zazi case.
    Secretary Napolitano. Well, again, it is an ongoing 
investigation, and my comments will be limited by that.
    Chairman Lieberman. Right.
    Secretary Napolitano. But different components of the 
Department did play different roles.
    For example, CBP and TSA, now because they are in the same 
Department, are able to facilitate checking things like travel 
records, immigration records, and the names that are developed 
during the course of any investigation, and those names spill 
out to us, and we are able to very quickly pursue those names 
at that level.
    One of the most important roles was to provide State and 
local law enforcement, particularly through the Fusion Centers, 
with contextual information about even an ongoing 
investigation, and so I think we have now delivered or sent out 
at least 11 different products related to the Zazi 
investigation, to State and local law enforcement.
    The whole goal, of course, is creating this web between 
State, local, and Federal law enforcement, not just for this 
investigation but for other matters involving any type of 
terrorist activity.
    So those give you some sense of the dimension of DHS's 
involvement, and literally dozens of our employees were 
involved.
    Chairman Lieberman. I appreciate that.
    Director Mueller, I have tremendous regard for the FBI and 
the New York Police Department (NYPD). There were some news 
media reports about some disagreements between the FBI and the 
NYPD in the investigation of Zazi. I have had the occasion to 
talk to both you and NYPD Commissioner Ray Kelly about these, 
and I wanted, to the extent you are comfortable, just to ask 
you to respond briefly for the public record on that. How are 
your relations with the New York Police Department?
    Mr. Mueller. I believe our relations are exceptionally 
good, as good as they have been in a long time. I do believe 
the news media exaggerates issues that come up in any 
investigation. We talk ourselves, through our New York office, 
with NYPD. It is not just daily, but because we are embedded in 
each other's shops, we are working closely together day in and 
day out.
    The New York Police Department has done a remarkable job in 
understanding the domain and allocating resources to address 
threats. And the relationship, I think, is as good as it has 
ever been at this juncture, and the exchange of information 
through the Joint Terrorism Task Force has been fulsome and 
enabled us to take the steps that we have taken to disrupt this 
latest threat.
    Chairman Lieberman. I appreciate hearing that. As I said to 
you when we talked about this, I had occasion to be with 
Commissioner Ray Kelly of the New York Police Department. I 
asked him the same question, and he gave exactly the same 
answer. You are just two national treasures in terms of law 
enforcement and counterterrorism, and I am reassured to hear 
that you are working well together.
    Following the investigation and arrest of Zazi, the FBI and 
the Department of Homeland Security issued a bulletin warning 
transit systems and railroads to be on the lookout for 
improvised explosive devices. That bulletin included 
recommendations such as increasing random sweeps and patrols 
for heightening security measures.
    I wonder, Director Mueller and Secretary Napolitano, how 
you at this moment today would assess the current threat to 
transit agencies, either specifically in New York or more 
generally around the country.
    Mr. Mueller. I will speak with regard to the timing of this 
bulletin going out and say that there was no direct threat 
information in the course of this investigation as to a 
particular threat, or to the transit systems, in general.
    However, when you have an investigation and an activity 
that has gone as far as this, I believed it important that we 
identify vulnerabilities, and I will turn it over to the 
Secretary to follow up on that.
    Chairman Lieberman. OK.
    Secretary Napolitano. That is right. Because we did not 
have specifics about location, time, or target of any potential 
attack, what we were doing was providing a situational 
awareness, to use the Senator's term, on an area that we know 
has been from other intelligence raised as a possibility for 
attack. And so it is all about leaning forward. It is all about 
thinking ahead. It is all about using the hundreds of thousands 
of eyes and ears we have out there in law enforcement, 
particularly in an environment such as this one where we did 
not have specifics.
    Mr. Mueller. Could I add one other thing, Senator?
    Chairman Lieberman. Sure.
    Mr. Mueller. And it goes to a certain extent, in the course 
of the investigation, you identify certain explosives, and as 
you identify those explosives and see how those explosives may 
have been used in the past on a subway system, that raises a 
red flag in terms of the possible use of the explosives that 
were being developed in this particular case, which then 
results in the generation of that warning.
    Chairman Lieberman. Right. Obviously, we have seen some 
evidence of a trend which is of al-Qaeda, and perhaps other 
international terrorist groups, attempting to recruit 
Westerners or people who live in Western countries, not just 
Zazi but the arrest and indictment 2 months ago of Bryant Neal 
Vinas from Long Island who traveled to Pakistan also and 
trained in an al-Qaeda camp and participated in an attack 
against the U.S. military in Afghanistan before his capture.
    I want to ask you, how concerned are you, any or all of the 
three of you, with this dimension of the al-Qaeda threat? And 
what, if anything, can we do to try to disrupt their use of 
Westerners to carry out attacks?
    Mr. Mueller. I think it fair to say that all of us are 
concerned by it. For the last several years, we have picked up 
intelligence that al-Qaeda has made a concerted effort to 
recruit Europeans and Westerners, understanding that they can 
fly under the radar in terms of passing through border 
controls. And, on the other hand, the Internet, as I alluded 
to, is also a recruiting tool that initiates persons not 
contacted by anybody in Pakistan, Yemen, or Somalia, but 
radicalizes people to the point where they reach out to get the 
training and fall into exactly what core al-Qaeda wants, which 
is additional operatives.
    Mr. Leiter. Mr. Chairman, I would say, over the past 
several years, travel of Westerners, particularly U.S. 
citizens, to either Pakistan or Somalia has been our single 
biggest concern. They obviously bring with them an 
understanding of our society which enables them to operate more 
easily here. They obviously do not have to go through the 
border controls that non-Westerners and non-U.S. citizens have 
to go through. And, clearly, simply the ability to go and 
travel provides them with a potential level of sophistication 
of training that they might not otherwise be able to obtain. So 
it is the issue at which we look closest.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Leiter, let me start with you. Our Committee has 
focused a great deal recently on the threat of a terrorist 
group obtaining access to a biological agent that could be used 
in an attack, and we have introduced a bill to tighten the 
regulation of labs that may contain such pathogens as the Ebola 
virus, smallpox, or anthrax.
    The Commission on Weapons of Mass Destruction has projected 
that it is more likely than not that somewhere in this world 
within the next 5 years we will experience a biological attack.
    What is your assessment of that threat?
    Mr. Leiter. Senator, I think the threat is very real, 
although, frankly, I am loathe to assign some sort of 
percentage as to the likelihood.
    I think with the spread of biological technology for good, 
it can also be used for nefarious means, and the sophistication 
of biological understanding is increasing exponentially across 
the world. So I think some of the elements of your bill, in 
fact, provide some very valuable measures to protect against 
some of those risks domestically. I think now that the Director 
of National Intelligence is providing some support with that 
bill, some technical assistance, and I think that is quite 
valuable.
    We have yet to see a sophisticated effort beyond core al-
Qaeda on most of these biological weapons, and, happily, since 
September 11, 2001, some of the work that has gone on in 
Afghanistan and Pakistan we believe has disrupted some of their 
most advanced efforts.
    Senator Collins. Thank you.
    Director Mueller, in assessing the threat of homegrown 
terrorists in this country, we have always taken comfort in our 
tradition of integrating new populations--new immigrants--into 
our broader population. And we have contrasted the American 
experience with that in Western Europe, where immigrant groups 
tend to be more isolated and not assimilated.
    Two years ago, the NYPD testified before this Committee 
that this longstanding tradition of absorbing the diaspora 
population of other countries has protected the United States 
and retarded the radicalization process at home.
    Do we need to rethink that theory in light of what we have 
seen in the Somali community in Minnesota and perhaps in 
Seattle as well?
    Mr. Mueller. I think much of what is said in terms of the 
fact that we are a Nation of immigrants, we are a part of the 
diaspora, puts us in a different place than, say, the United 
Kingdom and some other countries where there are more insular 
communities than you have in the United States.
    That being said, we do have some communities--you pointed 
out the Somali community that has been perhaps more insular 
than some others--that warrant greater outreach, efforts at 
assimilation, understanding, and education. But, for the most 
part, I think we do stand somewhat differently than other 
countries. But, again, we cannot be complacent, as you pointed 
out at the outset.
    I will also say that some 2 or 3 years ago--I think it was 
2006--where in Canada they arrested approximately 15 or 16 
individuals who were going to undertake an attack against the 
parliament, and that plot was well along. And so the extent 
that one thinks that it is individuals from insular communities 
that can undertake such attacks, that is not altogether true, 
believing that Canada is much like us, is a Nation of 
immigrants with the same type of combination of immigrant 
groups that generally seek to assimilate.
    So that was a warning that you cannot be complacent and 
rely on the fact that we have very few, I would say, groups 
that are insulated.
    Senator Collins. Some of the cases that we have referred to 
this morning involve individuals who appear to have been 
radicalized in prison, and the very first hearing that we did 
to look at homegrown terrorism examined violent radicalization 
within the prison communities.
    What is the FBI doing to try to identify radicalized 
prisoners and to prevent radicalization within prison?
    Mr. Mueller. Well, we work very closely in the Federal 
prison system to identify pockets of radicalization. The 
Federal prison system has a fairly substantial intelligence 
operation in the sense that it is not just radicalization but 
gang violence and the like. And so utilizing those same 
capabilities to identify gang members and potential places of 
violence, we work with the Federal system, and then each of our 
Joint Terrorism Task Forces has as one of its responsibilities 
outreach to the State and local places of incarceration and to 
develop liaison and to keep track and to alert and educate 
those who are responsible for the State and local prison 
systems to be alert to this possibility and to let us know when 
there is that eventuality.
    Senator Collins. Let me switch to a different issue. We 
want to make sure that the FBI has the tools that it needs to 
be effective. In 2007, however, the Department of Justice (DOJ) 
Inspector General (IG) revealed that there were problems in how 
the FBI had used one of its intelligence-gathering tools, the 
one known as National Security Letters (NSLs). And the IG found 
that in some cases the FBI agents did not understand or follow 
the required legal procedures when using the NSLs.
    What steps have you taken to ensure that there is better 
compliance? This is so important because, otherwise, Congress 
is likely to act to restrict the use of what may be an 
invaluable tool.
    Mr. Mueller. As was pointed out in previous IG reports, we 
did not have a management system in place to assure that we 
were following the law or our own internal protocols--reports 
that began, I believe, in 2006.
    There is another class of NSL called an ``exigent letter'' 
that I will talk about in a second, but generally, in handling 
NSLs, what we have done is put in a completely different 
software package that leads agents through the process to 
assure that all the i's are dotted and the t's are crossed.
    Every one of our NSLs, as they are prepared in the field 
offices, are reviewed by the division counsel. Most importantly 
for us, we established a compliance department office. It would 
have been something recommended by outside attorneys to 
corporations that get into problems, but it was one that we 
needed where we identify those vulnerabilities in other areas 
and move to fix them before they are found by somebody else. 
And so those are three of the steps we have taken.
    There is still a report to come out which addresses the 
issue of exigent letters. The statute allowed us back then--
still does--in an emergency to request from a communications 
carrier specific information. We, at that time, had issued 
those letters indicating that either a grand jury subpoena or 
other paper would follow. It did not follow our protocol.
    We have put an end to those letters as of 2006, but my 
expectation is there is another report that will say that 
particular individuals who are involved in this were not 
following appropriate management procedures. I will tell you it 
is my responsibility to put into place those procedures, and 
those procedures have been put into place.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    In this Committee, we call Members in order of their 
arrival without regard to seniority. By this calculus, Senator 
Kirk would be next, but he has asked to go last among the 
Senators. And I would simply say that this respect for 
seniority will carry you far rapidly here in the Senate. 
[Laughter.]
    So we go to Senator Burris, then to Senator Tester, and 
then to Senator Kirk.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman.
    Mr. Chairman, I did have an opening statement. I would like 
unanimous consent that it be submitted for the record and then 
go into my questions.
    Chairman Lieberman. Without objection.
    [The prepared statement of Senator Burris follows:]
                  PREPARED STATEMENT OF SENATOR BURRIS
    Thank you Chairman Lieberman and Ranking Member Collins.
    Violent extremism does not threaten one nation, one race, or one 
religion--it threatens the entire world order. Combating this evolving 
threat therefore requires close collaboration between all levels of 
government, law enforcement agencies, and everyday citizens.
    I am eager to learn more about the anti-terror efforts being made 
at the highest level of government, but I am also looking forward to 
hearing about the efforts being taken at the ground level. We must 
continue to encourage our local governments and law enforcement 
agencies to work with communities to address potential threats and 
develop working relationships based on trust. After all, we are all 
working toward the same goal, and that is to secure our communities and 
make sure our homeland is safe.
    Today's terrorists are not always easily identifiable and are 
utilizing more innovative means to carry out their destructive 
missions. This is no more evident than in the case of Michael Finton, a 
man from my home State, who was recently arrested after trying to set 
off explosives in a van outside a Federal courthouse in Springfield, 
Illinois. The case of Mr. Finton, who exhibited the typical ``lone 
offender'' characteristics, illustrates how far reaching the ideals of 
al-Qaeda and similar terrorist organizations have spread.
    It is my hope that we will be able to curb this type of activity in 
our homeland. I look forward to learning more about our progress from 
today's expert witnesses, and I will have a few questions.
    Thank you.

    Senator Burris. My question would be directed to Secretary 
Napolitano initially in terms of your comment where you say 
that we want all the communities to be vigilant and try to help 
us identify some of this local domestic terrorism that is 
coming up.
    Madam Secretary, I just wonder, in terms of this young man 
that the FBI just caught in my State capital trying to blow up 
an Illinois Federal building, how do we reassure our 
communities that you all are doing what you can to catch these 
people and that fear does not set in that? It would cause just 
total chaos, especially in smaller communities. We take care of 
New York and we take care of Chicago. But I come from a small 
town of 14,000 people, Centralia, Illinois, and if they had a 
homegrown terrorist there, and they strike there, I think that 
would send panic throughout the entire country.
    So are we dealing with the first responders to train--how 
are we handling this, Madam Secretary? Can you help me out?
    Secretary Napolitano. Yes, Senator Burris, and the point 
you make is so vital. We cannot limit our efforts to a few 
urban areas, and so the Department's responsibilities extend 
nationwide, urban and rural, throughout the country. And it is 
the Fusion Centers where we collocate Federal, State, and local 
law enforcement. It is training that includes officers from 
departments large and small. It is exercises that cover both 
urban scenarios, and also rural scenarios and scenarios where 
you may have several events happen simultaneously, both in 
urban and rural areas. And it is also communicating that our 
security is a shared responsibility. No one Federal department 
can do it, no matter how good it is; that we need State, local, 
tribal, and territorial partners, and we need the citizenry to 
be involved as well.
    And when you do that, and when everybody recognizes it is a 
shared responsibility and that training, preparation, 
exercising, collocation, Fusion Centers, and all the rest are 
all happening, then they can address this issue out of a sense 
of preparation and not out of a sense of fear. And that is the 
way the Department operates.
    Senator Burris. Now, are we possibly having a resource 
problem when it comes to this? Because I am just trying to 
anticipate the magnitude that would be involved, and some 
taxpayers may say, this is a waste of money, this is a waste of 
time. But all it takes is one incident, one thing to happen. 
Oklahoma City really woke us up, but now we almost had another 
Oklahoma City in Springfield, Illinois, in my State capital. 
And thank God, I do not know how all of it was coordinated, but 
Mr. Mueller says that the FBI antiterrorist force was the one 
that set this thing up. So--yes, go ahead.
    Secretary Napolitano. I am sorry to interrupt. But, 
Senator, yes, and Oklahoma City is such a powerful reference to 
me because I was the U.S. Attorney in Arizona at the time, and 
we were heavily involved in the investigation of Oklahoma City 
since a lot of the planning was done in our State.
    But to your point, it is really a sense of everybody 
leaning forward and not being complacent and recognizing that 
these events can happen anywhere in our country at any time; 
that there are those who ascribe to al-Qaeda who are in our 
country and have operational training, as Mr. Leiter just said; 
but there are others as well.
    And so every law enforcement department is vested in this 
and invested in this. Our job is to make sure that those 
investments are sound, efficient, and coordinated.
    Senator Burris. Which follows up on the other question, 
because we have to have so many agencies involved. Homeland 
Security has to let the FBI know something, or we have to let 
the local law enforcement officers know something. Is the 
coordination really there? Or are there other barriers that you 
all are running into that may seem to be and could be 
challenged or that Congress can help out with in order to try 
to clear the path with bureaucracy?
    Secretary Napolitano. I will let my colleagues answer that 
question as well, because coordination is an easy word to say. 
It is a difficult thing to achieve.
    Senator Burris. Absolutely.
    Secretary Napolitano. But it is something that I think is 
much better than it was prior to 1995, when the Oklahoma City 
bombing happened; it is much better than it was prior to 
September 11, 2001. And, indeed, things have happened even in 
the last 8 or 9 months that I think have even improved 
coordination. But it is something that we are always working 
on.
    Senator Burris. Director Mueller.
    Mr. Mueller. If you look at the disruptions in the last 2 
weeks--Denver, New York, Springfield, Illinois, Dallas, North 
Carolina--every one of those cases was handled by the Joint 
Terrorism Task Force which has a number of Federal agencies 
represented and, most particularly and most importantly, in 
every one of those communities it has State and local agencies 
as participants in it.
    Senator Burris. Can you say whether or not it was 
originated with local or was it originated from the top?
    Mr. Mueller. Some of the cases have been originated from 
the local and then brought to the Joint Terrorism Task Force.
    Senator Burris. OK.
    Mr. Mueller. Others come from the community directly into 
the Joint Terrorism Task Force. There are a number of ways we 
get the cases.
    But one point you did make in terms of resources is 
important, and that is, with the budget woes that many 
communities have now, and police departments, there is a 
squeeze on in terms of manpower. We think it is tremendously 
important that we continue to have the participation of State 
and local law enforcement in the Joint Terrorism Task Forces, 
but it is becoming increasingly more difficult for a police 
chief to assign that officer.
    Senator Burris. Some of them are cutting back. They are 
laying off local law enforcement----
    Mr. Mueller. Well, and if there is one thing that I do 
think would be helpful, it is as monies are allocated from 
Congress through the Department of Justice that would be 
allocated to encourage State and local law enforcement to 
participate in Federal task forces, despite the budget concerns 
that the individual department might have.
    Mr. Leiter. Senator, if I may on the coordination point.
    Senator Burris. Yes.
    Mr. Leiter. I think both the Secretary and Director Mueller 
are exactly right, that the coordination over the past month or 
2 months is markedly improved over just 3 years ago.
    The second point I would make is in terms of sharing 
information with State and local officials so they know what 
they should be looking for, although the press just picked up 
over the past 2 or 3 weeks some of the information that was 
passed to State and local officials about some of the 
improvised explosives that might be involved in current 
threats, roughly those same products for State and local 
officials were provided more than a year ago--not based on what 
we are seeing here now today, but based on the integration of 
foreign intelligence, seeing what terrorists were doing 
overseas, taking those lessons learned, and providing them to 
State and local officials here.
    Senator Burris. That is terrific. Thank you, Mr. Chairman. 
I see my time has expired. Thank you, Senator.
    Chairman Lieberman. Thank you, Senator Burris. It just 
makes the point that we have talked about in this Committee--
and the Springfield case does--that when you are dealing with 
lone wolves and homegrown terrorism, every part of America is 
vulnerable. Naturally, we know that there is a higher 
probability that great metropolitan centers like New York, 
Washington, Los Angeles, and Chicago may be higher-priority 
targets for the terrorists, but, here you go in these cases, 
Springfield, Illinois, and Dallas, Texas. Now, Dallas, Texas, 
is a big city, but it would not probably be on anybody's list 
of the top 10 targets for terrorism.
    So this speaks to the great importance of the national 
coverage that the Joint Terrorism Task Forces and the Fusion 
Centers and all the work that you are doing gives us.
    Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I do not mean to 
disagree with your analysis of Senator Kirk's deference, but 
being the most junior Senator not too long ago, my 
recommendation would be if you get a chance to jump ahead, do 
it. [Laughter.]
    I want to thank Secretary Napolitano and Director Mueller 
and Director Leiter for being here today. I was over at the 
Veterans' Affairs Committee, and so I apologize for being late. 
I very much appreciate the work you do in helping make this 
country more secure and as secure as I think it possibly can 
be. So thank you for that.
    Madam Secretary, good to see you again. I want to get at 
something you said in your written testimony. You stated that 
DHS is reinvigorating collaboration with the State, local, and 
tribal law enforcement. I think to be bluntly honest, I do not 
know if we are where we need to be yet. At least in Montana, I 
think that there is a ways to go.
    There is no doubt that in many Northern border areas our 
law enforcement up there are first responders because the 
reality is the Border Patrol cannot be everywhere, even though 
they try to be.
    Last year, the sheriff of Toole County, which is right up 
on the northern Canada border--right at the port of Sweet 
Grass, in fact--told the Committee that on any given week 
deputies from his agency assist Federal authorities in 
apprehending port runners, border jumpers, and locating 
undocumented foreign nationals. So the role of local law 
enforcement is critical. I think you know that.
    But that means that our local folks need to know what to 
look for. They need to know about drug smuggling. They need to 
know if the folks in Director Leiter's office issue an advisory 
that relates to the Northern border. My understanding is that 
that information is not well shared between CBP and local 
communities.
    There is a Fusion Center in Montana. Unfortunately, it is 
200 miles away from the border in Helena, so it is difficult 
for local law enforcement folks to go to a 1-hour meeting at a 
Fusion Center when it is a 4 to 6-hour drive round trip, and 
sometimes longer. If you lose an officer in some of these small 
counties, like Phillips County, for an entire day, that takes a 
chunk out of your law enforcement duties. The Operation 
Stonegarden grants help alleviate equipment and overtime needs. 
We like those. But how can we actually improve intelligence 
sharing among local law enforcement areas when they are, 
frankly, in my opinion, as much a part of border security, or 
could be, as the Border Patrol itself?
    Secretary Napolitano. Thank you, Senator, and I totally 
agree with you that this is an evolving issue, and we do not 
rest on where we are, but we continue to work.
    Sparsely populated rural areas are some of the most 
difficult to cover because of long distances. And you are 
right. Sparsely populated areas typically have small economic 
bases, they have small law enforcement departments. They do not 
have a plethora of Federal agents there, so everybody has to 
work together.
    First, there is the increasing use of technology is going 
to help us bridge these gaps. For example, a secure video 
teleconferencing capacity so that people do not have to drive 
to meetings is something that we are improving and enlarging.
    Second, making sure that our own agents, as they are 
deployed in these border areas, have their own training and 
understanding this culture of sharing that we must have and are 
having their own outreach to local law enforcement.
    The third thing is to recognize--and I think it is good to 
explain the difference between a JTTF and a Fusion Center. A 
JTTF is really focused on terrorism and terrorism-related 
investigations. Fusion Centers are almost everything else. And 
some Fusion Centers are very good, very mature, others are not, 
but the whole concept of a Fusion Center is still a relatively 
new concept.
    Our plan is over the next years to really work with those 
Fusion Centers, concentrate funding on those Fusion Centers, 
recognizing the differences between one that is in a rural area 
and one that is in an urban area, and how it makes outreach to 
small towns.
    Senator Tester. Thank you for that. I want to get to port 
modernization, which I am sure you knew we were going to talk 
about.
    Eight years ago in Montana, before September 11, 2001, 
those ports were secured, in the most loosest term, by putting 
down an orange cone. That was on September 10, 2001. Since that 
time, we have got gates. We are somewhat better off. But those 
have their holes also, as you well know.
    A lot of folks, including myself, have been asking for port 
modernization and how much that is going to cost. Frankly, we 
are looking forward to the answers to those questions on how 
that money is to be used by the CBP. And, quite frankly, we 
still have questions on some of the legitimate oversight. You 
know that. We still have questions that have to be answered.
    On this border it is critically important. There have been 
a lot of reports and there are a lot of folks up there that 
know that we need to spend some money on these ports. They are 
not doing a suitable job today under the threats we have--
asbestos-contaminated wells. At one of the ports, you probably 
know, they detain the bad guys by locking them up in a 
bathroom. It does not meet 21st Century threats.
    So I guess the question is that we are in the middle of a 
30-day reassessment of those dollars. I have been told that 
those costs are going to come back lower than they were first 
as in April. I just think that it is important that we spend 
the money to match the threat. Let us just put it that way. 
Spend the money to match the threat. I do not think a cookie-
cutter approach can be used at all. I think you have the people 
in your office who can determine what that threat is and how to 
deal with it.
    I just want to know how that assessment is really changing 
the CBP ports and what you anticipate will be coming out of 
that 30-day assessment.
    Secretary Napolitano. Thank you, Senator. Yes, because 
questions were raised, we put a 30-day assessment in there. And 
to give the taxpayers confidence that these monies were not 
being wasted, the press was characterizing these as $15 million 
for five-car-a-day ports, and that was not a correct 
characterization. These are not cookie-cutter ports, and they 
do have threats that they have to match.
    What I hope comes out of this is a fair and objective look 
at the planning that has already been done and the contracts 
that already have been let. If changes need to be made, 
obviously, to the extent we can, we will make them. But I will 
share with you, Senator, I have been through those northern 
ports now with a fine pencil and feel very confident that this 
review will overall show that these ports match the threats for 
the areas for which they are designed.
    Senator Tester. OK. Well, I look forward to those reports, 
and hopefully we can get detail as far as how the money is to 
be spent, what it is to be utilized for, and, quite frankly, 
hope it will not be classified information and we know what 
those threats are.
    Just one last question, if I might, Mr. Chairman.
    Chairman Lieberman. Sure.
    Senator Tester. And I apologize. When I first got here, the 
input that we got, Director Mueller, was that the threats on 
the Northern border dealt with drugs and terrorism, mainly. The 
threats on the Southern border revolve around immigration. I 
think when you look at Canada, where 90 percent of their 
population lives within 100 miles of the border, and the fact 
that you just talked about, I think 16 terrorists were going to 
do some damage to their parliament, I guess the question I 
have: Has that assessment changed at all over the last 3 years 
or 2\1/2\ years as far as what the threats are and what we 
really need to focus on as far as those two borders?
    Mr. Mueller. In my mind, that threat has always been there, 
and look back to when Ahmed Ressam, who came down from 
Montreal, was caught on the border coming in to Washington on 
his way to blow up the Los Angeles airport. And with the 
breathing of new life into al-Qaeda in the Maghreb and some of 
the communities not only in Europe but also represented in 
Canada, and the experience before with Ressam, that means in my 
mind that we have to be aware of the threats from the Northern 
border. As people tend to concentrate on the Southern border, 
we have to be equally aware of the threats on the Northern 
border.
    Senator Tester. Thank you, and I appreciate that. I have 
always said that the border is only as strong as its weakest 
link, and we need to make sure that we secure it in a way that 
makes sense, not only to this country's national security but 
also to the taxpayers of this country. So I appreciate that 
very much. I appreciate you guys being here.
    Thank you, Mr. Chairman, for the flexibility.
    Chairman Lieberman. Thank you, Senator Tester. Senator 
Kirk, it is an honor to call on you for questions for the first 
time.
    Senator Kirk. Thank you very much, Mr. Chairman. I want to 
associate myself with other Members of the Committee who have 
given well-deserved salutes to the panel here this morning for 
all the work they have been doing improving this process of 
vigilance going forward.
    One of the questions that came up in the Zazi case, at 
least as I understand it, there was some speculation about Zazi 
and his associates having in mind densely populated, non-
governmental entities like fashion week or sports stadiums and 
so forth--I was just wondering, as we head into the baseball 
league championship series and the National Football League is 
underway, is there some coordination, conversation with the 
league officers or their individual franchises with hints of 
difficulty; or even if there are not, that secure measures are 
taken in those densely populated venues?
    Mr. Mueller. Whenever we get information relating to a 
possible threat to--it can be a State--collegiate football, 
National Football League, or other venues, baseball--that is 
passed on to the security directors of the various leagues, and 
it is coordinated.
    As I said, there is no imminent threat that we see at this 
juncture, but, again, as I stated before, we do not want to 
become complacent. But there is coordination with the league 
offices when we do get a threat.
    Senator Kirk. Thank you very much.
    A question on the Fusion Centers. In the testimony there 
are references to the densely populated urban areas, like 
Boston, or State of Massachusetts offices and so forth and a 
reference to sometimes the Federal judicial districts.
    Is the Fusion Center just a coordination of those various 
levels in sort of a task force? Or are we envisioning some sort 
of a new regional office when we talk about Fusion Centers?
    Secretary Napolitano. Senator Kirk, Fusion Centers take 
many different appearances. The classic form of a Fusion Center 
is a collocated Federal, State, local, tribal--or territorial, 
if that is relevant--facility where not only do you have 
officers collocated, but you have access to databases and you 
have a certain number of State and locals who are cleared to 
receive some types of classified information. Some Fusion 
Centers meet that; others are, quite frankly, very small and 
very isolated, and, as Senator Tester indicated, perhaps not as 
able of receiving and getting the kind of information that we 
need.
    So as we now have decided--and this is a fairly recent 
decision--that the Fusion Centers will be the focus and a major 
portal through which we share information, particularly non-
terrorist-related information, now we will work through the 
grant process and otherwise to make sure all of them reach a 
certain basic standard.
    Senator Kirk. Good. Thank you very much. The other question 
that I had is in terms of the outreach to communities in 
Boston. We have a significant Somali-American community, and 
without getting into any information that should not be 
disclosed--I understand it is sort of a proactive outreach. Is 
it more to encourage the members of those communities to fully 
understand their rights and responsibilities as American 
citizens? Is it that kind of affirmative outreach? Or is it 
basically intelligence gathering or a combination of the two?
    Mr. Mueller. When we talk about outreach, we talk about our 
special agents in charge. We have 56 of them around the 
country. They are not co-extensive with the 93 judicial 
districts, unfortunately--or fortunately. But there are 56 
field offices, and each of our special agents in charge has a 
mandate to educate, meet, learn about, become friends with the 
members of the Muslim-American community, Arab-American 
community, and Sikh-American community so that the communities 
understand what we do and why we do it, and the efforts we 
spend protecting civil liberties and civil rights.
    We have a class that is a citizens academy in each of our 
offices where we will bring members of the community for a 
several-weeks course where one night a week we will explain 
various aspects of the Bureau.
    In the wake of learning about the travel of Somali youth to 
Somalia to participate in the actions there, we would make a 
specific concentrated outreach to that community through 
specialists, and that is far different than developing sources. 
This is an effort to educate, explain, and to have them 
understand our concerns in a way that makes them a partner with 
us in addressing the threat.
    Mr. Leiter. And, Senator, if I may, I think it really is 
worth noting, of the more than 100,000 Americans of Somali 
descent here in the United States, we are talking about 
literally minute percentages that have been drawn to the fight 
in Somalia and al-Qaeda's messages--in the dozens at most, 20 
or so. So I think it is particularly important. This outreach 
is very much designed not to develop sources, but instead to 
explain to them the rights of American citizens, ensure that 
they understand the immigration system, and ensure that they 
understand the dangers of their sons being associated with 
groups like al-Shabaab and what can happen to them.
    So it is really not meant to develop intelligence. It is 
much more to ensure that they do not become a group like some 
of the South Asian communities in the United Kingdom, isolated 
from the larger U.S. society.
    Senator Kirk. Thank you. Very helpful. I appreciate it. 
Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Kirk.
    Senator Levin, welcome.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. Welcome 
to Senator Kirk. We are delighted to see him here, and we will 
welcome him on the Armed Services Committee, more 
appropriately, since I am Chairman there. I am sure our 
Chairman here has already done the honors.
    Senator Kirk. Thank you very much.
    Senator Levin. Secretary Napolitano, first let me raise 
questions with you about the Fusion Centers. You have already 
testified about them. We have, I think, two of them now in 
Michigan, and the question is the funding. And you have 
indicated, I think in your last testimony, that we are going to 
make sure that we reach a basic standard through the grant 
process in terms of financial support for these centers. And 
the problem is that the grant process does not guarantee a 
steady stream of funding for the Fusion Centers because there 
is a lot of competition for those grants.
    And so there is a real stress on the Fusion Center that we 
have. The one I am most familiar with is the Michigan 
Intelligence Operations Center, which is Michigan's Fusion 
Center. We have State, local, and Federal agencies all 
represented there. But in terms of funding, there are some real 
problems in terms of future funding.
    How are you going to assure through a grant process that 
Fusion Centers are going to be adequately funded given the 
competition for dollars?
    Secretary Napolitano. Senator, obviously we cannot provide 
a guarantee, but what we can do and are doing is steering the 
dollars that we have discretion over in the grant process to 
fund the things that we think should receive priority.
    Now, with respect to Fusion Centers, let me put on my 
former governor's hat for a moment. Of course, every budget is 
under stress, and Michigan's is under more stress than perhaps 
any other State. But they are a good deal from a law 
enforcement expenditure perspective in terms of basically the 
yield per officer, in terms of what you get particularly from a 
prevention standpoint.
    So we will have a very active outreach program with 
governors and mayors, and part of that is making sure they know 
what the Fusion Centers do and how they, really from a 
budgetary standpoint, are a very good expenditure of the 
limited dollars they have.
    Senator Levin. I hope you will really take a look at that. 
It should be a priority. Coordination is what has been so 
lacking over the years. I know everyone is making an effort to 
improve coordination, integration of information, and that is 
where it is done in terms of these assessments at a State and 
local level. So I hope that you will really pay some attention 
to that issue.
    On the operational side, where are operations coordinated? 
And here I will look to Mr. Mueller on this. We have task 
forces. Is that where operations are coordinated?
    Mr. Mueller. Yes. We have now, I think, 106 Joint Terrorism 
Task Forces. Represented on those task forces are the other 
Federal agencies in that area and the State and local law 
enforcement. Any threat information comes in, it is immediately 
investigated. And so it is a combination of intelligence 
gathering and then the immediate investigation to follow 
whatever leads there are about a potential threat. And that is 
where it is coordinated.
    Senator Levin. All right. Now, looking at the information 
side of this, is there one place where all information about 
potential threats is centralized now? Can a law enforcement 
person call one number and say, ``Hey, there is a guy here at 
the border'' or ``We have just arrested somebody. What do we 
have on him?'' Is there one place in this country with people 
from Customs, the Treasury, the FBI, Homeland Security, State 
police, and you name it, where all the information goes?
    Mr. Mueller. Yes, I would say that my friend to the left 
from the National Counterterrorism Center, who has access to 
all of our databases----
    Senator Levin. No, not access to. Is there one database 
where somebody can make a phone call, a cop at a local level 
calls up and says, ``Hey, we have got a guy''?
    Mr. Leiter. The answer is yes, Senator. A cop at a local 
level in Michigan or Connecticut or Maine or Massachusetts, a 
consular official checking a visa in Islamabad, a Customs and 
Border Protection agent, they type into their own computer and 
they will get information about that person, whether or not 
they are associated with terrorists. And if they have a 
question, they are going to pick up the phone----
    Senator Levin. And that information comes to the NCTC?
    Mr. Leiter. That comes to the NCTC and is supported by the 
Terrorist Screening Center of the FBI. So, yes, there is one 
place that it all comes together at NCTC.
    Senator Levin. OK. With one phone number, that person gets 
all the information about that individual from all sources.
    Mr. Leiter. Correct.
    Senator Levin. Are there any missing pieces? Are there any 
sources that are not inputting their information into that 
single computer?
    Mr. Mueller. There are no sources of information that the 
U.S. Government holds about known or suspected terrorists that 
are not there.
    Senator Levin. Secretary, did you want to add something?
    Secretary Napolitano. No. I would echo what Mr. Mueller 
said.
    Senator Levin. Now, going back to the Zazi case, I know, 
Director, you have commented on this, saying that it was 
overblown that there was any kind of disconnect between, I 
guess, the local police in that case and the FBI. Is that 
correct?
    Mr. Mueller. I believe so.
    Senator Levin. Putting aside whether it was overblown or 
not, was there a problem?
    Mr. Mueller. Well, in every investigation, and particularly 
a fast-moving investigation, there are steps that are taken 
that may or may not work out. This is no different than any 
other investigation, and----
    Senator Levin. Is there any procedural or structural 
failure at all here?
    Mr. Mueller. I do not believe that there is a procedural or 
structural failure. There is one thing that happens in an 
investigation--an investigation never goes the way you want it 
to, and----
    Senator Levin. I understand that, and I know you understand 
it better than I will ever understand it. Is there something 
that somebody should have done or not done?
    Mr. Mueller. In retrospect, there will always be things 
that you would do differently, but----
    Senator Levin. Is there a lesson to be learned----
    Mr. Mueller [continuing]. It does no good to----
    Senator Levin. I understand.
    Mr. Mueller [continuing]. Go and dissect----
    Senator Levin. No. It does do good. We want to learn 
lessons. I am just asking. I know things are overblown. That 
does not mean there is nothing there.
    Mr. Mueller. Yes.
    Senator Levin. Is there a lesson to be learned?
    Mr. Mueller. On this one, I do not think so.
    Senator Levin. Good. That is responsive to my question, and 
that is all I needed to hear. Thank you.
    Chairman Lieberman. Thanks, Senator Levin.
    If you can put up with it, we will do one more round, which 
will be quick because there are fewer of us here.
    Let me go back to the question of infiltration of 
terrorists from abroad who come from the United States, and I 
want to deal with the al-Shabaab case. This is the most unusual 
case of the Somali-American community in Minneapolis and 
elsewhere. We have had testimony here. Mr. Leiter, you are 
right, this is a very small fraction of that community. In 
fact, the community is feeling a combination of outrage, anger, 
and fear that this has happened.
    But this is an unusual case because they also seemed to be 
recruited to be part of the conflict over in Somalia. But, 
naturally, we are concerned that once they are there and 
involved in a terrorist group--which al-Shabaab does have ties, 
we had testimony here, to al-Qaeda and others--because they are 
American citizens and they have legal status here, they will be 
able to return to carry out attacks against us.
    Do you share that concern, Director Mueller?
    Mr. Mueller. Absolutely. And not just with those who travel 
to Somalia but those who travel, say, to Yemen to maybe train, 
those who travel to the western part of Pakistan, the Federally 
Administered Tribal Areas. We had the example of an individual 
by the name of Vinas from New York who was trained in the 
camps, and----
    Chairman Lieberman. In Pakistan?
    Mr. Mueller. In Pakistan, but then participated in an 
operation, as I think you or others pointed out, in 
Afghanistan.
    Chairman Lieberman. I mentioned it, right.
    Mr. Mueller. And then returned to the United States--well, 
actually was returned to the United States. But our concern 
would be the same.
    Chairman Lieberman. Yes. So is there any evidence that 
there is any intention by al-Shabaab to send these recruits 
back to the United States for this purpose?
    Mr. Mueller. I think at this juncture--I would defer to Mr. 
Leiter on this, but I think that we have seen some information 
that the leaders would like to undertake operations outside of 
Somalia, but no hard information or evidence that has been 
effectively pursued. And I would defer to him on whether he----
    Chairman Lieberman. Do you want to add anything, Mr. 
Leiter?
    Mr. Leiter. I think Mr. Mueller is exactly right. There is 
al-Shabaab, and the leadership of al-Shabaab is clearly 
associated with al-Qaeda elements in Somalia.
    Chairman Lieberman. Right.
    Mr. Leiter. And it is those al-Qaeda elements that we fear 
will push al-Shabaab members----
    Chairman Lieberman. To send people back.
    Mr. Leiter [continuing]. To change their focus.
    Chairman Lieberman. And we are obviously watching that to 
the best of our ability.
    Mr. Mueller. Yes, sir.
    Chairman Lieberman. Let me ask a different kind of 
question, Secretary Napolitano, related to the Zazi case. The 
Homeland Security Advisory Council, as you well know, recently 
completed its review of the color-coded threat level system, 
and I guess I would ask you what your reaction to their 
recommendations is or where you are in the process of deciding 
what to do with that. But in regard to the Zazi case, I am 
interested in knowing whether at any point you considered 
raising the threat level in response to what we are learning 
about the Zazi plot, even perhaps for a particular region or 
sector--well, of course, once it became public, it was 
essentially raising the threat level.
    So I am interested in the extent to which the color-coded 
system was in your mind as you were learning about this really 
significant, and in some sense unprecedented since September 
11, 2001, plot to attack the United States.
    Secretary Napolitano. Two parts to your question. One is, 
yes, I did appoint a task force to review the color-coded 
system. It has been in place a number of years now, and it is 
time to take a fresh look. They have given me their 
recommendations. I am in the process of reviewing those. Then I 
will submit those into the interagency process and ultimately 
to the President. So that review is ongoing.
    Chairman Lieberman. OK.
    Secretary Napolitano. And that is where it is right now.
    In terms of Zazi, we thought about it and rejected it, 
because we did not have in the Zazi investigation any kind of a 
specific location, time, threat that in our view would justify 
actually raising the color code. So it was contemplated and 
rejected, given the nature of the investigation and the nature 
of the intelligence that we had.
    Chairman Lieberman. OK. Good enough.
    Let me ask a final series of questions about how some of 
the people in these cases become radicalized, because 
obviously, to the extent that we are able, if we could figure 
that out, we try to stop it from happening or counteract it.
    Am I right that in Zazi's case there is no evidence that he 
was radicalized when he came here 10 years ago or that he was 
sent here on a mission 10 years ago?
    Mr. Mueller. I do not believe there is any evidence of 
that.
    Chairman Lieberman. So that he became radicalized here.
    Mr. Mueller. Well, much of his family resides in Pakistan, 
and he visited Pakistan, so I think it is----
    Chairman Lieberman. Good point. So I guess I would say he 
became radicalized after he came here in 1999, but it may well 
not have happened here. It may have happened over there.
    Mr. Mueller. Yes, I think that is fair to say.
    Chairman Lieberman. So that may be a somewhat unique case 
because he was traveling--we do not have any particular 
information now, I gather, about whether he became radicalized 
in a mosque, over the Internet, here, or wherever.
    Mr. Mueller. Well, at this point, because of a continuing 
investigation, I am hesitant to go into any more detail on it.
    Chairman Lieberman. OK, understood. And in the case of 
Finton in Illinois, as was discussed with Senator Collins, 
there was a case where, to the best of our knowledge, we know 
he converted in prison. Is there evidence yet that he was 
radicalized in prison, or did that come later?
    Mr. Mueller. I think, again, it is in the stages of 
litigation, but I do believe that the conversion and 
radicalization is principally attributable to that time that he 
was in jail.
    Chairman Lieberman. Incarcerated.
    Mr. Mueller. But there were probably other factors 
afterwards that continued to contribute to it.
    Chairman Lieberman. Right. Obviously, that raises exactly 
the questions that you answered that Senator Collins raised 
about what prison authorities should be doing to try to deter 
that from happening.
    Mr. Mueller. Yes.
    Chairman Lieberman. And in the case of Smadi in Texas, I 
gather he is a Jordanian citizen who came here on a student 
visa.
    Mr. Mueller. I believe that he was in the United States on 
a B2 temporary Visitor Visa.
    Chairman Lieberman. And then he overstayed. Is that right?
    Mr. Mueller. Yes, that is right. It expired in September 
2007.
    Chairman Lieberman. But do we have any knowledge of what 
turned him into a bomber?
    Mr. Mueller. I think with Finton and Smadi, as you say, the 
Internet played somewhat of a role, particularly with the one 
in Dallas.
    Chairman Lieberman. Right. I know this is tough stuff, but 
what kinds of lessons can we draw about what possibly we can do 
to deter--I mean, we are talking about large communities here 
in which there are a very small number of people who become 
radicalized. How do we fight it? And do, for instance, the 
engagement teams that you are sending out fight it.
    Now, incidentally, as I told you the other day, Director 
Mueller, we had a hearing here earlier in the year with leaders 
of the Muslim American community, and I was interested and, I 
will tell you, surprised to hear that the Federal agency that 
they had the most extensive and, they thought, constructive 
relations with was the FBI, which is a tribute to your special 
agents around the country. But tell me about the engagement 
teams and whether you think they are having any effect on 
deterring the radicalization process.
    Secretary Napolitano. Well, Senator, these are teams that 
are sent out to have outreach in a way, as described by Senator 
Kirk, to talk to people about America, the rights, the 
liberties that people have here, the responsibilities that 
people have here, get to know them, get them to know us.
    One of the things we have learned from the United Kingdom, 
for example, is that alienation is a factor or an element that 
is present oftentimes when someone is in the process of 
becoming radicalized. And so to the extent that we can engage 
undercuts at least that feature of the radicalization process.
    We are really working with some of our partners such as the 
United Kingdom, who have had more experience with this kind of 
domestic radicalization than we have, to see what other 
practices that they have begun or started that we could 
profitably employ here.
    Chairman Lieberman. Good. Thank you. My time is up. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    We have had a great deal of discussion this morning about 
the importance of coordination and information sharing. 
Obviously, a great deal of progress has been made, but there 
are some areas that are still rough and not perfect, and, 
Director Mueller, I want to ask you about one of those. The 
Justice Department's Inspector General recently released a 
report on the FBI's weapons of mass destruction (WMD) 
coordinator program, and the report found that even though the 
WMD coordinators are supposed to serve as the Bureau's WMD 
experts in the field, many of them were unable to even identify 
the top WMD threats and had not received adequate training. 
According to the report, there was little interaction between 
the WMD coordinators and the intelligence analysts who compiled 
the WMD assessments.
    What is your reaction to the findings in that report and 
the recommendations?
    Mr. Mueller. Well, I think there are 13 recommendations, if 
I am not mistaken, in that report, and we have followed up on 
each of those recommendations.
    It must be 2 or 3 years ago that we established with the 
consent and approval of Congress a WMD Division and have stood 
that up from scratch, pulling the personnel from a variety of 
other divisions to focus on weapons of mass destruction. This 
is in part as a result of the anthrax attacks in 2001.
    And so it has some birthing pains as it grew, and what we 
now have throughout the country in each of our 56 field 
offices, I believe, is not only interested but educated and 
have professional persons who can address these particular 
issues.
    Whenever there is--and we still get a ton of them--an 
envelope with white powder, there is a response that brings in 
not only our experts but experts from DHS and other experts to 
find its way in response to that particular threat. Key to that 
are our personnel on the ground, but also key to it is being 
able to get back on a coordinated call with the experts in this 
field to decide what you are going to do in each step.
    So we have grown the division, the WMD Division. The 
recommendations that the IG made we have followed up on, and I 
think we still have a ways to go, but are doing much better in 
terms of response to any threat in the WMD arena.
    Mr. Leiter. And, Senator, if I may.
    Senator Collins. Yes.
    Mr. Leiter. Just to give you an anecdote of something that 
would have been, I think, unheard of before September 11, 2001, 
the FBI's WMD operational component at headquarters is actually 
collocated with NCTC's WMD analysts, who are collocated with 
the foreign operators and intelligence analysts who work on 
WMD. So they are literally side by side sharing that 
information.
    Senator Collins. That is terrific to hear.
    Mr. Leiter, you mentioned earlier the creation of the NCTC, 
which I always thought was the most important part of the 2004 
reforms in addition to the creation of the Director of National 
Intelligence. And I really commend you and everyone who is 
working there for bringing our concept to life in such an 
effective way.
    I do want to ask you, because there was so much controversy 
at the time, how the authority to engage in strategic 
operational planning is working. There is no doubt that the 
other side of the shop, the sharing of information and having 
the analysts sit side by side, is working very well. But are 
you engaged in strategic operational planning?
    Mr. Leiter. Senator, we are, but I would agree with you, it 
is not nearly as advanced as the intelligence sharing that in 
many ways was an evolutionary responsibility; whereas, the 
strategic planning responsibilities are really revolutionary 
since they cut across all departments and agencies and are a 
direct report to the President.
    What it requires, because of the way in which the law is 
written, without a command authority--which I think is quite 
appropriate--is a true partnership. And what I have seen over 
the last 8 months with the change of the Administration is a 
new set of eyes and new approaches from people who may have not 
been as wedded to doing things the old way and an appreciation 
that there must be slightly stronger synchronization of 
activities across the worlds of law enforcement, homeland 
security, but also diplomacy, military, and so on.
    So the planning is going on at a high level strategically. 
It is going on at a more granular level, as I said, in helping 
to ensure that our outreach efforts both domestically and 
overseas are speaking to the challenges we see in some of our 
Somali population, and then all the way down to the budget 
level to make sure those programs are well aligned.
    Senator Collins. I hope that you will keep in close touch 
with this Committee on that issue.
    Let me just ask one final question of all of our panelists, 
and it is a variation of the ``What keeps you up at night?'' 
question, which the Chairman is very fond of asking our 
witnesses. But let me make it more precise.
    What gaps in our knowledge or our capabilities concern you 
the most? We will start with you, Madam Secretary.
    Secretary Napolitano. Well, thank you. I was going to say 
what keeps me up at night is preparing for hearings. 
[Laughter.]
    But I think I want to go back to Senator Levin's question 
about is there one number you call where you can get all 
relevant information. Our ability to do that I still think is 
in the developmental stage. I think that for any well-trained 
law enforcement official, he knows several places to call which 
will get him to the right answers. But in some instances there 
may be classified information that cannot be shared. In some 
instances the information may be spread among different 
departments still.
    So our ability to really not only collect information but 
to fuse it is really part and parcel of where the Department is 
moving so you have that direct connectivity with an officer on 
the street.
    Right now I think officers on the street or State police 
officers may know to call the JTTF, they may call a Fusion 
Center; they may call the Department of Homeland Security in 
Washington, DC. They know to call somewhere, that somewhere 
someone can get them to the right information. But the whole 
business of fusing consolidation and making sure that we have 
streamlined this as much as possible given that some 
information will have to remain classified is, in my view, 
still a work in progress.
    Senator Collins. Mr. Mueller, gaps in capabilities or 
knowledge?
    Mr. Mueller. Well, my greatest concern still is the ability 
of al-Qaeda to use western Pakistan and Afghanistan as a 
sanctuary. To the extent that I worry, and do, about a weapon 
of mass destruction in the hands of a terrorist, it is that 
orchestrated out of that sanctuary there will be the capability 
of either developing or obtaining a weapon of mass destruction.
    If you look at the most serious case we have had recently, 
which is the Zazi case, it was training in Pakistan that gave 
him the capability of undertaking the attack. And the ability 
to obtain intelligence, to reduce the threat from that area is, 
in my mind, absolutely key to protecting the homeland.
    Senator Collins. Thank you. Mr. Leiter.
    Mr. Leiter. Senator, I think what keeps me up at night, the 
capability that is a challenge, is that in a country of more 
than 300 million people, where the overwhelmingly vast majority 
finds terrorism abhorrent, how do we as a team locate those 
one, two, 10, or 20 who feel differently? And how do we do that 
in a way that is not invasive of those other 300 million plus? 
And how do we ensure that you as a Congress and those 300 
million plus people have sufficient trust in our organizations 
that we can do this with a level of secrecy so it is not played 
out in the press but individuals like yourself and others in 
the Congress and the public believe that we are not 
inappropriately invading their privacy and their civil 
liberties in a way that should not be done.
    Ensuring that we can strike that right balance remains a 
challenge, and I think even 8 years after September 11, 2001, 
remains a very significant one.
    Senator Collins. Thank you for that very thoughtful 
response.
    I think the issue of the lone wolf, the individual who has 
been radicalized perhaps using the Internet, is so difficult 
for us to deal with, and I commend all of your efforts and the 
progress that you have made. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. What is going to 
keep me up tonight is a number of things, but one of them will 
be the difference in the answers that I received to my question 
from you, Secretary Napolitano, and you, Director Leiter, as to 
whether or not there is a place where all information 
concerning potential terrorists or people who might threaten us 
is accumulated and can be given promptly to, immediately to 
somebody who is in law enforcement who has arrested somebody. 
We all know the story of what happened before September 11, 
2001, where the CIA had information it would not share with the 
FBI. I know we are way beyond that. I hope we are way beyond 
that.
    But talking about fusion, now there is some confusion 
because----
    Mr. Leiter. And if given an opportunity, I would be happy 
to clarify.
    Senator Levin. Yes, let me give you that opportunity.
    Mr. Leiter. Senator, I tried to phrase my answer quite 
precisely, which is there is one place in the U.S. Government 
where all information about known and suspected terrorists 
comes, which is the National Counterterrorism Center, which is 
subsequently shared with the FBI's Terrorist Screening Center. 
So if any one of those screeners come across someone and they 
have a question, they should know to call the Terrorist 
Screening Center, and, in fact, that data will be held at NCTC, 
and they will be able to provide information to that police 
officer or consular official.
    What I think Secretary Napolitano said, and which I would 
agree with wholeheartedly, is really two challenges. One, 
ensuring that the police officer on the beat understands that 
system and knows to whom to turn, which is different from 
asking whether or not there is a place within the U.S. 
Government where all that information resides. It is reaching 
that last tactical mile to ensure there is an understanding and 
a streamlined way in which it can be done, and that police 
officer or that port official understands that.
    The second piece that I think is equally important, 
Senator, is that my organization holds statutorily that 
responsibility to hold information about known and suspected 
terrorists. The U.S. Government, ranging from the Internal 
Revenue Service (IRS) to the Department of Homeland Security 
and every other acronym that we have here in Washington, DC, 
holds other data. What we do not hold is all of that data 
together. Is there a piece of data out there at DHS or at the 
IRS, for that matter, that might in some way be a bit of data 
that relates to someone that we do not yet know is a terrorist? 
Absolutely.
    Senator Levin. Well, obviously, there is.
    Mr. Leiter. And that is a challenge.
    Senator Levin. I can see that, but as soon as it does 
relate to an individual, presumably it is sent to your Fusion 
Center.
    Mr. Leiter. That is correct.
    Senator Levin. I do not understand, then, your answer as to 
how that answer is the same as Secretary Napolitano's answer, 
which is that--we better get to Secretary Napolitano.
    Secretary Napolitano. Well, Director Leiter and I spend a 
lot of time together, so I think our answers are very 
consistent.
    Senator Levin. Good. Try your answer again. What is 
missing?
    Secretary Napolitano. What I am saying, Senator, is the 
process of training and attuning all law enforcement, no matter 
what level or where located, about where to call or where to go 
is still ongoing and is one of the functions, I think, or one 
of the great things that will happen when, as the Fusion Center 
concept develops, whatever it is, you will have something right 
there that everybody knows at least to call there.
    But I will share with you that the hypothetical you raise, 
someone at the border who comes in, those screeners are going 
to know.
    Senator Levin. I said the cop on the street. I said, Is 
there a number he can call where all the information that is 
known about a particular information has been centralized? That 
was my question, and the answer I thought was yes coming from 
Director Leiter, and I thought that you said we have got quite 
a ways to go in that regard. I understand that maybe there are 
some law enforcement officers out there who are not aware that 
they could call that number. That is just a matter of educating 
every----
    Mr. Leiter. The beauty of the system, Senator, is it is 
transparent to that cop on the street. When that cop----
    Senator Levin. That was not my question, whether it is 
transparent. My question is: Is it complete? Is all the 
information that all the agencies have about individuals who 
might constituent a threat to this country filtered or supposed 
to be filtered into that one number? That was my question.
    Mr. Leiter. All of the information about known and 
suspected terrorists is held by the National Counterterrorism 
Center.
    Senator Levin. And it is supposed to all go there and all 
the agencies know it.
    Mr. Leiter. Correct.
    Senator Levin. Maybe every police officer does not know to 
call that number, but every agency--State, local, Federal--
knows all information about potential threats to the United 
States is supposed to go to that central place.
    Mr. Leiter. Correct.
    Senator Levin. Now, is that true?
    Secretary Napolitano. That is true. The National 
Counterterrorism Center holds the raw data, and so a trained 
police officer ought to know either to call there or to call 
his local Fusion Center to get connectivity there.
    Senator Levin. That is fine. That is what you said, too, 
Director Leiter. He may not know to call there, but if he knows 
to call there, it will all be there.
    Mr. Leiter. Yes.
    Secretary Napolitano. Yes.
    Senator Levin. OK. Well, I think I have a minute left, so 
let me just ask a question about these demonstration projects.
    Chairman Lieberman. A minute and a half.
    Senator Levin. These international interoperable 
demonstration projects, Secretary. I have forgotten how many, 
like four or six we have funded. Do you know the status of 
those cross-border projects between us and Canada and us and 
Mexico? We have these demonstration projects which apparently 
are somewhere in the works. Do you know what the status is of 
that? And if not, would you give us that for the record?
    Secretary Napolitano. Yes, we will.
    Senator Levin. And, also, if you would, Madam Secretary, 
for the record--you indicated that there are some discretionary 
funds that you could steer to the Fusion Centers, and if you 
could for the record identify what those sources are.
    Secretary Napolitano. I would be pleased to do so.\1\
---------------------------------------------------------------------------
    \1\ The information submitted for the record from Secretary 
Napolitano in responses to questions from Senator Levin appears in the 
Appendix on page 189.
---------------------------------------------------------------------------
    Senator Levin. Thank you all.
    Chairman Lieberman. Thanks, Senator Levin.
    Since Senator Collins asked a variation of my ``What keeps 
you up at night?'' question, I want to exercise the prerogative 
of the Chair and ask you a quick question, which is in terms of 
what we can do to help you further.
    Is there one thing that we can do that you need, either by 
way of additional statutory authority or resources for a 
particular program that we are not supporting now that would 
assist you in the work of counterterrorism that you do? Mr. 
Mueller.
    Mr. Mueller. I will leap into the fray and say, yes, the 
PATRIOT Act is going to be debated. I know it has been--those 
provisions have been very essential to us, particularly the 
first two which relate to the business records provision.
    Chairman Lieberman. Right.
    Mr. Mueller. And, second, the roving wiretaps. And a third, 
while it has not been used on lone wolf, it will be and is 
important if we get the similar situation that we had with 
Moussaoui in 2001. So I would urge the reenactment of those 
provisions.
    I also would make a point in terms of National Security 
Letters. Our success and our information is in large part 
attributable to the information we can gather not of 
substantive conversations but of the telephone toll data that 
we obtain by reason of National Security Letters. And so it is 
really retaining these capabilities that is important.
    The other point that I did make, tried to make, and that 
is, in terms of continuing the vigilance and the participation 
of State and local law enforcement on the Joint Terrorism Task 
Forces in a time where their budgets are being hit, I would 
encourage as Congress and the Administration allocate monies to 
State and local law enforcement, that it is done as an 
incentive to participate in that which is very important to the 
national well-being but not so important when the police chief 
is more concerned about violent crime on the streets.
    Chairman Lieberman. Sure. That is very helpful. To me it is 
very significant that your first answer was about the PATRIOT 
Act reauthorization and then the National Security Letters. I 
hope our colleagues will keep that in mind.
    Secretary Napolitano.
    Secretary Napolitano. Well, I would add to Director Mueller 
that supporting funding that assists not just the JTTFs but the 
Fusion Centers as well.
    And then to build on something that was mentioned earlier, 
we call it homeland security, but homeland security begins in 
many instances abroad. And particularly what happens in 
Pakistan and Afghanistan is a source for many of the threat 
streams ultimately that we are expending resources on, there is 
an impact here in the homeland.
    So really commending that understanding, that homeland 
security does not actually start at the borders of the United 
States.
    Chairman Lieberman. Well said. Mr. Leiter.
    Mr. Leiter. Mr. Chairman, two quick areas I would say. 
First, continuing to enable the softer elements of national 
power domestically and overseas, so we have the diplomatic 
corps and the foreign aid, so you can get to these areas and 
try to undermine the spread of violent extremism before it 
occurs.
    Second, more theoretical and less tangible, something you 
cannot put into a law, but continue to urge, as you always do 
on this Committee, to approach counterterrorism with a truly 
bipartisan spirit. Really, the fact that Mr. Mueller and I 
served in the Bush Administration and serve now today I believe 
is testament to the fact that it matters not what party you 
are. Certainly Zazi or any of these other fellows we have been 
talking about would not have cared whether or not they were 
Democrats or Republicans in charge. And what we do is in almost 
every instance nonpartisan anyway.
    Chairman Lieberman. That is a very important statement. A 
perfect one to end on. We try our best to reflect that attitude 
of national interest first on this Committee, and generally 
speaking on these matters, I think that is reflected throughout 
the Congress.
    I thank you for the time you have given us. I come back to 
my thanks to you at the beginning for the extraordinary 
progress I think we have made in the 8 years since September 
11, 2001, but we know that we have a patient and persistent and 
fanatical enemy out there, and it is going to be a long time 
before we can really declare victory here against this 
particular enemy.
    Senator Collins, would you like to say anything?
    Senator Collins. Thank you. You said it well.
    Chairman Lieberman. Thank you very much.
    The hearing record will be kept open for 15 days for 
additional statements or questions. The hearing is adjourned.
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
